<html>
<title> - BUILDING SMARTER: THE BENEFITS OF INVESTING IN RESILIENCE AND MITIGATION</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


              BUILDING SMARTER: THE BENEFITS OF INVESTING 
                        IN RESILIENCE AND MITIGATION

=======================================================================

                                (117-8)

                             REMOTE HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 2021

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation                             
                             
                              __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-336 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                              
                            

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
BRIAN J. MAST, Florida               DONALD M. PAYNE, Jr., New Jersey
MIKE GALLAGHER, Wisconsin            ALAN S. LOWENTHAL, California
BRIAN K. FITZPATRICK, Pennsylvania   MARK DeSAULNIER, California
JENNIFFER GONZALEZ-COLON,            STEPHEN F. LYNCH, Massachusetts
  Puerto Rico                        SALUD O. CARBAJAL, California
TROY BALDERSON, Ohio                 ANTHONY G. BROWN, Maryland
PETE STAUBER, Minnesota              TOM MALINOWSKI, New Jersey
TIM BURCHETT, Tennessee              GREG STANTON, Arizona
DUSTY JOHNSON, South Dakota          COLIN Z. ALLRED, Texas
JEFFERSON VAN DREW, New Jersey       SHARICE DAVIDS, Kansas, Vice Chair
MICHAEL GUEST, Mississippi           JESUS G. ``CHUY'' GARCIA, Illinois
TROY E. NEHLS, Texas                 ANTONIO DELGADO, New York
NANCY MACE, South Carolina           CHRIS PAPPAS, New Hampshire
NICOLE MALLIOTAKIS, New York         CONOR LAMB, Pennsylvania
BETH VAN DUYNE, Texas                SETH MOULTON, Massachusetts
CARLOS A. GIMENEZ, Florida           JAKE AUCHINCLOSS, Massachusetts
MICHELLE STEEL, California           CAROLYN BOURDEAUX, Georgia
                                     KAIALI`I KAHELE, Hawaii
                                     MARILYN STRICKLAND, Washington
                                     NIKEMA WILLIAMS, Georgia
                                     MARIE NEWMAN, Illinois
                                     Vacancy
                                     
                                ------                                7

      Subcommittee on Economic Development, Public Buildings, and
                          Emergency Management

     DINA TITUS, Nevada, Chair
DANIEL WEBSTER, Florida              ELEANOR HOLMES NORTON,
THOMAS MASSIE, Kentucky                District of Columbia
JENNIFFER GONZALEZ-COLON,            SHARICE DAVIDS, Kansas
  Puerto Rico                        CHRIS PAPPAS, New Hampshire
MICHAEL GUEST, Mississippi           GRACE F. NAPOLITANO, California
BETH VAN DUYNE, Texas                JOHN GARAMENDI, California
CARLOS A. GIMENEZ, Florida           Vacancy
SAM GRAVES, Missouri (Ex Officio)    PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Dina Titus, a Representative in Congress from the State of 
  Nevada, and Chair, Subcommittee on Economic Development, Public 
  Buildings, and Emergency Management:

    Opening statement............................................     1
    Prepared statement...........................................     4
Hon. Daniel Webster, a Representative in Congress from the State 
  of Florida, and Ranking Member, Subcommittee on Economic 
  Development, Public Buildings, and Emergency Management:

    Opening statement............................................    12
    Prepared statement...........................................    12
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................    13
    Prepared statement...........................................    14
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    75

                               WITNESSES

Russell J. Strickland, Executive Director, Maryland Emergency 
  Management Agency, on behalf of the National Emergency 
  Management Association:

    Oral statement...............................................    17
    Prepared statement...........................................    18
Roy E. Wright, President and Chief Executive Officer, Insurance 
  Institute for Business and Home Safety:

    Oral statement...............................................    22
    Prepared statement...........................................    23
Velma Smith, Senior Government Relations Officer, Flood-Prepared 
  Communities Initiative, The Pew Charitable Trusts:

    Oral statement...............................................    35
    Prepared statement...........................................    36
Ben Harper, Head of Corporate Sustainability, Zurich North 
  America:

    Oral statement...............................................    44
    Prepared statement...........................................    46
John C. Fowke, Chairman, National Association of Home Builders:

    Oral statement...............................................    50
    Prepared statement...........................................    51

                       SUBMISSIONS FOR THE RECORD

Submissions for the Record by Hon. Dina Titus:

    Statement of the BuildStrong Coalition.......................     6
    Letter of March 17, 2021, from the SmarterSafer Coalition....     9
Letter of March 18, 2021, from the National Ready Mixed Concrete 
  Association; National Stone, Sand and Gravel Association; and 
  Portland Cement Association, Submitted for the Record by Hon. 
  Daniel Webster.................................................    75

                                APPENDIX

Questions to Russell J. Strickland, Executive Director, Maryland 
  Emergency Management Agency, on behalf of the National 
  Emergency Management Association, from:

    Hon. Peter A. DeFazio and Hon. Dina Titus....................    79
    Hon. Michael Guest...........................................    86
Questions to Roy E. Wright, President and Chief Executive 
  Officer, Insurance Institute for Business and Home Safety, 
  from:

    Hon. Peter A. DeFazio and Hon. Dina Titus....................    87
    Hon. Michael Guest...........................................    92
Questions to Velma Smith, Senior Government Relations Officer, 
  Flood-Prepared Communities Initiative, The Pew Charitable 
  Trusts, from:

    Hon. Peter A. DeFazio and Hon. Dina Titus....................    93
    Hon. Michael Guest...........................................   102
Questions to Ben Harper, Head of Corporate Sustainability, Zurich 
  North America, from:

    Hon. Peter A. DeFazio and Hon. Dina Titus....................   103
    Hon. Michael Guest...........................................   106
Questions to John C. Fowke, Chairman, National Association of 
  Home Builders, from:

    Hon. Peter A. DeFazio and Hon. Dina Titus....................   107
    Hon. Michael Guest...........................................   111

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                             March 15, 2021

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Economic Development, 
Public Buildings, and Emergency Management
    FROM:  LStaff, Subcommittee on Economic Development, Public 
Buildings, and Emergency Management
    RE:      LSubcommittee Hearing on ``Building Smarter: The 
Benefits of Investing in Resilience and Mitigation''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Economic Development, Public Buildings, 
and Emergency Management will meet on Thursday, March 18, 2021, 
at 2:00 p.m. in 2167 Rayburn House Office Building and via 
Cisco Webex, to receive testimony on ``Building Smarter: The 
Benefits of Investing in Resilience and Mitigation.'' At the 
hearing, Members will receive testimony from witnesses with 
expertise in emergency management, mitigation and resilience, 
insurance, and construction. The Subcommittee will hear from 
the National Emergency Management Association, the Insurance 
Institute for Business and Home Safety, the Pew Charitable 
Trusts' Flood Prepared Communities program, Zurich North 
America, and the National Association of Home Builders.

                               BACKGROUND

    For the last several years, the United States has 
experienced an increasing and unprecedented number of 
significant hazard events--hurricanes, tornados, floods, 
derechos, wildfires, abnormal heatwaves, and freezes--that have 
impacted tens of millions of Americans and taken varying tolls 
on countless communities.\1\
---------------------------------------------------------------------------
    \1\ See Disaster Preparedness: DRRA Implementation and FEMA 
Readiness. Hearing before the Subcommittee on Economic Development, 
Public Buildings, and Emergency Management. 116th Congress, May 22, 
2019. See also Building a 21st Century Infrastructure for America: 
Mitigating Damage and Recovering Quickly from Disasters. 115th 
Congress, April 27, 2017.
---------------------------------------------------------------------------
    Decades of regular federal data collection and scientific 
research and analysis, as well as private sector research 
indicates that these types of events are increasing.\2\ A 
review of requests for Federal emergency assistance and/or 
disaster relief from the Federal Emergency Management Agency 
(FEMA) is accordingly on the rise as state, tribal, 
territorial, and local governments' capacity to respond to and 
recover from these events is quickly exceeded given the scale 
and associated losses.\3\
---------------------------------------------------------------------------
    \2\ National Oceanic and Atmospheric Administration (NOAA), 
``Billion-Dollar Weather and Climate Disasters: Events''. Available at: 
https://www.ncdc.noaa.gov/billions/events.
    \3\ Congressional Research Service. Stafford Act Declarations 1953-
2016: Trends, Analyses, and Implications for Congress (R42702). August 
28, 2017. See also FEMA, Declared Disasters. Available at https://
www.fema.gov/disasters/disaster-declarations
---------------------------------------------------------------------------
    In 2012, Munich Re, the world's largest reinsurance 
company, reported that between 1980 and 2011, North America 
suffered $1.06 trillion in total losses, including $510 billion 
in insured losses, and an increase in weather-related events 
five-fold over the previous three decades.\4\ In 2005, it was 
reported that since 1952, the cost of natural disasters to the 
federal government more than tripled, as a function of gross 
domestic product.\5\ These statistics have only grown in the 
intervening years.
---------------------------------------------------------------------------
    \4\ Munich Re (2012). Severe weather in North America--Perils Risk 
Insurance. Munich, Germany: Muchener Ruckversicherungs-Gesellschaft.
    \5\ The Princeton University Geoscience 499 Class, The Increasing 
Costs of U.S. Natural Disasters. Geotimes, November 2005.
---------------------------------------------------------------------------
    For several congresses, this Subcommittee has examined 
increasing costs of emergency assistance and disaster relief, 
and has worked to enact reforms and enhancements to the Robert 
T. Stafford Disaster Relief and Emergency Assistance Act 
(Stafford Act, P.L. 93-288 as amended) to bolster federal 
assistance via FEMA to state, local, tribal, and territorial 
governments to invest in mitigation and resilience, including 
investments in natural infrastructure.\6\ Most recently, in 
2018 the Disaster Recovery Reform Act (DRRA, P.L. 115-254, 
Division D) provided additional assistance and eligibility for 
both pre- and post-disaster mitigation from all hazards.
---------------------------------------------------------------------------
    \6\ Federal Emergency Management Agency (FEMA), Building Community 
Resilience with Nature-Based Solutions: A Guide for Local Communities. 
August 2020. Available at https://www.fema.gov/sites/default/files/
2020-08/fema_riskmap_nature-based-solutions-guide_
2020.pdf.
---------------------------------------------------------------------------
    There are numerous causes that may be driving these rising 
disaster costs, including population growth and increased 
density in disaster-prone areas, changes in weather and fire 
events, and changes in disaster relief programs. In a 2013 
report to Congress--responding to a provision of the Sandy 
Recovery Improvement Act (P.L. 113-2, Sec. 1111)--FEMA 
acknowledged the increase in the number of extreme disaster 
events and increased vulnerabilities throughout the United 
States due to shifting demographics, aging infrastructure, land 
use, and construction practices.\7\ Further, the Congressional 
Research Service (CRS) analyzed data from over 1,300 major 
disasters since 1989, and adjusting for inflation, found that 
FEMA obligated more than $178 billion for these disasters.\8\
---------------------------------------------------------------------------
    \7\ FEMA, National Strategy Recommendations: Future Disaster 
Preparedness. September 6, 2013. Available at http://www.fema.gov/
media-library-data/bd125e67fb2bd37f8d609cbd71b835ae/
FEMA+National+Strategy+Recommendations+(V4).pdf.
    \8\ CRS Memo Data Analysis for House Transportation and 
Infrastructure Committee, January 14, 2015.
---------------------------------------------------------------------------
    In November 2020, FEMA released the ``Building Codes Save: 
A Nationwide Study,'' a nearly decade-long assessment of losses 
avoided through the adoption of hazard-resistant consensus-
based building codes and standards.\9\ The study found that 65 
percent of U.S. counties, cities, and towns had not yet adopted 
modern building codes--defined as codes developed since 
2000.\10\ Analysis of the data shows savings in multiple 
hundreds of millions of dollars for disaster response and 
recovery costs across disaster-impacted areas with modern 
codes.\11\
---------------------------------------------------------------------------
    \9\ FEMA, Building Codes Save: A Nationwide Study. November 2020. 
Available at https://www.fema.gov/emergency-managers/risk-management/
building-science/building-codes-save-study.
    \10\ Id.
    \11\ Id.
---------------------------------------------------------------------------

DISASTER RECOVERY REFORM ACT OF 2018 (DRRA)

    The DRRA was initially crafted to address the rising costs 
of disasters in the United States and was intended to reform 
federal disaster programs to ensure communities are better 
prepared for future hurricanes, flooding, earthquakes, 
wildfires, and other disasters.\12\ It incentivizes states to 
invest in stronger mitigation measures and resilient 
rebuilding--which will reduce the future loss of life and the 
rising costs of disasters--to ensure that communities are well-
equipped to better prepare for and withstand disasters of all 
kinds.\13\ The DRRA strengthened and established a consistent 
funding stream for pre-disaster mitigation. A section of the 
DRRA as originally reported by the Committee (later enacted as 
Section 20606 of the Bipartisan Budget Act of 2018, P.L. 115-
123) also directed FEMA to incentivize mitigation by increasing 
the federal cost share. That section has not been implemented.
---------------------------------------------------------------------------
    \12\ H. Rept. 115-1098. Available at https://www.congress.gov/115/
crpt/hrpt1098/CRPT-115hrpt1098.pdf
    \13\ Id.
---------------------------------------------------------------------------
    The National Institute for Building Sciences (NIBS) has 
found significant cost savings in mitigation projects and the 
adoption of consensus-based building codes and standards. In 
examining code aspects related to riverine flood, wind, and 
earthquake, the NIBS concluded:
    <bullet> LThere is a benefit of $11 for every $1 spent by 
designing buildings to meet modern consensus-based codes and 
standards such as those developed by the International Code 
Council (ICC), versus the prior generation of codes represented 
by 1990-era design and National Flood Insurance Program (NFIP) 
requirements.\14\
---------------------------------------------------------------------------
    \14\ National Institute of Building Sciences ``Natural Hazard 
Mitigation Saves Study.'' Available at https://www.nibs.org/page/
mitigationsaves.
---------------------------------------------------------------------------
    <bullet> LHazard mitigation projects funded with federal 
grants provided by FEMA, the U.S. Economic Development 
Administration (EDA), and the U.S. Department of Housing and 
Urban Development (HUD) can save the country $6 in future 
disaster response and recovery costs for every $1 spent, 
according to more than two decades worth of data on these 
grants.\15\
    <bullet> LGenerally, investing in certain mitigation 
measures above and beyond select requirements of the 2015 
International Codes (I-Codes)--the model building codes 
developed by the ICC--can save an additional $4 for every $1 
spent for certain hazards.\16\
---------------------------------------------------------------------------
    \15\ Id.
    \16\ Id.
---------------------------------------------------------------------------

MITIGATION ASSISTANCE AVAILABLE FROM FEMA

    FEMA administers mitigation assistance via three main 
Hazard Mitigation Assistance (HMA) programs: Stafford Act Sec. 
203 Predisaster Mitigation Assistance (PDM, 42 U.S.C. 5133); 
Stafford Act Sec. 404 Hazard Mitigation (HMGP, 42 U.S.C. 
5170c); and the National Flood Insurance Act, as amended, Sec. 
1366 Flood Mitigation Assistance (FMA, 42 U.S.C. 4104c).
    Additionally, Public Assistance (PA) provided for 
infrastructure repair or replacement and Individual Assistance 
(IA) provided to individuals and households for residential 
repair or temporary forms of housing is subject to statutory, 
regulatory, and policy requirements to bring facilities up to 
the most recent consensus-based codes and standards. The goal 
of these various forms of assistance is to ensure that our 
nation's citizens and communities are resilient to various 
hazards.\17\
---------------------------------------------------------------------------
    \17\ FEMA. Hazard Mitigation Assistance Guidance. Available at 
https://www.fema.gov/grants/mitigation/hazard-mitigation-assistance-
guidance
---------------------------------------------------------------------------

PDM (BRIC)

    DRRA Sec. 1234 established of a steady stream of funding 
for a nationally competitive predisaster mitigation program. 
FEMA undertook a complete redesign of its previous iteration of 
Stafford Sec. 203 assistance and developed the Building 
Resilient Infrastructure and Communities (BRIC) program. As 
amended, the Stafford Act now allows the President to set aside 
from the Disaster Relief Fund (DRF) an amount equal to six 
percent of the estimated aggregate amount of assistance 
provided pursuant to Sections 403, 406, 407, 408, 410, 416, and 
428 for major disasters.
    The application window for the first grant cycle of BRIC 
closed at the end of January 2021. Grants are provided at 100 
percent federal cost share and are capped at a maximum of $50 
million.\18\ Of the states, 49 of 50 submitted applications 
totaling $3.6 billion for the $500 million available for the 
cycle; application review is currently underway, with awards 
expected in summer 2021.\19\ Under BRIC ``mitigation projects 
must, at a minimum, be in conformance with the latest published 
editions (meaning either of the two most recently published 
editions) of relevant consensus-based codes, specifications, 
and standards that incorporate the latest hazard-resistant 
designs.'' \20\ Additionally, FEMA may fund the development, 
adoption, evaluation, and enhancement of building codes and 
standards with BRIC awards.\21\ In October 2020, the Trump 
administration set aside $500 million of the eligible $3.7 
billion from the COVID-19 disaster declarations for the PDM/
BRIC set-aside in the DRF.\22\ Chairs DeFazio and Titus and 
Ranking Members Graves and Katko sent a letter urging then FEMA 
Administrator Peter Gaynor and then OMB Director Russell Vought 
to reconsider the decision, and fully fund the set-aside to 
ensure a robust BRIC program in the coming years.\23\
---------------------------------------------------------------------------
    \18\ FEMA. Fiscal Year 2020 Notices of Funding Opportunities for 
Hazard Mitigation Assistance Grants. Available at https://www.fema.gov/
grants/mitigation/fy2020-nofo
    \19\ FEMA BRIC program staff briefing call with Committee staff. 
February 24, 2021.
    \20\ FY 2020 Building Resilient Infrastructure and Communities, 
Notice of Funding Opportunity (NOFO). Available at https://
www.fema.gov/sites/default/files/2020-08/fema_fy20-bric-notice-of-
funding-opportunity_federal-register_August-2020.pdf
    \21\ Stafford Sec. 203(g)(10).
    \22\ CRS. FEMA Pre-Disaster Mitigation: The Building Resilient 
Infrastructure and Communities (BRIC) Program (IN11515). December 28, 
2020. Available at https://www.crs.gov/Reports/IN11515
    \23\ Letter from Ch. DeFazio, RM Graves, Chair Titus, and Chair 
Katko to FEMA Admin. Gaynor and OMB Dir. Vought. October 15, 2020.
---------------------------------------------------------------------------

HMGP

    Stafford Sec. 404 provides a regular stream of post-
disaster mitigation funding to states, tribes, and territories. 
For disasters under $2 billion in overall Stafford assistance, 
the HMGP grant is 15 percent of the aggregate assistance. This 
percentage decreases as disaster costs grow; 10 percent for 
disasters more than $2 billion and less than $10 billion, and 
7.5 percent for disasters more than $10 billion and less than 
$35.333 billion. The federal cost share for HMGP grants is 75 
percent.\24\
---------------------------------------------------------------------------
    \24\ Stafford Act, Sec. 404(a).
---------------------------------------------------------------------------
    HMGP grants are managed by states, tribes, and territories, 
and are available for use broadly, beyond declared disaster 
areas for multiple types of hazards. Additionally, HMGP funds 
may fund the development, adoption, evaluation, and enhancement 
of building codes and standards.\25\ The period of performance 
for these grants is exhausted seven years from the date of 
declaration and following an opportunity for extension.\26\
---------------------------------------------------------------------------
    \25\ Stafford Act, Sec. 404(f) and (g).
    \26\ FEMA. Hazard Mitigation Grant Program. Available at: https://
www.fema.gov/grants/mitigation/hazard-mitigation
---------------------------------------------------------------------------
    HMGP encourages the use of building codes and standards--
such as the American Society of Civil Engineers/Structural 
Engineering Institute (ASCE/SEI) 24-14, Flood Resistant Design 
and Construction--wherever possible, and sub-applicants to 
states, tribes, and territories must document that their 
project is feasible and effective at mitigating risks of 
hazards.\27\
---------------------------------------------------------------------------
    \27\ 44 CFR Sec. 206.434(c). See also, FEMA 2015 Hazard Mitigation 
Assistance Guidance and Addendum, available at https://www.fema.gov/
grants/mitigation/hazard-mitigation-assistance-guidance.
---------------------------------------------------------------------------

FMA

    Flood Mitigation Assistance is not under the jurisdiction 
of the Committee on Transportation and Infrastructure, as it is 
authorized by the Committee on Financial Services as part of 
the National Flood Insurance Program (NFIP). FMA is a 
competitive grant program that provides funding to state, 
tribal, territorial and local governments for projects that 
reduce or eliminate the risk of repetitive flood damage to 
buildings insured by the NFIP.
    In the fiscal year 2020 grant cycle, which closed in 
January 2021, $200 million was available for FMA. Up to $4 
million is available for project scoping (max grant award per 
applicant is $600,000), up to $70 million is available for 
community flood mitigation projects (max amount of assistance 
available to any NFIP-participating community is $30 million), 
and $126 million will be awarded for technical assistance, 
flood hazard mitigation planning, and individual flood 
mitigation projects.\28\ The federal cost share for FMA grants 
is typically 75 percent, although mitigation projects for 
repetitive loss properties can adjust to 90 percent, and severe 
repetitive loss properties up to 100 percent federal cost 
share.\29\
---------------------------------------------------------------------------
    \28\ FEMA. Fiscal Year 2020 Notices of Funding Opportunities for 
Hazard Mitigation Assistance Grants. Available at: https://
www.fema.gov/grants/mitigation/fy2020-nofo.
    \29\ Id.
---------------------------------------------------------------------------

PUBLIC ASSISTANCE (PA)

    FEMA provides PA to restore facilities based on pre-
disaster design and function. However, conformity with the 
latest published editions of relevant consensus-based codes and 
standards, incorporating the latest hazard-resistant designs is 
required. Additionally, establishing minimum acceptable 
criteria for the design, construction, and maintenance of 
residential structures and facilities may be eligible for 
assistance for the purposes of protecting the health, safety, 
and general welfare of the facility's users against 
disasters.\30\
---------------------------------------------------------------------------
    \30\ 44 CFR Sec.  206.226(d)(1)-(5). See also 44 CFR Sec.  
206.226(f)(2), Public Assistance Program and Policy Guide (PAPPG) 
(2020), and FEMA Recovery Interim Policy FP 104-009-11.
---------------------------------------------------------------------------

INDIVIDUAL ASSISTANCE (IA)

    In providing IA, FEMA adheres to all applicable codes and 
standards for the multiple types of assistance that may be 
available for disaster survivors, pursuant to Stafford Sec. 
408(c)(2)(i) and 44 C.F.R. Part 206, Subpart D (Federal 
Assistance to Individuals and Households). When applicable, 
forms of IA also comply with the National Environmental Policy 
Act (NEPA); accessibility-related standards found in the 
Architectural Barriers Act of 1968 and the Americans with 
Disabilities Act and associated ADA Accessibility Guidelines 
and HUD's Design Details for Accessible Disaster Relief 
Housing; 24 C.F.R. 3280, Subpart A (Manufactured Home 
Construction and Safety Standards); 44 C.F.R. Part 9, Subpart A 
(Floodplain Management and Protection of Wetlands); 24 C.F.R. 
982.401 (Housing Quality Standards (HQS), Subpart 1 Dwelling 
Unit: Housing Quality Standards, Subsidy Standards, Inspection 
and Maintenance); 44 C.F.R. 206.117(b)(4) (Permanent and Semi-
permanent Housing Construction); Recreation Vehicle Industry 
Association and California Air Resources Board (CARB) standards 
and/or the Toxic Substances Control Act Title VI requirements 
for formaldehyde emissions from composite wood products found 
in recreational vehicles; and Uniform Federal Accessibility 
Standards (UFAS).\31\
---------------------------------------------------------------------------
    \31\ FEMA. Response to Committee RFI on applicable codes and 
standards for IA. Provided March 10, 2021.
---------------------------------------------------------------------------

MITIGATION FRAMEWORK LEADERSHIP GROUP (MITFLG)

    In the wake of the federal response to Hurricane Katrina, 
several reform efforts were authorized by the Post-Katrina 
Emergency Management Reform Act (P.L. 109-295, Title VI), 
including the establishment of the National Mitigation 
Framework, which included the creation of the Mitigation 
Framework Leadership Group (MitFLG). FEMA chairs the MitFLG, 
which is responsible for organizing mitigation efforts across 
the federal government, in cooperation and coordination with 
state, local, tribal, and territorial public-sector 
representatives. Additionally, the MitFLG assesses the 
effectiveness of these capabilities across the United 
States.\32\
---------------------------------------------------------------------------
    \32\ FEMA. Mitigation Framework Leadership Group (MitFLG). 
Available at: https://www.fema.gov/emergency-managers/national-
preparedness/frameworks/mitigation/mitflg
---------------------------------------------------------------------------
    The second edition of the National Mitigation Framework was 
released in June 2016. It focuses on a whole of community 
approach to mitigation and resilience, with a penultimate goal 
of nurturing a national culture of preparedness and reducing 
the impacts of disaster and the resultant loss of life and 
property.\33\ In August 2019, the MitFLG released the National 
Investment Mitigation Strategy report (NIMS), which seeks to 
identify and measure the effectiveness of mitigation 
investments, and inform decisions on when and where to make 
investments using the whole of community approach that has been 
leveraged in other phases of emergency management. The NIMS 
encourages investment in both pre- and post-disaster 
mitigation--across the whole of community--with three shared 
goals: 1) showing how mitigation investments reduce risk, 2) 
coordination of mitigation investments to reduce risk, and 3) 
making mitigation investment standard practice.\34\
---------------------------------------------------------------------------
    \33\ FEMA. National Mitigation Framework (June 2016). Available at: 
https://www.fema.gov/sites/default/files/2020-04/
National_Mitigation_Framework2nd_june2016.pdf
    \34\ FEMA/MitFLG. National Mitigation Investment Strategy. 
Available at: https://www.fema.gov/sites/default/files/2020-10/
fema_national-mitigation-investment-strategy.pdf.
---------------------------------------------------------------------------

                               CONCLUSION

    The Government Accountability Office (GAO) has long 
acknowledged that ``limiting the Federal Government's Fiscal 
Exposure by Better Managing Climate Change Risks'' is a high 
risk area.\35\ FEMA, and the federal disaster relief and 
mitigation assistance it provides, combined with the efforts of 
the MitFLG, can and should play a significant role in reducing 
this exposure--ultimately ensuring that taxpayer resources are 
being invested in projects that are buying down future risk.
---------------------------------------------------------------------------
    \35\ Government Accountability Office. Limiting the Federal 
Government's Fiscal Exposure by Better Managing Climate Change Risks. 
Available at: https://www.gao.gov/highrisk/limiting-federal-
governments-fiscal-exposure-better-managing-climate-change-risks.
---------------------------------------------------------------------------
    The hearing will highlight best practices across FEMA's 
efforts in encouraging and growing resilience and mitigation 
across the nation, as well as identify additional opportunities 
for continued enhancement, whether expanding eligible 
activities to mitigate against additional vulnerabilities to 
growing hazards, or better alignment between FEMA's pre- and 
post-disaster assistance programs.

                              WITNESS LIST

    <bullet> LRussell Strickland, Executive Director, Maryland 
Emergency Management Agency, on behalf of the National 
Emergency Management Association
    <bullet> LRoy Wright, President & CEO, Insurance Institute 
for Business and Home Safety
    <bullet> LVelma Smith, Senior Government Relations Officer, 
The Pew Charitable Trusts
    <bullet> LBen Harper, Head of Corporate Sustainability, 
Zurich North America
    <bullet> LJohn ``Chuck'' Fowke, Chairman, National 
Association of Home Builders

 
     BUILDING SMARTER: THE BENEFITS OF INVESTING IN RESILIENCE AND 
                               MITIGATION

                              ----------                              


                        THURSDAY, MARCH 18, 2021

                  House of Representatives,
      Subcommittee on Economic Development, Public 
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
room 2167 Rayburn House Office Building and via Cisco Webex, 
Hon. Dina Titus (Chair of the subcommittee) presiding.
    Present in person: Ms. Titus, Mr. DeFazio, Ms. Norton, Mr. 
Garamendi, Mr. Webster, Mr. Massie, Miss Gonzalez-Colon, Mr. 
Guest, and Mr. Graves of Louisiana.
    Present remotely: Ms. Davids, Mr. Pappas, Mrs. Napolitano, 
and Ms. Van Duyne.
    Ms. Titus. The hearing will come to order.
    The chair is authorized to declare a recess at any time 
during today's hearing. Without objection, so ordered.
    For Members participating remotely, if a Member is 
experiencing any connectivity issues, or any other technical 
problems, please inform the committee staff as soon as possible 
so you can receive assistance. I will make a good-faith effort 
to provide every Member experiencing any kind of connectivity 
issue an opportunity to participate fully in the proceedings.
    It is the responsibility of each Member seeking recognition 
to unmute their microphone prior to speaking, and to keep your 
microphone muted when not speaking to avoid inadvertent 
background noise.
    Should I hear any inadvertent background noise--dogs 
barking, cats meowing, children playing--I will request that 
the Member please mute their microphone.
    And, finally, to insert a document into the record, please 
have your staff email it to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="24604b475149414a505770026d6449454d480a4c4b5157410a434b520a">[email&#160;protected]</a>
    We want to say good afternoon to everybody who is watching 
or participating and to thank our witnesses for being here 
today.
    This is the subcommittee's first hearing of the 117th 
Congress. Before we get started, though, I would like to take a 
minute to recognize and welcome Mr. Daniel Webster of Florida, 
who is the new ranking member of the subcommittee. Our 
subcommittee has the distinction of being the most productive 
of any of the subcommittees under the Transportation and 
Infrastructure Committee, and I look forward to working 
together with Mr. Webster to keep that record going as we 
advance policies and programs that safeguard the lives and 
livelihoods of the communities we serve.
    Today's hearing is entitled ``Building Smarter: The 
Benefits of Investing in Resilience and Mitigation.'' These are 
two intertwined topics that have enjoyed bipartisan attention 
and cooperation in the past.
    The Federal Emergency Management Agency is, perhaps, 
responsible for the most significant amount of dedicated 
funding for pre- and post-disaster mitigation, and it leads the 
whole-of-Federal Government strategy to build a more resilient 
Nation. Ranking Member Webster is no stranger to these issues. 
As he noted to me, he previously worked in the Florida 
Legislature to enact the State's updated building codes in 
1996, following the devastating impacts of Hurricane Andrew. 
Those updated building codes are one example of a cost-
effective mitigation strategy, and they have led to more 
resilient communities all across Florida.
    In insurance and emergency management circles, Florida's 
2004 hurricane season is infamous for four major storms, 
Charley, Frances, Ivan, and Jeanne, that crisscrossed the State 
during a 6-week span, leaving virtually no square inch 
untouched.
    In the wake of those storms, the Insurance Institute for 
Business and Home Safety conducted a study of residential 
construction comparing homes built before and after the 1996 
adoption of the bolstered codes to examine the impacts on 
insurance claims. The IBHS study found that homes constructed 
after the new codes saw 60 percent fewer claims, and those 
claims were 42 percent less costly than the homes constructed 
before the strengthened codes.
    Now, that is just one example, but we know that when homes, 
businesses, and other infrastructure are built stronger from 
the get-go, or are built back stronger following disasters, 
they are less likely to be seriously damaged in future events. 
That ability to bounce back faster is a measure of their 
resilience. Unfortunately, as more American communities grapple 
with ever increasingly severe natural hazards, we don't have to 
look hard to find examples of communities that we all represent 
that have been knocked down by recent disasters.
    Last month, for example, Texas electric utilities suffered 
a multiday catastrophic failure resulting from an unusual deep 
freeze. Something similar happened in 2011 and also in 1989, 
and one of the recommendations of the multiple after-action 
reviews in 2011 was for generating companies to invest in 
insulation for equipment and heaters or other technologies that 
are commonly employed by their counterparts in areas more prone 
to cold weather.
    While the power generators are typically investor-owned 
utilities and ineligible for mitigation assistance from FEMA, 
their failure to invest in this type of mitigation led Governor 
Abbott to request a major disaster declaration for all 254 
Texas counties, to provide relief to the 4\1/2\ million 
households that lost power, and to the public buildings and 
other infrastructure damaged by the deep freeze.
    In a briefing from Members of Congress and their staffs 
last month, the State's emergency manager, Chief Nim Kidd, 
estimated that the resulting damages experienced by public 
buildings, private businesses, and residents from last month's 
rolling blackouts from days' long power outages would likely 
result in a need for more Federal disaster assistance, more 
than was allocated to respond and recover from 2018's Hurricane 
Harvey, and that was the State's costliest natural disaster up 
until that point.
    And it was reported on Tuesday that at least 57 Texans lost 
their lives as a result of severe winter weather--from 
hypothermia, carbon monoxide poisoning, medical equipment 
failures, falls, and car crashes. We haven't even touched upon 
the ever-increasing threat of wildfires across the West and the 
expansive risks to low-lying communities from rising tides or 
storm surges.
    The majority of the assistance FEMA provides in response to 
Presidential disaster declarations funds the repair or 
replacement of infrastructure. In addition to this Public 
Assistance funding, the Stafford Act provides for 15 percent of 
eligible disaster costs to be sent to disaster-impacted States 
to be used in post-disaster mitigation projects. This is 
referred to as the Hazard Mitigation Grant Program.
    These projects have provided a significant return on 
investment to the taxpayer. Depending on the type of project, 
the National Institute of Building Sciences has demonstrated 
between $4 and $11 in reduced disaster recovery costs resulting 
from federally funded mitigation projects. Let me repeat that: 
A return between $4 and $11 depending on the project, and that 
is a key point for us to remember.
    In 2018, following significant analysis work by this 
subcommittee, Congress amended the Stafford Act with the 
passage of the Disaster Recovery Reform Act. For the first 
time, taking lessons learned from the successful Post-disaster 
Mitigation Program, we decided that FEMA should have a 
similarly funded Pre-disaster Mitigation Program. This program 
existed prior to the reform bill, but was inconsistently funded 
by our colleagues on the Appropriations Committee. We thought 
we needed to take a closer look at this and found that the 
programs should differ from the Hazard Mitigation Grant 
Program, because it would be nationally competitive.
    For a State like Nevada, that can make a huge difference. 
We have 86 percent of our land owned by the Federal Government, 
so we don't get much disaster relief, so pre-disaster 
mitigation would be a game changer.
    FEMA's program is called BRIC, Building Resilient 
Infrastructure and Communities. It is too soon to tell how 
effective BRIC is, but just to look at the figures, the first 
application cycle had $500 million available; applications 
totaled more than $3.6 billion. So, obviously, there is a great 
demand.
    So we want to examine what works and what is flawed in 
FEMA's approach to mitigation and resilience, how the Agency 
can further empower States, Tribes, Territories and localities 
to better leverage this type of program.
    I look forward to all of our witnesses' and our Members' 
perspectives, and working with Ranking Member Webster and our 
colleagues to advance future legislative efforts out of this 
subcommittee to provide FEMA the resources and tools that it 
needs to make American communities more resilient, more 
resistant to predictable hazards.
    [Ms. Titus' prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Dina Titus, a Representative in Congress 
     from the State of Nevada, and Chair, Subcommittee on Economic 
        Development, Public Buildings, and Emergency Management
    Good afternoon, and thank you to our witnesses.
    This is the Subcommittee's first hearing of the 117th Congress, but 
before we get started I just want to take a moment to recognize Mr. 
Daniel Webster of Florida, the new Ranking Member of the Subcommittee.
    Our Subcommittee has the distinction of being the most productive 
of any under Transportation and Infrastructure and I look forward to 
working together to keep that record going as we advance policies and 
programs that safeguard the lives and livelihoods of the communities we 
represent.
    Today's hearing is titled, ``Building Smarter: The Benefits of 
Investing in Resilience and Mitigation''--two intertwined topics that 
have enjoyed bipartisan attention and cooperation.
    The Federal Emergency Management Agency is perhaps responsible for 
the most significant amount of dedicated funding for pre- and post-
disaster mitigation, and leads the whole of the federal government's 
strategy to build a more resilient nation.
    Ranking Member Webster is no stranger to these issues. As he noted 
to me, he previously worked in the Florida Legislature to enact the 
state's updated building codes in 1996 following the devastating 
impacts of Hurricane Andrew.
    Those updated building codes are one example of a cost-effective 
mitigation strategy. And they have led to more resilient communities 
all across Florida.
    In insurance and emergency management circles, Florida's 2004 
hurricane season is infamous for the four storms--Charley, Frances, 
Ivan, and Jeanne--that crisscrossed the state during a six-week span, 
leaving virtually no square inch of the state untouched.
    In the wake of those storms, the Insurance Institute for Business 
and Home Safety conducted a study of residential construction, 
comparing homes built before and after the 1996 adoption of the 
bolstered codes to examine the impacts on insurance claims.
    The IBHS study found that homes constructed after the new codes saw 
60 percent fewer claims, and those claims were 42 percent less costly 
than the homes constructed before the strengthened codes.
    That's just one example, but we know that when homes, businesses, 
and other infrastructure are built stronger from the get-go, or are 
built back stronger following disaster, they're less likely to be 
seriously damaged during future events. That ability to bounce back 
faster is a measure of their resilience.
    Unfortunately, as more American communities grapple with ever 
increasingly severe natural hazards, we don't have to look hard to find 
examples of communities that we all represent that have been knocked 
down by recent disasters.
    Last month Texas electric utilities suffered a multi-day 
catastrophic failure resulting from an unusual deep freeze.
    Something similar happened in 2011 and also in 1989, and one of the 
recommendations of the multiple after action reviews in 2011 was for 
generating companies to invest in insulation for equipment and heaters 
or other technologies that are commonly employed by their counterparts 
in areas more prone to cold weather.
    While the power generators are typically investor-owned utilities 
and ineligible for mitigation assistance from FEMA, their failure to 
invest in this type of mitigation led Governor Abbott to request a 
major disaster declaration for all 254 Texas counties to provide relief 
to the four and a half million households that lost power and to the 
public buildings and other infrastructure damaged by the deep freeze.
    In a briefing for Members of Congress and their staffs last month, 
the state's emergency manager, Chief Nim Kidd, estimated that the 
resulting damages experienced by public buildings, private businesses, 
and residences from last month's rolling blackouts from days-long power 
outages would likely result in the need for more federal disaster 
assistance than was allocated to respond and recover from 2018's 
Hurricane Harvey, the state's costliest natural disaster to that point. 
And it was reported on Tuesday that at least 57 Texans lost their lives 
as a result of the severe winter weather--from hypothermia, carbon 
monoxide poisoning, medical equipment failure, falls, and car crashes.
    We haven't even touched upon the ever-increasing threat of 
wildfires across the West, or the expansive risk to low-lying 
communities from rising tides or storm surges.
    The majority of the assistance FEMA provides in response to 
Presidential disaster declaration funds the repair or replacement of 
infrastructure. In addition to this Public Assistance funding, the 
Stafford Act provides for 15 percent of eligible disaster costs to be 
sent to disaster-impacted states to be used in post-disaster mitigation 
projects--this is referred to as the Hazard Mitigation Grant Program 
(HMGP).
    These projects have provided a significant return on investment to 
the taxpayer: depending on the type of project, the National Institute 
of Building Sciences (NIBS) has demonstrated between $4 and $11 in 
reduced disaster recovery costs resulting from federally-funded 
mitigation projects--ranging from the adoption of stronger building 
codes to physical infrastructure projects.
    In 2018, following significant analysis and work by this 
Subcommittee, Congress amended the Stafford Act with the passage of the 
Disaster Recovery Reform Act. For the first time, taking the lessons 
learned from the successful post-disaster mitigation program, we 
decided that FEMA should similarly fund a Pre-disaster Mitigation (PDM) 
program.
    This program existed prior to the reform bill, but was 
inconsistently funded by our colleagues on the Appropriations 
Committee. This program would differ from the Hazard Mitigation Grant 
Program in that it would be nationally competitive, with a goal of 
making investments in mitigation and resilience before disaster could 
strike.
    For a state like Nevada, which rarely receives Hazard Mitigation 
assistance due to more than 84 percent of the state being federal lands 
and our few and far between Presidential disaster declarations, the new 
Pre-Disaster Mitigation program could be a game changer for communities 
I represent in Clark County, where an investment in a transformative 
mitigation project has the potential to benefit a significant number of 
people and businesses.
    FEMA is calling the new Pre-Disaster Mitigation program ``BRIC'', 
for Building Resilient Infrastructure and Communities.
    It's too soon to tell how effective BRIC is, but the first 
application cycle closed at end of January for a pot of $500 million 
dollars. FEMA received nearly a thousand applications for projects 
totaling more than $3.6 billion dollars.
    The demand clearly exists across the nation for this kind of smart 
investment. FEMA funding--as well as smaller pots of federal funding 
for mitigation and resilience-focused projects--reduce future exposure 
to the federal government on the disaster relief side of the ledger.
    We'll examine what works and what's flawed in FEMA's approach to 
mitigation and resilience, and how the Agency can further empower 
states, tribes, territories, and localities to better leverage the 
various types of available assistance to protect their communities.
    I look forward to all of our witnesses' and Members' perspectives, 
and working with Ranking Member Webster and our colleagues to advance 
future legislative efforts out of this subcommittee to provide FEMA the 
resources and tools needed to help make American communities more 
resilient to predictable hazards.
    Before I recognize Ranking Member Webster for his opening remarks, 
I ask unanimous consent to insert two items for the record.
    First, a statement from the BuildStrong Coalition, which has been 
such a leader on these issues. And I believe a few of our witnesses 
today are also proud members of BuildStrong.
    Additionally, the Committee has received a letter from the 
SmarterSafer Coalition outlining its priorities in this space, as well.
    Without objection, so ordered.

    Ms. Titus. I thank you for your attention. And I now 
recognize Ranking Member Webster for his opening remarks.
    I ask unanimous consent--before you begin, Mr. Webster, if 
you will indulge me--unanimous consent to insert two items into 
the record. One is a statement from the BuildStrong Coalition, 
which has been a leader on these issues. I believe a few of our 
witnesses today are actually members of BuildStrong. Also, the 
committee has received a letter from the SmarterSafer Coalition 
outlining its priorities in this space.
    Without objection, so ordered.
    [The information follows:]

                                 <F-dash>
  Statement of the BuildStrong Coalition, Submitted for the Record by 
                            Hon. Dina Titus
    On March 18, the Subcommittee will hold its first legislative 
hearing, ``Building Smarter: The Benefits of Investing in Resilience 
and Mitigation.'' Chairwoman Titus and Ranking Member Webster are to be 
commended for leading the committee in prioritizing this initial 
hearing on mitigation and resilience investments to address the rising 
costs and losses associated with disasters, including how mitigating 
disaster impacts intersect with climate adaptation and serves as a core 
component of the national conversation on resilient infrastructure and 
communities. As the Committee considers the next chapter of disaster 
policy and legislation, the BuildStrong Coalition is honored to 
continue our role to drive the focus on laws, policies, and programs 
that aid in the creation of a disaster resilient nation. We remain 
ready to continue this work and are prepared to serve as a resource to 
advance your commitment to enhancing our country's resilience profile.
    The BuildStrong Coalition, formed in 2011 to respond to an 
increasing number of severe disasters, is made up of a diverse group of 
members representing firefighters, emergency responders, emergency 
managers, insurers, engineers, architects, contractors, and 
manufacturers, as well as consumer organizations, code specialists, and 
many others committed to building a more disaster resilient nation. The 
BuildStrong Coalition has been a partner with this Committee in its 
work to investigate causes of, and devise the solutions to, the rising 
cost of disasters in the U.S. since you initiated this conversation in 
2013. We have been honored to present witnesses and participants in 
hearings, roundtables, and briefings to identify opportunities for 
policy changes that promote mitigation and the smart investment of 
federal resources to address our country's increasing number of severe 
and costly weather events, including informing several provisions of 
the Disaster Recovery Reform Act of 2018 (P.L. 115-254).
    In the face of growing climate risk, we have been focused on what 
legislative changes and policy initiatives are needed to appropriately 
incentivize smart mitigation and resilience activities and practices, 
while also removing the challenges and obstacles that may stand in the 
way or hinder the progress of disaster resilience. We implore the 
Committee to use this hearing as a launching pad for the next 
bipartisan legislative package to shape the resilience conversation 
across this country--to create a Resilient America.
    This Committee stands poised to increase disaster resilience in the 
U.S. and ensure that disaster resilience remains at the forefront on 
the infrastructure, COVID-19 recovery, and disaster assistance reform 
conversation. This is the Committee's opportunity to influence the 
overall national resilience strategy and establish the framework for 
the next chapter in increasing disaster resilience in the U.S., 
including how resilience intersects with adaptation and responds to 
climate impacts, and is a core component of the national resilience 
conversation. This Committee must fill the leadership role in 
addressing climate impacts by acting on legislation that incentivizes 
and provides resources to facilitate smart, climate-conscious behaviors 
and mitigation and removes the moral hazards and policy impediments 
inhibiting decision makers from creating resilient systems and 
communities. The BuildStrong Coalition has developed the following 
policy recommendations and principles that are critical, supported by 
data and science, and should be included in the Committee's next 
legislative package on community resilience.
                I. Secure More Resources for Mitigation
    Congress should increase the funding for retrofits and investments 
in resilience before the next disaster, climate impact, or catastrophic 
failure.
    Mitigation saves lives, property, and taxpayer money. Mitigation 
also saves the environment. But the federal resources to help build 
state and local capacity and fund risk-reducing, cost-effective 
mitigation projects that harden critical lifeline infrastructure and 
help individuals invest in residential resilience are woefully 
inadequate. FEMA and other Federal Agencies need more tools to help 
impacted communities recover smarter and stronger and end the cycle of 
build, damage, rebuild.
    Legislation is needed to:
    <bullet>  Direct expired, unspent FEMA mitigation assistance to 
FEMA's new pre-disaster mitigation grant program, the Building 
Resilient Infrastructure and Communities (BRIC) Program.
    <bullet>  Increase the set aside for pre-disaster mitigation (BRIC 
program) from 6% to 15%.
    <bullet>  Authorize Hazard Mitigation Grant Program funding 
statewide for all states that requested hazard mitigation assistance 
under their major disaster declaration requests for COVID-19.

    And we know that this is a smart use of Federal resources that will 
save taxpayer dollars. Federal funding that promotes better land use, 
modern science applied to home construction, and increased mitigation 
measures can dramatically reduce the devastation brought by these 
disasters. Based on the findings of the National Institute of Building 
Sciences (NIBS):
    <bullet>  Adopting Model Building Codes Saves $11 per $1 Invested
    <bullet>  Federal Mitigation Grants Save $6 per $1 Invested
    <bullet>  Exceeding Codes Save $4 per $1 Invested
    <bullet>  Mitigating Infrastructure Saves $4 per $1 Invested
II. Drive Resilient Homes and Communities through Strong Building Codes
    Congress should create incentives for building stronger and tie 
existing federal funding streams to the adoption and enforcement of 
strong, modern building codes, in order to better protect homes, 
families, and communities.
    Individuals and communities are kept safe in times of disasters 
through the strength of their homes and the infrastructure that 
provides critical resources and services in affected areas. This is 
particularly prevalent as we learn lessons from COVID-19 and begin to 
understand how to increase resilience to wildfires. Disaster-resilient 
and sustainable construction and the use of stronger building codes 
have been proven to save lives, reduce the damage of natural disasters, 
and protect the environment. Unfortunately, only a handful of states 
have adopted the most modern building codes, and many lack the 
resources to adequately implement codes. To help correct this paradigm 
at the federal level involves creating incentives that encourage state 
and local governments to adopt modern building codes, while 
simultaneously equipping communities with the tools and resources 
needed to carry out meaningful enforcement regimes.
                 III. Resilient Lifeline Infrastructure
    Congress should require investments in lifeline infrastructure and 
those resources should be directed at risk-reducing, cost effective 
investments to promote the hardening of lifeline infrastructure and 
disaster-resilient construction and the adoption and implementation of 
risk-reducing standards.
    Lifeline infrastructure refers to electric power, water and 
wastewater systems, natural gas and liquid fuel, telecommunication, and 
transportation. Disruptions in these systems due to disasters threaten 
lives and impede community recovery. By investing in the resilience of 
these systems, we can reduce, if not eliminate, the impact of 
disasters, allowing key infrastructure to be restored and reducing the 
duration and cost of recovery. Through the application of the highest 
building codes, standards, and technologies to these systems and 
ensuring access to resources to invest in mitigation by non-profit 
owners of infrastructure, we can ensure system-wide increases in 
resilience in key lifeline infrastructure.
    Disaster-resilient and sustainable construction and infrastructure 
is important to reduce the damage of natural disasters and protect the 
environment. This involves applying the highest codes and standards and 
leveraging resources to support and incentivize the adoption and 
enforcement of building codes and professional standards. This includes 
standards that strengthen materials against all hazards including wind, 
flood, seismic, and ice. Most importantly, all disaster recovery and 
mitigation projects should incorporate smart technologies to improve 
monitoring and distribution for lifeline infrastructure and require the 
use of resilient and non-combustible materials standards for lifeline 
infrastructure.
          IV. Incentivize Individual Investments in Resilience
    Congress should incentivize investments in resilience through tax 
benefits, grant conditions, and easing administrative burdens.
    In addition to more resources for mitigation and communities, both 
public and private entities need incentives to drive their investments 
in mitigation. Whether by supporting the creation of federal tax 
incentives that reward resilient behavior, the development of 
mitigation tax breaks, or other incentives, individuals and businesses 
will find it easier to invest in resiliency, including undertaking 
activities like retrofitting homes, if these resources are available. 
This would also foster private sector investment in mitigation through 
new financing opportunities. Targeted tax incentives and removing tax 
penalties will encourage resilient construction techniques to withstand 
damage from strong winds or flooding and prevent losses from wildfires 
and seismic events.
    Through these investments, homeowners and communities ultimately 
save money through tax savings and avoided recovery costs and losses in 
the next disaster.
                   V. Use Resilient American Products
    Congress should ensure the use of resilient, American-made products 
in the construction and retrofit of lifeline infrastructure.
    Now more than ever, we need to support American jobs and American 
products. An investment in resilience across American communities must 
include long-term, non-emergency construction projects that maximize 
the use of American-made goods, products, and materials. These efforts 
create jobs and fuel the economic engines in our communities.
                           VI. Build Capacity
    Congress should ensure that state, local, tribal, and regional 
entities are given the tools and resources to increase capacity and 
capability to identify risks and hazards and mitigate those risks 
before the crisis occurs.
    It is clear that for this country to be successful in enhancing our 
resiliency, we must focus on capacity building for state and local 
governments and turn to considerations of sustainability, adaptability, 
and creative financial instruments that can be leveraged to drive 
socially responsible investments in resilience. State, local, and 
tribal governments must increase their ability to mitigate against all 
hazards. Accordingly, they must increase their ability to identify 
hazards and successfully implement these funds to accomplish selected 
risk-reducing projects. Increased engagement and education efforts on 
mitigation planning, program requirements, and opportunity awareness 
will enhance community resilience across all levels of government.
    Further, regulatory controls must be loosened to facilitate and 
encourage public-private partnerships. Governments must work with the 
private sector to increase community and national resilience. The 
private sector is currently conducting high-level work throughout the 
resilience and mitigation arena and there is tremendous opportunity to 
utilize expertise and industry knowledge, take advantage of existing 
programs, identify best practices, and incorporate lessons learned from 
the private sector. By leveraging the private sector and encouraging 
and facilitating public-private partnerships, we can maximize available 
resources for the benefit of the entire country.
                               Conclusion
    The BuildStrong Coalition calls on the House Committee on 
Transportation and Infrastructure Subcommittee on Economic Development, 
Public Buildings and Emergency Management to take the next critical 
step to drive disaster resilience across the nation through the 
introduction of legislation that would effectuate these policy ideals, 
changes in authority, development of incentives, and streamlining of 
assistance to serve our communities in an equitable and 
transformational way.
    The BuildStrong Coalition and its members stand ready to partner 
with the Committee as it moves toward the introduction of the next 
piece of transformational disaster policy and legislation driving 
mitigation and resilience against disaster and climate impacts. The 
compelling arguments for these policy changes are grounded in 
overwhelming science and evidence. We would be honored to present 
subject matter experts, data, and best practices, as well as 
participants in hearings, roundtables, and briefings--a role we have 
filled many times in the past. We are excited to join congressional 
leaders like you as we identify opportunities for policy changes that 
promote disaster resilience and the smart investment of federal 
resources to address our country's vulnerable homes and communities, 
aging infrastructure, and the increasing number of severe and costly 
weather events. Together, we can help save the lives and property of 
our citizens.
                                 <F-dash>
 Letter of March 17, 2021, from the SmarterSafer Coalition, Submitted 
                   for the Record by Hon. Dina Titus
                                                    March 17, 2021.
Hon. Peter DeFazio,
Chairman,
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.
Hon. Sam Graves,
Ranking Member,
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.
Hon. Dina Titus,
Chairman,
Subcommittee on Economic Development, Public Buildings, and Emergency 
        Management, Committee on Transportation and Infrastructure.
Hon. Daniel Webster,
Ranking Member,
Subcommittee on Economic Development, Public Buildings, and Emergency 
        Management, Committee on Transportation and Infrastructure.
    Dear Chairman DeFazio, Ranking Member Graves, Chairman Titus, and 
Ranking Member Webster:
    The SmarterSafer Coalition (SmarterSafer) is a diverse coalition of 
conservation and environmental groups, taxpayer-focused organizations, 
insurance and reinsurance interests, and housing advocates. As Congress 
turns its attention to comprehensive infrastructure legislation, 
SmarterSafer writes to express our priorities on the matter. We 
appreciate the opportunity to submit this letter into the record for 
tomorrow's hearing in the Subcommittee on Economic Development, Public 
Buildings, and Emergency Management entitled ``Building Smarter: The 
Benefits of Investing in Resilience and Mitigation.''
    There is an important nexus between infrastructure funding, 
disaster preparedness, and ``Building Smarter.'' American 
infrastructure, including roads, bridges, and stormwater systems, was 
not designed to account for a changing climate and is ill-equipped to 
withstand natural catastrophic risks. Roads and bridges are buckling 
under higher temperatures, increased snowfall, wildfires, and 
disastrous flooding. Stormwater management systems are overwhelmed by 
natural catastrophes.
    SmarterSafer members remain united in our support for fiscally 
sound, environmentally responsible approaches to natural catastrophe 
and infrastructure policy. As such, we encourage you and your 
colleagues to address the nation's failing infrastructure in a manner 
that balances environmental protection and better stewardship of 
taxpayer dollars.
Pre-Disaster Mitigation
    The federal government currently spends more on post-disaster 
cleanup and reconstruction than on pre-disaster mitigation. That 
equation must change if we want to better protect our communities from 
future natural catastrophes. Pre-disaster mitigation efforts protect 
individuals and protect taxpayer dollars. Every $1 invested in 
mitigation is estimated to save $6 on post-disaster spending. These 
investments are particularly appropriate as many communities across the 
country anticipate another year of devastating natural disasters, which 
will increase their vulnerability at the same time they continue to 
grapple with the COVID-19 crisis. SmarterSafer supports many elements 
of H.R. 2, the Moving Forward Act, that were not enacted in the 116th 
Congress including greater funding for pre-disaster flood mitigation 
efforts and investments in natural infrastructure and deployment of 
climate-resilient technologies, the importance of which are outlined 
below.
Natural Infrastructure
    Natural infrastructure--including healthy wetlands, functional 
floodplains, forests, mangroves, and dunes--provides effective 
solutions to guard against flooding and erosion. NOAA estimates that 
U.S. coastal wetlands alone provide $23.2 billion in storm protection 
each year. During Hurricane Sandy, for example, wetlands reduced 
damages by more than 22 percent in more than half of the areas directly 
affected by the storm. Increased funding and incentives to protect and 
restore wetlands, watersheds, floodplains, and forests will strengthen 
our communities and ecosystems. These natural features also provide 
important wildlife habitat and will assist in creating outdoor 
recreation opportunities and restoring tourism activity.
    As we look to invest in climate-resilient and cost-effective 
infrastructure, greater emphasis should be placed on natural 
infrastructure that can absorb floodwaters and buffer and protect 
communities from increased catastrophic risk. Nature-based approaches 
should be used in combination with or as an alternative to gray 
infrastructure where feasible.
Climate-Resilient Infrastructure
    From devastating wildfires in the Western United States to flooding 
in Houston to dam failures in Michigan, it's clear that our approach to 
infrastructure is failing. Climate resilient infrastructure is 
necessary to ensure that our families and communities are protected, as 
well as our future investments. Federal funds--whether provided through 
disaster assistance, Community Development Block Grants, or other 
programs--should be directed to outcome-driven projects that strengthen 
communities and reduce long-term risk. Federal infrastructure 
investments should require stronger minimum design standards and 
incorporate forecasts of future conditions for the lifespan of a 
structure.
    In addition, high-quality information and data is necessary to 
inform strategic infrastructure investments and development decisions. 
SmarterSafer supports increased scientific climate data sharing within 
the government and between the public and private sectors. Bipartisan 
legislation like the Built to Last Act, introduced in the 116th 
Congress by Sens. Tammy Baldwin (D-WI) and Marco Rubio (R-FL) and Rep. 
Matt Cartwright (D-PA), would ensure that standards-developing 
organizations that issue building codes have access to forward-looking 
meteorological information, including data on wildfires and other 
environmental trends.
Infrastructure in America's Floodplains
    America's public infrastructure remains threatened by more frequent 
and severe flooding. SmarterSafer members are very supportive of 
President Biden's recent executive order restoring the federal flood 
protection standard as an important step in protecting lives, 
communities, properties, and taxpayer investments. SmarterSafer has 
long championed House efforts to reinstate such a standard, including 
through the Flood Resiliency and Taxpayer Savings Act of 2020, 
introduced in the 116th Congress by Reps. David Price (D-NC) and Lee 
Zeldin (R-NY), which would promote resiliency standards and taxpayer 
protection with respect to infrastructure investments and flood risk. 
While recent progress has been made, Congress should act to require 
government-funded agencies involved in floodplain construction to 
follow certain mitigation strategies to ensure that funds are used for 
projects that can withstand disasters. Along those lines, SmarterSafer 
also supports the Build for Future Disasters Act of 2020, legislation 
introduced in the 116th Congress by Reps. Scott Peters (D-CA) and Andy 
Barr (R-KY) that would limit new construction inside federally 
designated floodplains.
    We have consistently supported and will continue to ask Congress to 
consider preservation of green space and the elevation of structures 
above base-flood levels. Finally, Congress should also consider the 
racial inequities inherent in federal buyout programs that reflect and 
perpetuate discriminatory practices and historic redlining. According 
to numerous studies, buyouts disproportionately benefit white and 
wealthy communities. Low-income and minority homeowners and communities 
should be given priority and additional assistance to address and 
balance the history of placing low-income and minority housing in areas 
of higher risk.
Risk Transfer
    The United States has an infrastructure funding gap of more than $2 
trillion and the public sector alone cannot close it. Policymakers at 
all levels of government must find ways to make every dollar go 
further, and should consider enhanced public-private partnerships and 
risk-transfer opportunities. The private sector, particularly the 
insurance industry, has both the willingness and capacity to take on 
additional risk associated with natural disasters. By leveraging 
private financing and insurance and reinsurance availability, 
policymakers can shift some financial burdens associated with climate 
change from the government's balance sheet to willing private sector 
participants.
    We also encourage the House to consider targeted data-driven 
measures that help Congress and the administration to identify 
communities most in need of climate adaptation. Opportunities for 
public-private partnerships and cost-sharing agreements should be given 
serious consideration in an effort to bolster private sector 
investments in climate resilient infrastructure.
The Role of Climate Research in Infrastructure Investment
    We encourage you to consider our nation's research infrastructure 
especially as it pertains to climate risk, ocean science, disaster 
resilient engineering, and green infrastructure. COVID-19 further 
demonstrates the need for more resilient, comprehensive, and efficient 
research infrastructure, and is revealing unmet needs that are 
hampering the fight against the coronavirus pandemic. Congress should 
consider new investments in research infrastructure that are important 
to enhancing our nation's overall capabilities and competitiveness for 
years to come, including American-organized or staffed not-for-profits 
conducting vital research abroad, whether at sea, in biodiverse 
habitats or other in situ locations important to furthering U.S. 
research objectives. Additionally, we would encourage the Senate to 
advance any forthcoming measure that aims to improve the sharing of 
climate information.
    Thoughtful infrastructure spending can and should simultaneously 
provide economic growth, security for communities, and long-term 
savings for taxpayers. We greatly appreciate your efforts and 
consideration of the aforementioned suggestions to promote fiscally and 
environmentally responsible infrastructure. Our coalition stands ready 
to be a resource to you and your colleagues as legislation to forward 
your infrastructure platform takes shape.
        Respectfully,
                                           SmarterSafer Coalition.

                                MEMBERS
                      Environmental Organizations
                            American Rivers
             Center for Climate and Energy Solutions (C2ES)
                             ConservAmerica
                         Defenders of Wildlife
                      National Wildlife Federation
                Natural Resources Defense Council (NRDC)
                          Surfrider Foundation

                    Consumer and Taxpayer Advocates
                      Coalition to Reduce Spending
                        National Taxpayers Union
                           R Street Institute
                       Taxpayers for Common Sense
                     Taxpayers Protection Alliance

                    Insurer and Reinsurer Interests
         Association of Bermuda Insurers and Reinsurers (ABIR)
                         The Chubb Corporation
                          Liberty Mutual Group
       National Association of Mutual Insurance Companies (NAMIC)
                       National Flood Association
                   Reinsurance Association of America
                                Swiss Re
                                  USAA

                          Mitigation Interests
                 Natural Hazard Mitigation Association

                                Housing
                          Habitat for Humanity
                      National Housing Conference
                  National Leased Housing Association

                          ALLIED ORGANIZATIONS
                           Allianz of America
                      American Consumer Institute
        American Property Casualty Insurance Association (APCIA)
                      Center for Clean Air Policy
                          Friends of the Earth
                         Institute for Liberty
                            Zurich Insurance
    Ms. Titus. Mr. Webster.
    Mr. Webster. Thank you, Chair Titus, for holding this 
hearing today. I really appreciate it. I am thankful for the 
witnesses, including Mr. Fowke, who is from Florida, 
representing the National Association of Home Builders.
    I am pleased to serve as ranking member of this 
subcommittee, look forward to working closely with the chair on 
issues critical to this subcommittee, including resiliency and 
mitigation, which are very important to Florida.
    So, in 2015, work was done in this committee, and we 
learned that just 25 percent of the disasters accounted for 
more than 92 percent of the disaster costs. While disaster 
declarations have increased, these numbers show it is a small 
number of large disasters that are driving the disaster costs.
    Ultimately, the real solution to lowering disaster costs is 
upfront investment in mitigation, which the chair talked about, 
hardening of existing structures, which is sometimes very 
economical, and yet, brings about much savings, not only the 
savings, but also strength to the building.
    We know mitigation saves lives, and reduces property 
damages and disaster costs. Study after study shows, as the 
chairman said, that for every $1 invested in mitigation, $4 to 
$11 are saved.
    We have seen the benefits of mitigation firsthand in 
Florida. After a devastating 2004-2005 hurricane season, 
Florida made specific policies and behavior changes to improve 
on our disaster preparedness, including an overhaul, which 
began quite a few years ago before that, to rewrite the 
building code and implement it.
    The cornerstone of these changes was mitigation through 
resilient construction techniques and improved communication 
and coordination between the State and local agencies. Florida 
worked with industry leaders, homebuilders, the insurance 
industry, and other stakeholders on a regional-based approach, 
recognizing that a one-size-fits-all approach does not really 
work, but that leveraging incentive programs and other avenues 
to help manage costs to consumers would work.
    These investments in mitigation help to protect Florida 
communities against hurricanes, flooding, and other hazards. 
Whether it is hurricanes, floods, or wildfires, ensuring the 
investments make sense and are cost-efficient is important to 
ensuring effectiveness.
    I look forward to hearing from the witnesses today, and 
this is an important topic.
    Thank you, Chair Titus, for holding this hearing. And I 
yield back.
    [Mr. Webster's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Daniel Webster, a Representative in Congress 
from the State of Florida, and Ranking Member, Subcommittee on Economic 
        Development, Public Buildings, and Emergency Management
    Thank you, Chair Titus, for holding this hearing today. I want to 
thank the witnesses, including Mr. Fowke from Florida representing the 
National Association of Home Builders.
    I am pleased to serve as the Ranking Member of this subcommittee, 
and I hope to work closely with Chair Titus on issues critical to this 
subcommittee, including resiliency and mitigation.
    Disaster costs have increased significantly over the years. In 
2015, through work done by this committee, we learned that just 25 
percent of all disasters accounted for more than 92 percent of disaster 
costs. While disaster declarations have increased, these numbers show 
it is a small number of large disasters that are driving disaster 
costs.
    Ultimately, the real solution to lowering disaster costs is upfront 
investment in mitigation. We know mitigation saves lives and reduces 
property damage and disaster costs. Study after study demonstrates that 
for every $1 invested in mitigation $4 to $11 are saved.
    We have seen the benefits of mitigation firsthand in Florida. After 
the devastating 2004 and 2005 hurricane seasons, Florida made specific 
policy and behavior changes to improve our disaster preparedness. The 
cornerstone of these changes was mitigation through resilient 
construction techniques and improved communication and coordination 
between state and local agencies.
    Florida worked with the insurance industry, homebuilders, and other 
stakeholders on a regional-based approach, recognizing that a one-size-
fits-all approach wouldn't work, but that leveraging incentive programs 
and other avenues to help manage cost to consumers would. These 
investments in mitigation help to protect Florida communities against 
hurricanes, flooding, and other hazards.
    In 2018, we enacted significant reforms, including the Disaster 
Recovery Reform Act, that modernized FEMA's predisaster mitigation 
program and provided an ongoing funding mechanism. But just as critical 
as funding is the investment in proven mitigation measures appropriate 
for the specific hazards in a given area. Whether it's hurricanes, 
floods, or wildfires, ensuring the investments make sense and are cost-
beneficial is important to ensuring effectiveness.

    Ms. Titus. Thank you, Mr. Webster.
    Before recognizing our witnesses, I would ask for Mr. 
DeFazio, the chairman of the Committee on Transportation and 
Infrastructure, for his opening remarks.
    Mr. DeFazio. Thank you, Madam Chair.
    FEMA has been busy. It was quite a year--the pandemic, 
above average tornadoes, floods, hurricanes, and wildfires in 
the United States. And I have got to thank the people at FEMA. 
There were a lot of parts of the last administration that 
became pretty dysfunctional. FEMA did not, and they were able 
to deliver, and I appreciate all of the people who engaged in 
that hard work.
    The Building Resilient Infrastructure and Communities 
program, the BRIC program as we call it, is totally 
oversubscribed. The demand is phenomenal. The savings are even 
more extraordinary and phenomenal, in addition to ongoing 
savings for the individuals, communities, businesses, in terms 
of reduced insurance costs when they undertake these 
activities.
    In October, I led a bipartisan letter with Ranking Member 
Graves, Chair Titus, and then-Ranking Member Katko to FEMA 
Administrator Gaynor and OMB Director Vought, urging them to 
set aside the full $3.7 billion for BRIC from the COVID 
declarations. Unfortunately, they ignored that, and they set 
aside only $500 million. I am hopeful that that can soon be 
corrected by this administration.
    And also, when we did the DRRA, the Disaster Recovery 
Reform Act, I think that was the last Congress, the Congress 
before--I can't remember anymore--we established a Post-
disaster Hazard Mitigation Grant Program for FEMA for fire 
management assistance. And I think there are activities that 
need to be expanded and considered under that program.
    For example, you probably can't move an entire community 
out of the wildland-urban interface when it comes to fire, but 
in the case of Blue River in my district, the fire was started 
by a fire that fell from a pole with a severe and absolutely 
unprecedented unusual wind out of the northeast, which doesn't 
happen, but, hey, a lot of weird things happen these days.
    So, considering to put the utilities underground, yeah, it 
is an additional cost, but it is a one-time cost. You are not 
going to have to put back the poles again or maybe put back the 
poles and start another fire again, and then go back and put 
the poles back up, et cetera.
    So I think that we need to expand our view of what kinds of 
activities will be acceptable. And I don't believe all of this 
investment has to be borne directly by the Federal Government.
    Going all the way back to the 113th Congress, I worked with 
Representatives Reed, Pascrell, and Diaz-Balart to introduce 
the Disaster Savings and Resilient Construction Act, which we 
will reintroduce. It provides tax incentives to encourage 
individuals and companies to basically prepare their homes and 
businesses to whatever is the predicted natural disaster and 
known risks in their areas, lessening costs of insurance claims 
and certainly future disaster relief. And I plan on working 
with our colleagues on the Ways and Means Committee, and, 
hopefully, they will advance the measure.
    Just 3 years ago, the Republican-controlled Congress and 
White House decided that DoD had to establish a resilience 
standard for all its at-risk facilities, and everything 
critical had to be a minimum of 2 feet above base flood-level 
elevation. So, if it is good enough when the Federal Government 
invests money in the Pentagon and its bases, I think it should 
be for all federally funded infrastructure, and we will be 
looking in our surface bill to build back resilience.
    Then during our February markup, my friend from Louisiana, 
Representative Garret Graves, offered an amendment to set aside 
$500 million of the $50 billion we gave to FEMA disaster relief 
to be used to establish a national flood standard. I am 
certainly open to working with him in pursuing one. My 
colleagues, Mr. Price of North Carolina and Mr. Zeldin of New 
York, have recently introduced legislation with a similar goal, 
which has been referred to the committee.
    So we have got our work cut out for us to go forward in a 
bipartisan way, to work and help give FEMA the tools and the 
capability and the flexibility it needs to meet with new and 
evolving risks. BRIC is just one example of how quickly we 
could make these investments with the oversubscription of that 
program.
    And with that, Madam Chair, I yield back the balance of my 
time.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Titus, and thank you to our witnesses for being 
with us today. The issues we'll be discussing have proven results as 
driving factors in reducing risk and future costs to the federal 
taxpayer for disaster relief.
    As Chair Titus noted in her opening remarks, the return on 
investment is quite measurable and significant. And, this oversized 
return on investment reminds me of the work done by the people at FEMA: 
whether they are administering disaster relief and assistance, funding 
mitigation projects, or undertaking efforts to bolster national 
resilience one individual or community at a time, they play an outsized 
role and punch well above their weight.
    Representing a district recently impacted by catastrophic 
wildfires, I've seen FEMA work with partners at the state and local 
level, as well as with disaster survivors who have lost everything--
it's worth taking a moment to recognize FEMA's seemingly tireless 
workforce.
    In the last year alone, FEMA has been tapped to respond to the 
pandemic with a record-setting number of concurrent Stafford Act 
declarations; responded to above-average tornado, flood, hurricane, and 
wildfire seasons while operating under unprecedented COVID protocols; 
pushed tens of billions of dollars of assistance to state, tribal, 
territorial, and local partners in disaster relief and unemployment 
assistance; and now it is concurrently leading the effort to vaccinate 
the nation and squelch the pandemic while also assisting its sister 
federal agencies to provide more humane conditions for migrants seeking 
refuge in the U.S.
    For all the work FEMA employees have done and will continue to do 
to help us recover from disasters--thank you.
    Smart investments of Federal dollars in projects focused on 
mitigating risk and bolstering resilience is just basic good 
government, and will lessen the impacts of future disasters. When we 
help mitigate risk using the programs and efforts of FEMA, we make 
homes and the built environment of our communities more insurable--
shifting the burden from the Stafford Act as being the de facto insurer 
of last resort for so much of the nation.
    We know these programs are oversubscribed--just look at the volume 
of interest in the BRIC program for this cycle. It's imperative that 
BRIC is fully capitalized so it can fund an even greater number of 
projects in the out years.
    Last October, I was proud to lead a bipartisan letter with Ranking 
Member Graves, Chair Titus, and then Ranking Member Katko to FEMA 
Administrator Gaynor and OMB Director Vought urging them to set aside 
the full $3.7 billion calculation for BRIC from the COVID declarations 
granted pursuant to the Stafford Act. Instead, the previous 
administration only set aside $500 million. This administration can 
correct for that mistake, but not at the expense of ongoing vaccination 
efforts.
    In the DRRA, we successfully included the establishment of post-
disaster HMGP funding for FEMA's Fire Management Assistance Grants, so 
that states that experienced wildfires of a magnitude warranting 
federal help could also benefit from post-disaster mitigation 
assistance. Additionally, we expanded eligible activities under the 
HMGP program to be inclusive of additional hazards, such as earthquake 
early warning technology.
    Given the experiences of communities in Oregon, California, and 
other states running into roadblocks using the HMGP funding for certain 
activities in the wildland-urban interface (WUI), it appears that 
additional activities must be taken into consideration to ensure that 
the Hazard Mitigation Assistance programs address all hazards 
equitably.
    For example, an entire community may not be able to be relocated 
out of the WUI, so it may be cost beneficial to underground utilities 
to prevent future disasters from taking them down, or it may make sense 
to rebuild a fire station in a lower-risk area of the WUI than to 
simply not build one back at all.
    And, I don't believe that all of this investment must be borne 
directly by the Federal government. Going back to the 113th Congress, I 
have joined with Representatives Reed, Pascrell and Diaz-Balart to 
introduce the Disaster Savings and Resilient Construction Act, which is 
about to be re-introduced.
    It would provide tax incentives to encourage individuals and 
companies to gird their homes and businesses from natural hazards and 
known risks, lessening costs of insurance claims and future disaster 
relief. I plan on working with our colleagues on the Ways and Means 
Committee and urge them to advance the measure this congress.
    Nearly three years ago, a Republican-controlled Congress and 
President Trump agreed that the resilience of Department of Defense 
(DOD) facilities was worthy of establishing a resilience standard 
across the department. The FY19 John McCain Defense Authorization Act 
explicitly requires that DOD facilities constructed in a special flood 
hazard area must be built at a minimum of two feet above the base flood 
elevation. If the facility is deemed to be critical infrastructure--
such as a power plant, hospital, school, or fire or police station--the 
minimum requirement is three feet above base flood elevation.
    If it's good enough for the billions of dollars we invest in the 
DOD, then why not for other federally-funded infrastructure?
    During our February markup, my friend from Louisiana, 
Representative Graves, offered an amendment to set aside $500 million 
of the $50 billion dollars we provided for FEMA disaster relief to be 
used to establish a national flood standard, and I'm open to working 
with him in pursuing one. Our colleagues--Mr. Price of North Carolina 
and Mr. Zeldin of New York--have recently introduced legislation with a 
similar goal, which has been referred to the Committee.
    We have our work cut out for us. The T&I Committee has always taken 
on challenging tasks and tried to find a bipartisan path forward. I'd 
expect the same here. We'd all like to see our communities stronger and 
safer--more resilient from known risks.
    The crush of applicants for BRIC is proof that there's no lack of 
shovel-ready projects that can get underway, put engineers and trades 
to work, and lessen the impacts of future disasters.
    I look forward to working with Chair Titus as we move forward, and 
in finding areas of agreement with our colleagues across the aisle. 
Thank you.

    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Graves is not with us to make a statement, so we would 
now like to welcome the witnesses on our panel:
    Mr. Roy Wright, who is president and CEO of Insurance 
Institute for Business and Home Safety; Ms. Velma Smith, senior 
government relations officer of the flood-prepared communities 
initiative for The Pew Charitable Trusts; Mr. Ben Harper, head 
of corporate sustainability, Zurich North America; Mr. John 
Fowke. Would you like to say something about Mr. Fowke, Mr. 
Webster? Didn't you say he was from Florida?
    Mr. Webster. Well, he is national chairman of the National 
Association of Home Builders, and he is also from Florida, a 
builder over in the Tampa area, Tampa Bay area.
    Ms. Titus. All right. We are glad to have him.
    And Mr. Russell Strickland, I believe Ms. Norton would like 
to introduce him.
    Ms. Norton. Yes, Madam Chair. I would be pleased to 
introduce today as a witness, Mr. Russell J. Strickland from my 
neighboring State of Maryland. Mr. Strickland is an experienced 
emergency management professional who has more than 40 years of 
experience in the field of emergency services and first 
responder activities at the State and local levels of 
government, academia, and the private sector.
    This includes expertise in fire and rescue services, 
emergency medical services, fire inspection and investigation, 
communications, and emergency management leadership.
    Mr. Strickland currently serves as the executive director 
of the Maryland Emergency Management Agency. In his current 
role, Mr. Strickland leads the Agency that has primary 
responsibility and authority for disaster risk reduction and 
consequent management for the State of Maryland. This includes 
service as a direct advisor to the Governor during disasters 
and coordinating support for local government as requested.
    With his extensive background, I am pleased that we have 
Mr. Strickland here to testify before us this afternoon. And I 
thank you, Mr. Strickland, and you, Madam Chair.
    Ms. Titus. Thank you, Ms. Norton.
    We are delighted to have all of our witnesses. They 
certainly bring a level of professionalism and expertise to the 
panel, and we look forward to hearing from them.
    Without objection, our witnesses' full statements will be 
included in the record. Since your written testimony has been 
made a part of the record, the subcommittee requests that you 
limit your oral testimony to 5 minutes.
    We will now proceed with the witnesses and begin with Mr. 
Strickland.

    TESTIMONY OF RUSSELL J. STRICKLAND, EXECUTIVE DIRECTOR, 
MARYLAND EMERGENCY MANAGEMENT AGENCY, ON BEHALF OF THE NATIONAL 
EMERGENCY MANAGEMENT ASSOCIATION; ROY E. WRIGHT, PRESIDENT AND 
 CHIEF EXECUTIVE OFFICER, INSURANCE INSTITUTE FOR BUSINESS AND 
HOME SAFETY; VELMA SMITH, SENIOR GOVERNMENT RELATIONS OFFICER, 
   FLOOD-PREPARED COMMUNITIES INITIATIVE, THE PEW CHARITABLE 
 TRUSTS; BEN HARPER, HEAD OF CORPORATE SUSTAINABILITY, ZURICH 
     NORTH AMERICA; AND JOHN C. FOWKE, CHAIRMAN, NATIONAL 
                  ASSOCIATION OF HOME BUILDERS

    Mr. Strickland. Thank you for the kind introduction and for 
holding this hearing, and allowing me to testify on behalf of 
the National Emergency Management Association.
    In the State of Maryland, we rely on investments in 
mitigation, and a whole-community approach to addressing our 
vulnerabilities. These investments ensure that when a disaster 
strikes, the communities affected will be able to effectively 
respond and build back stronger.
    However, our journey to be a more resilient State and 
Nation faces some challenges that, with your permission, I 
would like to address.
    First, your foresight in creating the Building Resilient 
Infrastructure and Communities program, BRIC, has allowed 
States to implement projects that will strengthen our 
collective resilience for the long term. However, State and 
local needs currently far exceed available funding. As such, we 
strongly encourage Congress to work with FEMA and OMB to allow 
the full 6-percent set-aside of eligible disaster spending 
every year for this program. BRIC is transformative in its 
capacity to support large infrastructure projects, particularly 
those related to stabilizing community lifelines, and that is 
why it is so important.
    Further, building resilience for Maryland's energy and 
communications lifelines is central to supporting our 
communities as they try to return to normal operations after a 
disaster. Given that in many States, the private sector owns 
and operates most critical infrastructure, leveraging BRIC 
funding with public-private partnerships will strengthen our 
resilience. The Federal Government remains an active partner in 
supporting our mitigation projects and strengthening our 
resilience. Earlier this year, Maryland submitted an 
application to the BRIC program, and we are looking forward to 
getting started.
    Second, FEMA's all-or-nothing approach to building code 
standards in this year's BRIC application scoring may unfairly 
place communities that are still working through that adoption 
process at a disadvantage, perpetuating a cycle that puts 
people and buildings at risk.
    In my written statement, I go into detail about the 
benefits provided by using building codes that are appropriate 
to local hazards to avoid disaster losses and increase 
resilience. While these benefits are a worthwhile investment, 
States often must conduct a lengthy legislative process to 
adopt new building codes. FEMA should remain flexible in 
supporting States and locals as they work to adopt the building 
codes appropriate to their risk profiles.
    Another challenge in our efforts to build back stronger is 
the complexity of many FEMA grant programs and the extensive 
requirements that the jurisdiction must satisfy to access FEMA 
funding. For example, one difficulty is assisting the many 
locals who do not have sufficient staffing and capacity to 
develop successful grant applications. This is particularly 
challenging for our low- and moderate-income communities that 
face repetitive hazard risk. We should work together to 
simplify the requirements or provide increased funding to hire 
staff to assist local jurisdictions in writing competitive 
grants.
    With disasters increasing in size and frequency, our 
recovery and resilience efforts must be in line with building 
back stronger, rather than the previous capabilities and 
capacity. As you know, the State of Maryland is threatened by a 
host of hazards in a coastline vulnerable to sea level rise and 
erosion. In addition to our work with Federal partners, 
Maryland is working to establish cross-sector partnerships that 
reduce risk to our people, property, and critical 
infrastructure. Effective coordination is critical, and 
Maryland has seen successful partnerships with FEMA through 
hazard mitigation assistance, and our hosting of a FEMA 
integration team which places FEMA personnel in a State 
emergency operation center.
    None of these challenges, however, cannot be overcome. A 
strong working relationship with this committee has brought us 
this far, and I am sure will bring more opportunities for 
success in the future.
    On behalf of the State emergency managers, thank you, 
again, for holding this hearing and drawing attention to the 
needs of the emergency management community. Emergency 
management is a team sport, and we will surely be more 
successful in saving lives and property when we work together.
    Thank you very much.
    [Mr. Strickland's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Russell J. Strickland, Executive Director, 
    Maryland Emergency Management Agency, on behalf of the National 
                    Emergency Management Association
    Thank you, Chairman Titus, Ranking Member Webster, and 
distinguished members of the Committee for allowing me to testify 
today.
    I am proud to testify today representing the National Emergency 
Management Association (NEMA). NEMA represents the state emergency 
management directors of all 50 states, territories, and the District of 
Columbia. As Executive Director of the Maryland Emergency Management 
Agency and on behalf of my colleagues in state emergency management, we 
thank you for holding this discussion on the importance of investing in 
mitigation and resilience.
        Understanding the Landscape of Mitigation and Resilience
    As disasters become more frequent and larger in scale, scope, and 
complexity, we know we will never be able to respond our way out of the 
vulnerabilities our communities face. Instead we must invest in 
mitigation projects that work with our communities to build resilience 
where it is needed most. These investments are key to ensuring that 
when a disaster occurs the communit(ies) affected will be able to 
withstand its impacts and rapidly recover.
    Communities need to be supported and provided resources to pursue a 
pathway to increase their resilience. This includes support for their 
mitigation projects from inception to implementation. We must also 
place comprehensive, transformational mitigation at the forefront of 
our national security strategy to reduce risk. We also have to be 
flexible with each community and recognize that each has its own set of 
unique risks and vulnerabilities. Then, we can identify obstacles and 
provide solutions to overcome them and continue to build upon our 
successes.
    I am known among my colleagues for saying, ``mitigation is the 
center of the universe,'' because these projects are imperative as we 
seek to avert the worst possible impacts of disasters and prepare our 
communities for when the next disaster strikes. As a coastal state 
Maryland is prone to a host of water-related hazards, including 
flooding, severe storms, and hurricanes, as well as tornadoes, 
earthquakes, and excessive heat. This is in addition to the risks faced 
across our nation by threats such as pandemics. Mitigation activities 
can be as individual as washing hands and wearing a mask to combat 
COVID-19 or purchasing flood insurance when living in a flood zone or 
as large as conducting coastal restoration to mitigate the impacts of 
climate change in the Chesapeake Bay.
    Resilience must be made actionable to be effective. The NEMA 
Resilience Committee is focused on considering methods to ensure that 
resilience is incorporated into all stages of emergency management, 
from updating preparedness and mitigation plans to incorporating 
resiliency principles into exercises and rebuilding stronger post-
disaster.
    Maryland and other states across the nation are working to 
inculcate a culture of preparedness and promote resilience through 
increased public awareness of risk, enhancements to critical 
infrastructure, and mitigation projects that incorporate nature-based 
solutions and public-private partnerships.
                        The Maryland Experience
Success
    As we collectively move beyond a traditional mitigation mindset to 
one that incorporates large infrastructure projects and partnerships we 
must go beyond tradition to think broadly about resilience. Building 
dynamic partnerships across the whole community to include non-profits 
and the private sector will expand our capacity to reduce risk across 
the landscape. Maryland, under the leadership of Governor Larry Hogan, 
is making great strides in establishing partnerships across sectors and 
across nations in order to bring innovative solutions to the challenges 
we are facing. During his 2019-2020 chairmanship of the National 
Governors Association, Governor Hogan made strengthening the resilience 
of America's critical infrastructure a top focus for states.
Challenges
    Among the most significant challenges to increasing mitigation and 
resilience projects is the need for funding that is flexible and 
accessible to vulnerable low- and moderate-income communities. Many 
communities that are at elevated levels of hazard risk are those with 
limited resources to invest in disaster risk reduction.
    Relatedly, grant applications involve all levels of government, 
ranging from local to state to federal. Many grants have cumbersome 
proposal and application requirements. This further exacerbates the 
challenges for jurisdictions without sufficient staff to shepherd an 
application to its fruition. Continuing to streamline processes at the 
federal level where possible will increase engagement from under 
resourced jurisdictions, and their strengthened resilience will enhance 
our local, state, and national resilience.
                       BRIC Program and Set-Aside
    Section 1234 of the Disaster Recovery Reform Act (DRRA) of 2018 
(P.L. 115-254) authorizes the National Public Infrastructure Pre-
Disaster Mitigation fund, which has been implemented as the Building 
Resilient Infrastructure and Communities (BRIC) program. The program 
provides opportunities for increased whole community collaboration to 
pursue transformative mitigation projects. The first application period 
for this new program closed at the end of January 2021.
    Maryland submitted a proposal to remainage the Middle Branch of 
Baltimore City. The area is home to the Nation's first Urban Wildlife 
Refuge but plagued by flooding and environmental degradation. The BRIC 
proposal will be the catalyst to address flooding and climate change 
risk and support a vulnerable community with valuable environmental 
resources. Additionally, this area supports critical infrastructure and 
facilities, such as Harbor Hospital and a main thoroughfare to support 
activity for the Port of Baltimore. Reducing the flooding risk will 
continue to ensure the protection of these vital community services.
    BRIC provides opportunities to support capacity and capability 
building activities for communities to identify and develop resilience 
projects. However, there are opportunities for greater flexibility 
within this program in order to support the development of complex, 
innovative projects and also prioritize resources for vulnerable 
communities. The current State set-aside of $600,000 for each State, 
Territory, and District of Columbia is far too limited to support the 
development of the types of resilience projects needed to combat the 
risks on the horizon.
    BRIC is funded by a set-aside of up to six percent of estimated 
disaster grant expenditures. For the initial offering, FEMA made $500 
million available and the total applicant pool totaled $3.6 billion 
dollars. This clearly demonstrated the need and desire among state, 
local, tribal, and territorial governments to invest in mitigation if 
the opportunity is available. As such, we strongly urge Congress to 
work with FEMA and the Office of Management and Budget (OMB) to ensure 
that the full six percent set-aside is available each year.
    Supporting the Implementation of Consensus-Based Building Codes
    Strong building codes save lives and protect property. A commonly 
cited statistic (and appropriately so) from a series of ongoing 
National Institute of Building Sciences (NIBS) studies is that 
mitigation investments return $6 for every $1 invested, but even more 
impressively, the study's authors found that there is a national 
benefit of $11 in return for every $1 invested in designing buildings 
to model building codes.
    We have seen this play out nationwide where newer building codes 
have been implemented. Notably, Alaska underwent a 7.0 earthquake in 
late 2018 that was very geographically similar to the famed 1964 
earthquake which killed more than 100 people. In 2018, however, with 
the adoption of model building codes there were no reported deaths or 
serious injuries.
    Last year FEMA released Building Codes Save: A Nationwide Study 
which concluded that the U.S. will avoid $132 billion in losses from 
hazard events by 2040 because of buildings built to international 
standards. While not all codes are appropriate in all instances, 
ensuring building codes meet the needs of a locality and its hazard 
profile has a demonstrated impact on community resilience in the event 
of a disaster.
    This year a piece of the scoring rubric for BRIC worth 20 percent 
of the total score is whether the applicant has a mandatory building 
code adoption requirement (2015 or 2018 versions of the International 
Building Code and International Residential Code). These points are 
awarded in an all-or-nothing fashion, potentially disadvantaging those 
applicants who do not have the capability to change building code 
standards within their states unilaterally and must undergo a lengthy 
stakeholder and legislative process to do so. FEMA has stated that it 
wishes to support the adoption of appropriate building codes through 
BRIC but if applicants are disadvantaged because of their older 
building codes and unable to obtain funding for those projects it 
perpetuates a cycle that leaves buildings and people less safe. 
Especially in the initial years of the BRIC process, we encourage FEMA 
to be understanding of the different status of codes nationwide and 
work collaboratively and not punitively to support the states as they 
work to raise their building code standards.
 Integrating Community Lifelines Into Mitigation and Resilience Efforts
    BRIC is an opportunity to create transformative, community-based 
projects that work with the private sector, homeowners, locals, and 
other stakeholders that incentivizes large infrastructure projects for 
community lifelines. Governor Hogan recently testified before the U.S. 
Senate Committee on Environment and Public Works on the importance of 
investing in resilient transportation and infrastructure projects which 
bolster our collective resilience in the face of disasters and cyber 
threats \1\. As a designated community lifeline, resilient 
infrastructure and transportation networks will enable areas affected 
by disaster to more rapidly return to normal function.
---------------------------------------------------------------------------
    \1\ Senate Committee on Environment and Public Works hearing on 
``Building Back Better: Investing in Transportation while Addressing 
Climate Change, Improving Equity, and Fostering Economic Growth and 
Innovation.'' February 24, 2021. https://www.epw.senate.gov/public/
index.cfm/hearings?ID=A076F488-6A1E-41DB-9279-7C943023D8D9
---------------------------------------------------------------------------
    Ensuring community lifelines, particularly energy and 
communication, are resilient against hazard impacts is a priority for 
Maryland and many other states to ensure the safety and security of our 
residents post-disaster. Community lifelines are often owned and 
operated by the private sector, further underscoring the need to 
embrace partnerships and educate those outside of traditional emergency 
management on the role everyone can play in mitigation and resilience.
                         Building Back Stronger
    An immediate post-disaster priority is beginning the long process 
to rebuild a community. Increased resilience helps us to do that more 
quickly, as those in the community are more prepared and ready for the 
impacts. However, with the scale of disasters growing we must be 
prepared to build back stronger in anticipation of the future, rather 
than building back to previous capacity and capability which was 
insufficient.
    As always when working with multiple organizations and levels of 
government, coordination can always be improved. Maryland has seen 
significant benefits in this space from the placement of a FEMA 
Integration Team (FIT) within the Hazard Mitigation and Public 
Assistance programs. These FEMA personnel have served to expedite 
processes and be a dedicated source to ensuring resources are made 
available to disaster survivors as soon as possible.
    MEMA continues to see successes in FEMA's Public Assistance 406 
Mitigation programs and Hazard Mitigation Assistance programs. In 2018, 
Frederick County, MD sustained intense damages due to flooding. Through 
the Public Assistance 406 Mitigation program we were able to go above 
an in-kind replacement to implement a larger scale resilience project 
that will reduce future losses to residential and commercial properties 
within the community. Through the Hazard Mitigation Assistance programs 
we are continuing to build upon these efforts by pursuing funding to 
increase the level of protection of the surrounding infrastructure.
    A significant challenge when it comes to building back stronger is 
the length of time between when a disaster declaration is approved and 
when the funding associated with that declaration is available in the 
impacted areas. Streamlining federal requirements and processes while 
still ensuring judicious stewardship of taxpayer dollars is critical to 
helping communities when they need it most.
    On August 4, 2020, Tropical Storm Isaias made landfall in Maryland 
resulting in widespread flooding and several tornadoes touching down in 
our rural communities. These impacts were additionally challenging as 
we were in the midst of COVID-19 response efforts. Due to COVID-19 
restrictions on travel, the Joint Preliminary Damage Assessment was 
done remotely for the vast majority of the event. This then places a 
documentation burden on state and local personnel that is not typically 
seen at this phase of the process, making meeting the 30-day deadline 
for a declaration request impossible. Changes were also made to the PDA 
guide during the pandemic that were conflicting and prohibitive when 
considering how to mitigate damaged infrastructure during the Public 
Assistance project phase.
    Maryland's request for federal assistance through a Presidential 
Major Disaster Declaration was initially denied and was finally awarded 
through the appeals process six months later on February 4, 2021. This 
six-month delay caused us to miss opportunities to build upon the 
State's resilience and implement mitigation projects. Citizens do not 
have the ability to wait months to receive assistance and return to 
their homes and businesses. Our local governments are not able to wait 
months to make repairs and improvements to critical infrastructure. We 
urge Congress to work with FEMA in order to continue to streamline 
federal assistance programs in order to expedite programs and 
capitalize on mitigation opportunities.
                               Conclusion
    On behalf of the state emergency managers, thank you again for 
holding this hearing and drawing attention to the needs of the 
emergency management community. In Maryland, we are acutely aware of 
the need to build upon the momentum from the implementation of the BRIC 
program to further improve mitigation and resilience efforts to ensure 
we effectively support our communities in their time of need. As you 
consider the topics of this hearing, please remember that investing in 
mitigation and resilience makes real differences in the lives of those 
affected by disasters and allows us to build back smarter to lessen the 
impacts of future events.

    Ms. Titus. Thank you, Mr. Strickland.
    Mr. Wright.
    Mr. Wright. Good afternoon, Chair Titus, Ranking Member 
Webster, and members of the committee. I appreciate the 
opportunity to be with you all today.
    If 2020 has taught us anything, it is that the home is of 
paramount importance, and for too many, vulnerable to the 
forces of Mother Nature.
    The dangers of COVID-19 led Americans to seek refuge in 
their homes, juggling remote work, childcare, and other 
necessities of life under a single roof. The year 2020 showed 
us that housing is infrastructure. Yeah, housing is 
infrastructure.
    And yet, 2020 should also be remembered as the year that 
climate change barged through the front door of American 
families. The year 2020 delivered the most active Atlantic 
hurricane season on record, the most named storms in history, 
the outlandish number of acres that were burned by wildfire, 
and the Midwest derecho that was the costliest thunderstorm in 
our Nation's history. NOAA reported another 2020 record. There 
were 22 weather and climate disasters that broke through the $1 
billion cost mark.
    A look at 2020 in a broader context: while natural perils 
last year were particularly bad, it was not an anomaly. There 
is a pattern of major disasters that just won't let up. That is 
a factoid. So what do we do about it? We must adapt, and adapt 
now. In an era where severe weather continues to disrupt lives, 
displace families, and drive financial loss, our team at the 
Insurance Institute for Business and Home Safety developed the 
science and building practices so that the places where people 
live, learn, work, worship, and gather, are safe, stable, and 
strong.
    The risk is on an escalating path. Our partners, the 
Reinsurance Association of America, have been leveraging 
private sector analytics and public data to visualize the 
interplay between natural hazards, housing stock, and 
socioeconomic vulnerabilities.
    I want you to look at the specifics in my written 
testimony, but here is the central point: We must leverage 
public-private partnerships if we are going to focus limited 
resources on the places of greatest impact.
    As IBHS studies wind, rain, hail, and wildfire, we see 
specific and actionable pathways that will bend down these risk 
curves. But we cannot allow resilience to be a luxury item. 
Home and community resilience cannot be the exclusive option of 
the top two quartiles of income in this country.
    So, some congressional pathways for strengthening the 
resilience of American homes: First, encourage strong statewide 
building codes. As you contemplate legislation, target those 
investments at places where we can spur new and sustained 
commitments by States to using modernized codes. We need the 
total investment to grow, not just switch out local dollars and 
replace them with Federal grants.
    For those Americans who have the means to take actions, we 
need to nudge them to do so with resiliency tax credits, like 
the bipartisan bill that Chairman DeFazio mentioned.
    And where the pathway to home resilience is not readily 
affordable, we need to use national and State policy mechanisms 
to achieve our goal. The BRIC program could be better 
calibrated to fund residential resilience projects.
    What would it look like if we had created community 
disaster resilience zones, a derivation of the Build America 
Bonds that drove private sector funding to address natural 
disaster risks of exposed communities, particularly focusing on 
underserved socioeconomic areas.
    Next, we need to prioritize resilient infrastructure. The 
cascading disaster in Texas last month put a clear spotlight on 
something we have known, but have long ignored. The resilience 
of homes is intrinsically connected to the resilience of 
community infrastructure, especially water and energy.
    As Congress works with the Biden administration to develop 
an ambitious infrastructure bill, we urge this subcommittee to 
champion resilience and climate change adaptation as central 
objectives of that legislation. Do not miss the opportunity to 
reduce the future costs of disaster relief by making resilience 
to severe weather and changing climate a central component of 
the infrastructure. We need to extend this to public buildings. 
You all know this quite well with category E under the Stafford 
Act. Stop incentivizing communities to skip insurance, because 
they know FEMA will simply pay the bill.
    In closing, Americans are not powerless against severe 
weather. It is possible to reduce the damage inflicted today 
and into the future. Meeting this pressing need will require an 
all-of-the-above approach.
    I look forward to your questions.
    [Mr. Wright's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Roy E. Wright, President and Chief Executive 
       Officer, Insurance Institute for Business and Home Safety
    Members of the Subcommittee, thank you for the opportunity to speak 
with you today about the importance of residential resilience as we 
think about strengthening families, communities, and adapting to the 
adverse effects of future climate conditions. My name is Roy Wright, 
and I am President & CEO of the Insurance Institute for Business & Home 
Safety (IBHS). IBHS is a 501(c)(3) organization, enabled by the 
property insurance industry's investment, to fund building safety 
research that leads to real-world solutions for home and business 
owners, helping to create more resilient communities.
    Severe weather disrupts lives, displaces families, and drives 
financial loss. IBHS delivers top-tier science and translates it into 
action so we can prevent avoidable suffering, strengthen our homes and 
businesses, inform the insurance industry, and support thriving 
communities. The perils we study at IBHS are part of the natural world 
in which we live, but social and economic disasters occur when these 
perils meet human populations that live or work in harm's way. In order 
to break the cycle of destruction, it is essential to address all 
aspects of the building performance chain: where you build, how you 
design and construct, and how well you maintain and repair. As a 
building science institute, IBHS focuses on the ways that weather 
behaves, what makes homes and businesses vulnerable, and how our 
buildings can be more resilient. We exist to help ensure that the 
places where people live, learn, work, worship, and gather are safe, 
stable, and as strong as the best science can equip them to be.
    Our research teaches that improving residential resilience can 
require an assortment of actions, incentives, and stakeholders. To make 
a home more resilient to wildfire, for example, takes individual, 
collective, and governmental action. The homeowner must take care of 
basic yard maintenance, create a zone of defensible space around the 
house, use non-combustible building materials, and take steps to 
prevent embers from entering the home. Even those property-specific 
actions may not be sufficient, as the other houses, structures, and 
vegetation in the surrounding area must also be maintained 
appropriately. Community and government action, like creating fuel 
breaks, maintaining common spaces, and managing wildland fuel sources 
are also important. To protect a single home, an ``all of the above'' 
approach is necessary.
    The same is true at the national level. Resilience to the natural 
perils we face, particularly when one considers the effects climate 
change has on these perils, requires an assortment of initiatives 
designed to strengthen American homes. These programs should seek to 
leverage public and private financing, data, and analytics to maximize 
our national competencies in the resilience space, regardless of where 
those competencies sit. Today, I will make the case for investments in 
residential resilience; provide a set of pathways that Congress can 
take to help make resilience more available for all Americans, 
regardless of their financial means; and propose several ways that 
resilience can be incorporated into upcoming infrastructure bills. 
Strengthening our resilience to natural perils and climate change is 
among the most pressing challenges we face as a nation, but solutions 
are within our reach.
                  The Case for Residential Resilience
1. A Changing Climate Increases Natural Perils
    If 2020 taught us anything, it is that the home is of paramount 
importance--and for too many, vulnerable to the forces of Mother 
Nature. The dangers of COVID-19 led Americans from all fifty states to 
seek refuge in their homes, juggling remote work, child-rearing, and 
all the other necessities of life under a single roof. And yet, 2020 
should also be remembered as a year of natural fury--the year that 
climate change affected families across the country. Last year 
delivered the most active Atlantic hurricane season on record, with the 
most named storms in history, the worst wildfire season ever, with a 
record-shattering 18 infernos of 100,000 acres or more across the West, 
and a Midwest derecho that was the most costly thunder storm in 
national history. According to reporting from the NOAA's National 
Centers for Environmental Information, 2020 set a record of 22 billion-
dollar weather and climate disasters in the United States. However, we 
must look at 2020 in the broader context: while natural perils last 
year were particularly bad, they were not anomalous. 2020 was the sixth 
consecutive year in which ten or more billion-dollar weather and 
climate disaster events have occurred in the United States. Considering 
this trend, we must adapt by making our families, businesses, and 
communities more resilient to a changing climate and associated severe 
weather.
    The Reinsurance Association of America (RAA) has developed a tool 
that leverages publicly available data to visualize the interplay 
between natural hazards, housing stock, and socio-economic 
vulnerabilities. Using the data pulled from, among other sources, the 
Federal Emergency Management Agency's National Risk Index and the U.S. 
Census Bureau, the RAA tool provides us with the ability to pinpoint--
at the census tract, county, or Congressional district level--where 
natural perils, older housing stock, and disadvantaged populations 
converge to create zones of heightened vulnerability and risk. Exhibit 
A to this testimony demonstrates how this tool can be used by analyzing 
data for two Congressional Districts: Nevada-01 and Florida-11.
    In the Chairwoman's district, Nevada's 1st District, the tool 
demonstrates that the most significant natural peril is earthquake, 
with the earthquake-related Expected Annual Loss scores ranging from 
relatively moderate to very high. Clark County has a low community 
resilience score assigned by FEMA, meaning that the county has minimal 
ability to prepare for anticipated natural hazards, adapt to changing 
conditions, and withstand and recover rapidly from disruptions. At a 
census tract level, FEMA's social vulnerability scores for the 
Chairwoman's district range considerably, but many are in the top two 
quartiles as compared to the rest of the nation. This means that many 
of the people in Nevada-01 are, using FEMA's definition in its National 
Risk Index Primer (December 2020), susceptible ``to the adverse impacts 
of natural hazards, including disproportionate death, injury, loss, or 
disruption of livelihood'' when considering ``the social, economic, 
demographic, and housing characteristics of a community that influence 
its ability to prepare for, respond to, cope with, recover from, and 
adapt to environmental hazards.'' Moreover, many of the housing units 
in the district were built prior to 2000 and over half were built prior 
to 1990, demonstrating an aging housing stock that was not built to 
modern building codes. Put together, Nevada's 1st District is a good 
candidate for expanded federal mitigation aid, as it has unmet needs, a 
vulnerable population, an aging housing stock, and areas of heightened 
risk of earthquake loss.
    In the Ranking Member's district--Florida's 11th District--the tool 
demonstrates that hurricane, high wind, and wildfire are the natural 
perils most contributing to Expected Annual Loss. Hurricane, the most 
significant peril in the district, could cause the most damage to 
people and property in the eastern part of the district--particularly 
in Lake County. In addition, the FEMA scores for community resilience 
are in or near the bottom quartile of the nation in each of the 
counties in the district, meaning that the counties lack the resources 
to respond and recover from a natural disaster. Further, the FEMA 
social vulnerability data suggests that much of the population in this 
district has relatively high vulnerability as compared to the rest of 
the country. The age of the housing stock in Florida-11 is mixed, with 
more than fifty percent of housing units in the district built before 
2000. This district, too, would benefit from increased investments in 
residential and community resilience.
    These areas highlight where resilience investments are most needed. 
The work that RAA has done demonstrates the analytic role that the 
private sector--and particularly the insurance industry--can play to 
help policymakers at all levels of government develop resilience-
strengthening policies that will respond to the deepest needs.
2. Solve with Research
    The core perils studied at the IBHS Research Center are wind, wind-
driven rain, hail, and wildfire, all relevant to today's hearing 
because they could become more frequent and destructive with a changing 
climate. The design of our Research Center--with 105 fans capable of 
generating wind speeds approximating the gusts of a Category 3 
Hurricane--provides unique capabilities to replicate real world weather 
conditions that arise during high wind and convective storms. We have 
developed a unique capability to replicate the density, hardness, and 
kinetic energy of natural hailstones to assess the durability and 
damageability of asphalt shingles and other products. We also have made 
significant, long-term investments wildfire research. Wildfire is one 
of the most important perils we study at the IBHS Research Center. This 
is the only place beside real-world wildfire events that can expose 
full-size buildings and building components to realistic thermal 
exposure of flames and embers. Creating a realistic scenario to study 
building vulnerabilities to wildfire has made IBHS the epicenter of 
wildfire research over the past decade and has attracted other research 
organizations to collaborate with IBHS. In addition to work at our 
facility, our scientists and partners have conducted post-disaster 
investigations to examine the factors that contributed to the losses 
from these destructive fires. IBHS' best-in-class science fills 
knowledge gaps to achieve significant social and economic benefits 
across all regions and demographics of America.
    In choosing specific research projects, we are driven by our 
mission of translating our research into action. That means that we 
choose science that can shape building codes and standards, evolve our 
FORTIFIED program of beyond code resilience standards, influence 
building professionals and products, improve consumer choices, and 
advance sound public policy solutions. At a fundamental level, 
consumers deserve to have confidence that the time and financial 
investments they make in resilience will live up to their reasonable 
expectations. Our research demonstrates that home and business 
resilience is available at a range of price points, and that poor 
choices or inaction can result in damage or destruction when severe 
weather strikes.
3. Build and Retrofit for a Resilient Today and Tomorrow
    Due to the research conducted at IBHS, actions to strengthen the 
resilience of residential structures are not just knowable but known. 
For instance, when we think about the perils of wind and wind-driven 
rain, we start with the roof. When roofs fail, they can kick-start a 
cascade of failures such as water infiltration, projectile damage, and 
destruction of rooftop equipment, resulting in as much as 70-90 percent 
of insured residential losses from some disasters and deeply disrupting 
those who relied on their roofs for protection. It is critical to 
educate home and business owners to pay more attention to their roof 
and to understand how to extend its life and reduce the likelihood of 
storm-related damage. IBHS research shows one easy way to achieve this 
is by applying tape over the roof deck's joints before the underlayment 
is applied (this is called a ``sealed roof deck''). The process costs 
only several hundred dollars for a typical roofing installation but can 
save tens of thousands of dollars in the event the roof cover is blown 
off during a high or prolonged wind event. Small investments today can 
prevent large losses in the future--but we must find ways to get people 
to pay attention and act.
    Strengthening resilience to wildfire poses a significant challenge. 
Our field observations following the worst 2017/2018 California fires 
indicate that understanding survivability is complex, with many 
different factors combining to determine whether a structure was 
destroyed, damaged, or relatively unscathed. Notwithstanding these 
complexities, research has shown there are steps that give a home a 
much better chance of surviving an encounter with wildfire. As with 
wind perils, homeowners should start with their roof, using only Class 
A roofing materials that provide the most fire resistance. Homeowners 
should also pay close attention to the five foot ``ignition zone'' 
around their home, maintaining a buffer zone free of vegetation, yard 
debris, structures like sheds, and other combustible materials. Similar 
maintenance should be maintained under existing decks, which should be 
constructed with non-combustible materials if possible. Additionally, 
using \1/8\ inch or finer metal screens in openings to attics, vents, 
gables, and crawlspaces can prevent flying embers from entering the 
home. Guidance on these actions can be found in IBHS's ``Suburban 
Wildfire Adaptation Roadmap,'' which fills a critical gap in wildfire 
science by identifying effective and actionable ways to drive down the 
growing losses that occur when wildfire spreads beyond the wildland-
urban interface (WUI) into dense suburban communities, as well as our 
WILDFIRE READY guide, both of which were released last year.
    While some of the actions that can mitigate the risk of wildfire 
are low-cost or are based primarily on sweat equity, other retrofit 
options--such as replacing siding and windows with non-combustible 
alternatives--can be costly and, for some, unaffordable. Addressing the 
cost barrier for resilience is one place where government programs can 
help make resilience to natural perils a reality for more families and 
communities.
  Congressional Pathways for Strengthening the Resilience of American 
                                 Homes
    Federal legislation is an essential part of the ``all of the 
above'' approach needed to strengthen residential resilience. Through 
targeted policies, programs, and funding, Congress can encourage 
responsible decision-making at the state, local, Tribal and territorial 
(SLTT) level, incentivize resilience investments by homeowners, 
financially support resilience for disadvantaged populations, and 
improve existing federal pipelines for resilience funding. 
Collectively, these actions can help narrow the resilience gap in the 
United States and better prepare families and communities for severe 
weather and a changing climate.
1. Encourage Strong, Statewide Building Codes
    Strong, and strong enforced, building codes are an important tool 
to improve resilience. Building codes are sets of regulations, 
standards, and guidelines adopted by states and local communities to 
promote the construction of safe and durable structures. Historically, 
codes focus on life safety, but through proper application, they also 
can reduce the disruption natural hazards have on our lives. FEMA's 
2020 ``Building Codes Save'' study found that existing codes will 
result in $132 billion in losses avoided between 2000 and 2040. If all 
new buildings in the United States were built to modern editions of 
model building codes, the losses avoided would be more than $600 
billion. However, adoption and enforcement of building codes are not 
uniform across the country, or even within some of our most hazard-
prone states. In fact, the FEMA study reported that 30 percent of new 
construction occurs in communities with either no codes at all or codes 
that are more than twenty years outdated. This must change, and federal 
action can encourage the adoption and enforcement of strong, state-wide 
building codes based on the most current model codes.
    <bullet>  A mitigation provision in the Bipartisan Budget Act of 
2018 included new Public Assistance cost-share incentives for states to 
invest in resilience, including an increased federal share (up to 10 
percent more) for Stafford Act funding to states and territories that 
undertake eligible mitigation actions like adopting current building 
codes. Congress can amend the Stafford Act to give FEMA the flexibility 
to use a portion of the cost-share for all disaster relief and 
mitigation programs as a tool to encourage strong building codes and 
other pro-resilience actions by SLTTs.
    <bullet>  Congress can amend the Stafford Act to direct FEMA's 
Building Resilient Infrastructures and Communities (BRIC) program and 
Hazard Mitigation Grant Program (HMGP) to create set-asides to 
incentivize new state-level building code enactment, modernization, and 
enforcement. These funds should target the creation and expansion of 
building code activities, not simply fund what is ongoing in given 
jurisdiction.
2. Promote Resilient Retrofits with Financial Incentivizes
    While building codes are a fundamental tool for shaping the 
resilience of tomorrow's homes, they do not strengthen resilience where 
Americans live today. Only retrofits can improve the resilience of 
existing houses.
    Social science suggests that effectively evaluating risk--
particularly high impact, low likelihood risk like natural disasters--
is challenging. When it comes to natural perils, people usually feel 
more protected than they are. For those with the financial means to 
invest in resilient retrofits, government incentives can provide the 
additional nudge they need to act. The tax code is a place where 
Congress can create financial incentives that encourage homeowners to 
invest in their own resilience.
    <bullet>  Congress can revisit resilient tax credit bills from the 
last Congress such as H.R. 3462 (the ``SHELTER Act'') or H.R. 7979 (the 
``Disaster Savings and Resilient Construction Act of 2020''), which 
would have provided tax credits for eligible expenses paid by 
individuals and businesses for purchases that help reduce potential 
damage from hurricanes, flooding, and other forms of natural disaster. 
Tax credits for resilience investments are most effective when they are 
available for sunny day resilience actions as well as those taken in 
the post-disaster context.
    <bullet>  Congress can end the federal taxation of the benefits 
individuals and businesses receive from state-based catastrophe-loss 
mitigation programs, such as the California Bolt + Brace program for 
strengthening buildings located in earthquake prone areas, and the 
Strengthen Alabama Homes program, which provides grants funds to 
upgrade to a FORTIFIED Roof. In the 116th Congress, H.R. 5494--the 
``Catastrophe-Loss-Mitigation Incentive and Tax Parity Act of 2019''--
would have eliminated tax lability for amounts received as part of 
certain state-funded grant programs. Passage of such legislation would 
allow homeowners to take maximum advantage of state resilience grants.
3. Make Resilience Available for All
    Residential resilience should not be a luxury only available for 
those with financial means. According to sociological research, 
disabled, elderly, low income, and other disadvantaged people are less 
likely to prepare for disasters, evacuate safely, avoid physical or 
psychological trauma, or recover quickly and fully. Low-income 
residents account for a meaningful percentage of the population in many 
coastal communities and other areas that face climate risk, often in 
the most vulnerable housing. This reality places an even higher 
priority on resilience programs that prevent avoidable damage to the 
places these populations live.
    Providing a higher degree of financial support for the residential 
resilience of disadvantaged populations is not just a matter of equity 
and public health--although it is both--it is a responsible investment 
of tax dollars. Improving resilience reduces the costs of future 
natural disasters and the economic disruption associated with related 
dislocations. In addition, providing federal funding for resilience 
projects spurs economic development in needy communities, as many 
residential resilience projects are dependent on skilled roofers, 
contractors, and other technicians. Congress can consider the following 
measures to improve the resilience of our most vulnerable populations.
    <bullet>  Housing for disadvantaged populations should be based on 
three-prong foundation of affordability, resilience, and energy-
efficiency. By doing so, it is possible to create sustainable and 
affordable homes that reduce costs in the short term through reduced 
water and energy bills and avoid future loss, disruption, and 
displacement through resilient construction or retrofits. The 
convergence of affordability, resilience and energy-efficiency is 
already occurring in Louisiana, where an affordable housing project 
from the New Orleans Redevelopment Authority mandated that affordable 
housing be built to IBHS's FORTIFIED standard and the Energy Star Homes 
Version 3.0 standard.
      <bullet>  Congress can support this type of sustainable housing 
by mandating resilience investment set-asides in all appropriations for 
affordable housing. In the last Congress, H.R. 5187--the ``Housing is 
Infrastructure Act of 2020'' would have provided additional funding for 
public housing, rural housing, Tribal housing, supportive housing for 
the elderly and differently abled, and affordable housing. In each 
instance the bill would have reserved 10 percent of funding for 
activities related to energy and water efficiency. This Congress can 
take up a revised version of this bill so that it includes a 20 percent 
set-aside for activities related to energy and water efficiency and 
resilience.
      <bullet>  In addition, Congress can reauthorize the 
Weatherization Assistance Program and expand it to provide technical 
support and financial assistance for resilience projects as well as 
energy efficiency.
    <bullet>  Although tax credits such as those contemplated by 
proposals like the SHELTER ACT can incentivize homeowners of financial 
means, they do not help low- and moderate-income populations who have 
neither adequate taxable income for the credits to be meaningful nor 
the resources to make resilience investments without more significant 
aid. Congress can explore making resilience tax credits transferable to 
expand their applicability for all Americans. Transferable tax credits 
for resilience investments could allow private and non-profit 
organizations to use the credits as a funding stream for residential 
resilience projects in the affordable housing space.
    <bullet>  Congress can create a Community Disaster Resilience Zones 
(CDRZ) and related bond program to direct public and private sector 
resources to address significant natural disaster risk of exposed 
communities with an emphasis on underserved socio-economic areas. By 
providing preferential treatment for investments in these zones, such a 
program would catalyze private sector investments in projects that 
strengthen residential and community resilience in at-need communities.
4. Optimize Existing Federal Pipelines for Resilience Funding
    Congress already devotes significant resources to resilience, in 
both the pre-disaster and post-disaster contexts. In 2018, Congress 
made significant strides towards supporting resilience to natural 
perils by passing the Disaster Recovery Reform Act of 2018, which led 
to the creation of the BRIC program. By authorizing the President to 
set aside six percent of the total amount of disaster recovery grants 
awarded from the Disaster Relief Fund for pre-disaster resilience 
investments, Congress steered a powerful shift in the way the federal 
government prepares communities for future natural disasters. Now that 
the BRIC program has been implemented, we have greater insight into how 
Congress could further optimize this important resilience tool.
    <bullet>  The 25% state cost-share for BRIC funding may create a 
significant barrier for underserved communities with small tax bases 
and fewer resources in taking advantage of the program. This inherently 
inequitable outcome runs contrary to the purpose of the program. 
Congress can address this issue by allowing greater flexibility for the 
state cost-share of BRIC funds (i) by allowing states to buy down their 
share through resilience-advancing actions like smart land use and 
modern building codes and (ii) by allowing SLTT entities to partner 
with private and philanthropic sources to pay for some of the cost 
share. While SLTTs should always have some skin in the game, greater 
flexibility in putting together the state cost-share will make BRIC 
more meaningful for underserved communities and, thus, more equitable.
    <bullet>  The BRIC program could be better calibrated to fund 
residential resilience projects in two ways. First, Congress can direct 
FEMA to create a pilot program to help establish residential resilience 
grant programs. Grants are more effective tools than reimbursements, 
especially for disadvantaged populations, because funding is provided 
up front. Second, the BRIC application process can be streamlined to 
make it easier for projects involving multiple structures to qualify 
for funding by instituting a benefit cost analysis (BCA) waiver for 
SLTT initiatives that fund certain kinds of residential resilience 
projects, such as grant programs supporting Fortified retrofits. FEMA 
has previously taken steps like this for other programs, such as in the 
Wind Retrofit Guide for Residential Buildings (P-804).
    <bullet>  Congress can amend the Stafford Act to make BRIC and HMGP 
funds interchangeable in two key respects. Successful BRIC applicants 
should be awarded applicable HMGP funds before BRIC funds--a change 
that will spend down unused HMGP funds and prevent BRIC 
oversubscription. Additionally, expired HMGP funds should be swept into 
the BRIC program to avoid wasting government funding earmarked for 
resilience projects. By making BRIC and HMGP funds more 
interchangeable, FEMA can maximize its ability to fund resilience 
projects.

    In addition to BRIC, Congress has an opportunity to strengthen 
other government programs intended to build residential and community 
resilience both before and after natural disasters. The following 
opportunities could strengthen, expand, or otherwise optimize existing 
programs in ways that will aid residential resilience.
    <bullet>  The time after a natural disaster, particularly one which 
displaces a family, is the worst time to contend with government 
bureaucracy. The process by which homeowners apply for post-disaster 
relief from FEMA, HUD, and SBA should be simplified and streamlined. 
Congress can direct these agencies and departments to develop a single 
application and tracking process to support Americans seeking 
government aid when they are most vulnerable.
    <bullet>  The Small Business Administration (SBA) provides post-
disaster low-interest loans to business owners and homeowners, one of 
the primary sources of financial assistance for long-term disaster 
recovery. These resilience-supporting loans are only available in the 
disaster recovery context. Congress can direct SBA to expand its 
physical damage loan and mitigation assistance programs to apply in the 
pre-disaster context as well, helping homeowners to finance sunny-day 
resilience projects.
    <bullet>  The Department of Housing and Urban Development's 
Community Development Block Grants-Disaster Recovery Program (CDBG-DR) 
is designed to provide funds to address needs not met by other federal 
disaster recovery programs. Consistent with the recommendation by the 
House Select Committee on the Climate Crisis, Congress should 
permanently authorize the HUD CDBG-DR program.
                 Prioritizing Resilient Infrastructure
    Last month, we witnessed the devastating, cascading impacts that 
vulnerable infrastructure can have on the resilience of homes. When a 
cold snap caused power outages throughout the state of Texas, unheated 
pipes froze and burst--resulting in the unfamiliar sight of residents 
boiling melted snow for drinking water and causing the dislocation of 
families and billions of dollars in losses.
    As this cascading chain of damage in Texas demonstrates, the 
resilience of homes is intrinsically connected to the resilience of 
community infrastructure, especially water and energy infrastructure. 
As Congress works with the Biden Administration to develop an ambitious 
infrastructure bill, we urge this Subcommittee to champion resilience 
and climate change adaptation as central objectives of that 
legislation. The failure to make resilience to severe weather and a 
changing climate a central component of new infrastructure is a missed 
opportunity that will result in higher disaster relief costs for 
generations to come.
    In this context, we suggest three additional policies and programs 
that Congress could consider that would advance the resilience of 
families, communities, and our Nation.
    <bullet>  On his first day in office, President Biden reinstated 
the Federal Flood Risk Management Standard (FFRMS), which requires that 
federally funded projects be resilient to flood hazard. The common-
sense purpose of the FFRMS is to provide reasonable assurance that the 
American taxpayer need not pay twice for the same project. Congress 
should enshrine the FFRMS in statute and expand it to require that 
federally funded projects be designed and built for resilience to other 
significant natural perils, including high winds and wildfire. Above 
all, ensure that this Flood Standard applies to all funds expended 
under any new infrastructure bill being considered by the full 
Committee.
    <bullet>  Public buildings and facilities that are built to 
withstand natural perils can provide a refuge during natural disasters, 
contribute to the continuity of government services following the 
disaster, and can be affordably insured. Too often, however, they are 
not built with resilience in mind and are not insured, instead 
contributing to both the resilience gap and the insurance coverage gap. 
Congress should encourage and help fund the resilience of public 
buildings and facilities. Additionally, and as proposed by the House 
Select Committee on the Climate Crisis, Congress can allow SLTTs to use 
Stafford Act funds for the payment of insurance premiums and 
deductibles. Together, this can result in public buildings and 
facilities that are physically and financially more resilient.
    <bullet>  Congress can also consider putting limits on Stafford Act 
funding for SLTTs without appropriate insurance coverage for public 
buildings, so that Public Assistance is not treated as a de facto 
public insurance program.

    In closing, I would like to thank you for the recognizing the 
importance of resilience and the critical role IBHS research plays to 
help strengthen the built environment. Americans are not powerless 
against severe weather--it is possible to reduce the damage inflicted 
today and in the future. Meeting this pressing need will take an ``all 
of the above'' approach for which Congress plays an essential role. I 
appreciate the opportunity to share some of our ideas with you today.
                               appendix a
Data provided by the Reinsurance Association of America (RAA)
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Titus. Thank you very much, Mr. Wright. I like your 
comment, ``Climate change barged through the front door of 
American families.''
    Mr. Wright. It did.
    Ms. Titus. I may have to use that, but I promise I will 
footnote you if I do.
    Mr. Wright. It is all yours.
    Ms. Titus. Thank you.
    We will go to Ms. Smith.
    Ms. Smith. Thank you, Chairwoman Titus, members of the 
subcommittee. Thank you on behalf of The Pew Charitable Trusts.
    This afternoon, I would like to just underscore a few of 
the points from my written testimony, and as others have noted, 
the bottom line is we are losing the battle with extreme 
weather.
    A couple of points to note: The Congressional Budget Office 
has warned of an estimated average cost to the Federal 
Government of at least $17 billion every year; that cost is 
only for losses associated with hurricane winds and storm-
related flooding.
    Presidential disaster declarations since 2000, we totaled 
up the obligated amounts for repairing or rebuilding utilities, 
public buildings, water and wastewater facilities, and other 
assets. Excluding emergency work, we are talking $67 billion. 
But as others have said, we can do better because pre-disaster 
mitigation pays.
    The National Institute of Building Sciences, as the chair 
and the ranking member have noted, give us the figures of how 
much we could be saving for every dollar spent. But even as we 
slowly work our way to correct the problems with buildings and 
infrastructure at risk today, we fear that we add to the 
problem with new investments that don't have ample protection. 
This sort of shortsighted spending should stop and it can.
    There are already important instances of resilience 
investment that show us what can be gained and what is 
possible. Take the case of the Texas Medical Center devastated 
by Hurricane Allison, but restored with resilient features to 
be strong enough to withstand the ravages of Harvey, or the 
Spaulding Rehab Hospital built to serve a waterfront community 
in Boston, but built to continue functioning as sea levels 
rise.
    Consider the innovation and the no-regrets adaptation 
solutions that architects, planners, and engineers are 
designing; restored rather than filled wetlands that keep homes 
from flooding and stop sewage overflows; oyster reefs 
protecting roadways; rail line piers that can be elevated as 
needed rising along with the sea; levees set back from rivers 
that redirect flood waters and restore habitat.
    Many resiliency solutions will bring multiple benefits, 
keep businesses open and supply lines functioning, offer 
employment, bring open space to harsh environments, and address 
those painful social inequities. Some use nature itself to 
bring down the cost.
    It is perplexing then that such approaches have not been 
deployed more widely, that more communities, more developers, 
and more public and private investors have not completed 
thorough, forward-looking vulnerability assessments, made 
sensible siting choices, and embraced modern building codes.
    That is why we believe that you must act swiftly in your 
infrastructure work to address this growing resilience gap. We 
are hopeful that you will require new investments in 
transportation to incorporate resilience, new investment 
authorizations for water infrastructure to require assessment 
of vulnerabilities and getting ready for weather extremes, and 
assuring that new Federal funding for housing projects with 
Federal funds choose not the low-lying risky land because it is 
cheap, but incorporate proven means of keeping people high and 
dry and safe.
    As Chairman DeFazio has noted, this has been done before in 
the NDAA, and you can do it again. We certainly call your 
attention to H.R. 481, the Flood Resiliency and Taxpayer 
Savings Act, introduced by Congressmen Price and Zeldin. We 
think that is worth your swift action.
    In closing, I thank the chair for taking up this important 
issue, and for inviting Pew to engage in this discussion. I 
look forward to your questions.
    [Ms. Smith's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Velma Smith, Senior Government Relations Officer, 
    Flood-Prepared Communities Initiative, The Pew Charitable Trusts
    Chairwoman Titus, members of the subcommittee, on behalf of The Pew 
Charitable Trusts (Pew), I thank you for the opportunity to testify 
today. My name is Velma Smith. I am a senior officer working with Pew's 
flood-prepared communities initiative.
    Pew's flood-prepared communities initiative has been focused on the 
increasingly costly and common problems of floods and flooding damage. 
Our aim is to reduce the impact of flood-related disasters on the U.S. 
economy, communities, and environment. Pew is working to prioritize 
investments in flood-ready infrastructure, mitigate against the impact 
of disasters, modernize flood insurance, and promote nature-based 
solutions to flooding. Given that work and the fact that flooding and 
coastal storms have accounted for roughly 70 percent of all 
Presidential Disaster Declarations over the past decade \1\, my 
comments this afternoon will focus largely on how flooding has and can 
impact communities and how Congress might address these problems in the 
context of infrastructure investment.
---------------------------------------------------------------------------
    \1\ Federal Emergency Management Agency, OpenFEMA Data Sets, 
Disaster Declaration Summaries, https://www.fema.gov/about/openfema/
data-sets
---------------------------------------------------------------------------
                    Costly Disasters are on the Rise
    First, the overall disaster numbers and the trendline. Flooding and 
other weather-related disasters are on the rise. The National Oceanic 
and Atmospheric Administration (NOAA) tells us that 2020 set numerous 
records \2\: 22 extreme weather and climate events caused $1 billion or 
more in losses, jumping from a previous high of 16 that occurred in 
both 2011 and 2017. Western wildfires reached historic proportions in 
2020, and the Atlantic hurricane season produced 30 named storms, 12 of 
those making landfall in the contiguous U.S. Last year's record events 
came on the heels of the third consecutive decade in which the mounting 
number and costs experienced by the country reached levels never before 
seen. Totals have now exceeded $1.8 trillion in aggregate since 
1980.\3\
---------------------------------------------------------------------------
    \2\ National Centers for Environmental Information, National 
Oceanic and Atmospheric Administration, ``Billion-Dollar Weather and 
Climate Disasters: Overview,'' https://www.ncdc.noaa.gov/billions/
overview
    \3\ National Centers for Environmental Information, National 
Oceanic and Atmospheric Administration, ``Billion-Dollar Weather and 
Climate Disasters: Summary Stats,'' https://www.ncdc.noaa.gov/billions/
summary-stats
---------------------------------------------------------------------------
        Costs are Felt by Communities and the American Taxpayer
    Those disasters and many others whose impacts did not hit the 
billion dollar mark have proven costly to U.S. families and businesses, 
localities and states, and to federal taxpayers who pay a significant 
portion toward disaster losses--over and above emergency assistance--
through programs such as the Federal Emergency Management Agency's 
(FEMA) Public Assistance and Individual Assistance programs, the U.S. 
Department of Transportation's (DOT) Federal Highway Administration 
(FHWA) Emergency Relief Program, the Small Business Administration's 
disaster loan programs, the Department of Housing and Urban 
Development's Community Development Block Grant-Disaster Recovery 
(CDBG-DR) and more.
    Without consistent accounting of costs across federal agencies and 
states \4\, it is hard to know precisely how much is being spent, but a 
snapshot of just one program suggests the scale of the threat. Pew 
looked specifically at the monies spent under FEMA's Public Assistance 
Program (PA) to help communities build back and repair damaged public 
buildings, utilities, water systems, roads, and other public assets.\5\ 
Overall, for disasters declared from 2000 to the present, the amount 
obligated for PA, excluding emergency protective management, debris 
removal, and state management assistance, tops $67 billion. 
Expenditures on public utilities and buildings account for the lion's 
share: more than $26 billion for utilities and more than $23 billion 
for buildings. In looking at this number, the Committee should keep in 
mind that obligations for the more recent disasters will grow. This 
data counts only the projects for which plans have been made and 
obligations approved.
---------------------------------------------------------------------------
    \4\ The Pew Charitable Trusts, ``How States Pay for Natural 
Disasters in an Era of Rising Costs: A nationwide assessment of 
budgeting strategies and practices,'' https://www.pewtrusts.org/-/
media/assets/2020/05/how-states-pay-for-natural-disasters-in-an-era-of-
rising-costs.pdf ; and Government Accountability Office, ``High-Risk 
Series: Dedicated Leadership Needed to Address Limited Progress in Most 
High-Risk Areas,'' GAO-21-119SP, March 2, 2021, https://files.gao.gov/
reports/GAO-21-119SP/index.html
    \5\ Federal Emergency Management Agency, OpenFEMA Dataset: Public 
Assistance Funded Projects Details, updated March 3, 2021, https://
www.fema.gov/openfema-data-page/public-assistance-funded-projects-
details-v1
---------------------------------------------------------------------------
    Another tally comes from a study released in 2017. That analysis by 
the Congressional Budget Office (CBO) \6\ looked at risk and loss 
associated specifically with hurricane winds and storm-related flooding 
across three sectors: residential, commercial, and public. It estimated 
expected average annual costs to the federal government--assuming the 
status quo in terms of public policy and excluding some federal costs 
as well as costs borne by state and local governments--an average cost 
of $17 billion per year. One of the options to alter this outlook, CBO 
noted, was to ``increase funding for mitigation.''
---------------------------------------------------------------------------
    \6\ Congressional Budget Office, ``Expected Costs of Damage From 
Hurricane Winds and Storm-Related Flooding,'' April 2019, https://
www.cbo.gov/system/files/2019-04/55019-ExpectedCostsFromWindStorm.pdf
---------------------------------------------------------------------------
    Earlier this month, the Government Accountability Office (GAO) 
repeated its own warnings about the risks of climate change.\7\ Since 
2019, GAO's High-Risk Report has called on the government to improve 
its preparation for future disaster, and its accounting of disaster 
spending. According to GAO, the federal government must address the 
long-term financial exposure of disaster assistance programs and 
``fully implement measures that promote resilience.''
---------------------------------------------------------------------------
    \7\ Government Accountability Office, ``High-Risk Series: Dedicated 
Leadership Needed to Address Limited Progress in Most High-Risk 
Areas,'' GAO-21-119SP, March 2, 2021, https://files.gao.gov/reports/
GAO-21-119SP/index.html
---------------------------------------------------------------------------
                           It Pays to Prepare
    On the mitigation side of the disaster balance sheet, there are 
compelling numbers as well, because--as others on this panel have 
underscored--mitigation pays. Many studies of mitigation efforts have 
shown what can be gained.
    The most widely quoted of these studies comes from the National 
Institute of Building Sciences (NIBS) Multi-Hazard Mitigation Council, 
a panel of experts in fields related to the building sciences. This 
group has taken a rigorous look at mitigation projects of multiple 
types, including adoption and enforcement of building codes and 
mitigation for different types of community infrastructure. In some 
categories, NIBS researchers have been able to revisit their own work 
and refine it over multiple years. Their conclusions, over and over 
again, tell us that mitigation saves and that the sooner the mitigation 
actions are taken, the more the associated benefits will multiply. The 
amount of savings varies by type and by project, but overall, the 
numbers run in ranges from $2 in savings per mitigation dollar invested 
to as high as $11 saved per dollar invested.\8\
---------------------------------------------------------------------------
    \8\ National Institute of Building Sciences Multihazard Mitigation 
Council, ``Natural Hazard Mitigation Saves: 2019 Report,'' December 
2019, https://www.nibs.org/page/mitigationsaves; and National Institute 
of Building Sciences Multihazard Mitigation Council, ``Natural Hazard 
Mitigation Saves: Utilities and Transportation Infrastructure,'' 
October 2018, https://www.nibs.org/resource/resmgr/docs/NHMS-
UtilitiesFactSheet.pdf
---------------------------------------------------------------------------
    Numerous studies echo those findings. For example, researchers 
found great value in homes built in compliance with strong, wind-
resistant codes; they reported damage reductions of greater than 70 
percent, compared with other structures.\9\
---------------------------------------------------------------------------
    \9\ Simmons, Kevin M., et al., ``Economic Effectiveness of 
Implementing a Statewide Building Code: The Case of Florida,'' Land 
Economics, May 2018, https://muse.jhu.edu/article/690441 ; and Kusisto, 
Laura and Arian Campo-Flores, ``Homes Built to Stricter Standards Fared 
Better in Storm,'' Wall Street Journal, September 16, 2017, https://
www.wsj.com/articles/one-early-lesson-from-irma-hurricane-building-
codes-work-1505559600
---------------------------------------------------------------------------
    Other work in Florida, where loss avoidance from past mitigation 
projects is analyzed by the State after major storm events,\10\ shows 
large benefits from activities such as buyouts of flood-prone 
structures, elevation of buildings, and improvements to storm drainage. 
The State of Florida studies conclude that ``mitigating the risk of 
natural hazards in Florida is a sound investment'' with a positive 
economic benefit in terms of employment and economic stabilization 
following a disaster.\11\
---------------------------------------------------------------------------
    \10\ Florida Division of Emergency Management, ``Loss Avoidance 
Assessment: Hurricane Matthew (DR-4283),'' April 2017, https://
www.floridadisaster.org/globalassets/importedpdfs/01_dr-4283-loss-
avoidance-report.pdf; and ``Loss Avoidance Assessment: Tropical Storm 
Debby: FEMA-4068-DR-FL, Flood Mitigation Projects, LA #2012-01,'' 
https://www.floridadisaster.org/globalassets/importedpdfs/report-
tsdebby-la.pdf
    \11\ Koon, Bryan W., et. al., ``Florida Division of Emergency 
Management's Bureau of Mitigation Economic Impact Analysis,'' August 
2011, https://www.floridadisaster.org/globalassets/importedpdfs/fdem-
economic-impact-analysis-final-3.14.12.pdf
---------------------------------------------------------------------------
    Following the devastating 2013 floods in Colorado, analysts also 
determined that stronger building requirements, setbacks and 
restrictions on the siting of critical facilities kept storm damages 
from running even higher than encountered, but they also found that 
earlier and more widespread adoption of mitigation requirements could 
have reduced the costs even further. This investigation concluded that 
if older critical facilities, including police stations, emergency 
operations centers, hospital emergency rooms, fire stations, and 
schools, had been removed from flood zones, damages might have been cut 
substantially. One of the recommendations in this FEMA report is for 
more widespread adoption of critical facility siting restrictions.\12\
---------------------------------------------------------------------------
    \12\ FEMA, ``Reducing Losses through Higher Regulatory Standards: 
2013 Colorado Floods Case Study, FEMA-DR-4145-CO,'' March 2015, 
prepared by Dewberry Consultants LLC for FEMA, https://www.fema.gov/
media-library-data/1429759760513-f96124536d2c3ccc07b3db4a4f8c35b5/
FEMA_CO_RegulatoryLAS.pdf ; and FEMA Region VIII, ``Loss Avoidance 
Study: The water didn't stop.'' http://www.casfm.org/wp-content/
uploads/2017/08/R8_Loss_Avoidance_Study.pdf
---------------------------------------------------------------------------
               Mitigation Lags as Costs and Threats Mount
    Despite the proven value of mitigation and disturbing predictions 
of more frequent severe storms and rising sea levels, we too often fail 
to act. Localities hesitate to restrict new building in risky areas or 
adopt and enforce the most recent building codes. On this point, FEMA's 
National Advisory Council in 2019 has warned that nearly 70 percent of 
the more than 23,000 cities and towns facing floods, high wind, 
hurricane, seismic, or tornado hazards had not adopted or enforced the 
latest protection codes.\13\ Without up-to-date codes and proper 
planning, low-lying, damaged structures are rebuilt with the same 
vulnerabilities; public buildings, including those that provide 
essential services or store important public records are too often 
repeatedly damaged and repaired without major improvements.
---------------------------------------------------------------------------
    \13\ Federal Emergency Management Agency, ``National Advisory 
Council Report to the FEMA Administrator, November 2019,'' https://
www.fema.gov/sites/default/files/2020-08/fema_nac-report_11-2019.pdf
---------------------------------------------------------------------------
    There is no publicly available database with information on those 
assets that have been damaged numerous times and repaired or replaced 
using federal funding, though a Department of Transportation rule now 
requires states to begin gathering and reporting this information to 
the Department.\14\ We do know, however that some assets that may be in 
harm's way, in fact, belong to the federal government. After reviewing 
just a portion of the federal property inventory, the Office of 
Management and Budget identified more than $80 billion in federal 
assets located in designated flood zones.\15\
---------------------------------------------------------------------------
    \14\ Federal Highway Administration, ``Asset Management Plans and 
Periodic Evaluations of Facilities Repeatedly Requiring Repair and 
Reconstruction Due to Emergency Events,'' Final Rule, 81 FR 73196, 
October 24, 2016, https://www.govinfo.gov/app/details/FR-2016-10-24/
2016-25117
    \15\ Office of Management and Budget, ``Climate Change: The Fiscal 
Risks Facing the Federal Government, Preliminary Assessment,'' November 
2016, https://obamawhitehouse.archives.gov/sites/default/files/omb/
reports/omb_climate_change_fiscal_risk_report.pdf.
---------------------------------------------------------------------------
    Some disaster experts, like the researchers at the Wharton School, 
place at least part of the blame for inaction on disaster or flood 
amnesia \16\--perhaps a very human and understandable tendency to put 
aside the traumas of the big events. They also point out the very real 
need for better public education and hazard risk disclosure.\17\ Pew 
agrees.
---------------------------------------------------------------------------
    \16\ Kunreuther, Howard, ``Improving the National Flood Insurance 
Program,'' Behavioural Public Policy, Cambridge University Press, 2018, 
https://marketing.wharton.upenn.edu/wp-content/uploads/2018/08/
improving_the_national_flood_insurance_program.-Behavioral-Public-
Policy-2018.pdf
    \17\ Kousky, Carolyn, ``How Americans Fail at Communicating Flood 
Risk,'' Bloomberg CityLab, October 11, 2018, https://www.bloomberg.com/
news/articles/2018-10-11/why-flood-risk-information-doesn-t-reach-the-
american-public
---------------------------------------------------------------------------
      Disasters Create Cascading Consequences and Long-Term Costs
    We might also suggest that, at some level, we may be allowing the 
large and growing numbers to deceive us. We total up the costs the best 
we can and as we should, but when we focus solely on the billions of 
dollars, perhaps we forget other important facets of disaster. The 
aggregate numbers can obscure the cascading impacts that follow a 
failure to invest in resiliency, the lasting consequences, the human-
scale tragedies, and the true fragility of critical lifelines.
    In looking only at the totals, we tend to forget what FEMA's 
Federal Advisory Council reminds us in their 2020 report \18\ to the 
Agency: ``[D]isasters disproportionately affect those who are already 
socio-economically marginalized in a community, subjecting them to even 
greater depths of poverty.'' We may not see the true gravity of a storm 
that damages a small hospital in a rural community where that hospital 
is not only a health care lifeline but also the major employer. We may 
put aside that image of wheel-chair-bound seniors sitting in waist-deep 
flood waters in Dickinson, Texas during Hurricane Harvey.\19\ We may 
not readily consider the dangers to first responders driving on flooded 
roadways, the disruptions to important supply chains when interstates 
are closed for days or weeks, the sewage spills that threaten public 
health and close recreational facilities, or the water or power 
disruptions and their secondary impacts. Or we may miss the report that 
tells of more than 5,000 children separated from their families after 
Hurricane Katrina, some for months.\20\
---------------------------------------------------------------------------
    \18\ Federal Emergency Management Agency, ``National Advisory 
Council Report to the FEMA Administrator, November 2019,'' https://
www.fema.gov/sites/default/files/documents/fema_nac-report_11-2020.pdf
    \19\ Villafranca, Omar, CBS News, ``Elderly are among the most 
vulnerable during Harvey,'' August 28, 2017, https://www.cbsnews.com/
news/hurricane-harvey-senior-citizens-nursing-home-dickinson-texas-
elderly-vulnerable/
    \20\ Broughton, D., et. al., ``Getting 5000 Families Back Together: 
Reuniting Fractured Families After a Disaster: The Role of the National 
Center for Missing & Exploited Children,'' Pediatrics, 117, Supplement, 
May 2006, http://pediatrics.aappublications.org/content/117/
Supplement_4/S442.short
---------------------------------------------------------------------------
    But perhaps we should give more weight to these stories and 
statistics that show us how disaster--and the failure to anticipate 
disaster--can exacerbate existing inequities and frailties in our 
communities and how the vulnerability of one asset can reverberate 
across a town or an entire region.
    Today, Pew is hopeful that the experiences of past disasters as 
well as the mounting costs will instill in the members of this 
Committee a sense of urgency to close the nation's resilience gap. We 
believe you can do so by making certain that new investments in 
infrastructure incorporate new requirements for resilience.
    Some might counter that requirements for new infrastructure 
projects to assess hazards and incorporate protections will be too 
costly; that unneeded delays will occur. Clearly, a balance must be 
struck, but we ask the Committee to consider the wasted costs that 
accrue when a vulnerable facility must be repaired or rebuilt 
repeatedly. And to keep in mind the delays and disruptions to family 
and civic life when a community loses water or power, shutters a 
school, or finds itself isolated by destroyed bridges and impassable 
roads.
            Resiliency Initiatives Point the Way to Progress
    As this Subcommittee considers how to support resilient 
infrastructure investment and what levels of assistance to offer, there 
is also good news. There are already successes: projects and programs 
that recognize risks and build in a capacity for durability and 
resilience. A few of these may be useful to your deliberations. They 
should give you assurance that resilience can grow, if you make it a 
priority for infrastructure spending.
Healthcare Facilities
    Take a look at the University of Texas Medical Center. In 2001, one 
storm dumped as much as 80 percent of the rainfall that Houston and 
Harris County, Texas would normally experience over a full year.\21\ 
Tropical Storm Allison was cited as a 1,000-year event and called by 
some the worst urban storm in the U.S. to that point.\22\ At the 
largest aggregated medical campus in the country, water rose 22 feet 
and the force of flow through the sprawling operation and its 
underground tunnels was enough to blow doors off their hinges and cause 
cinderblock walls to collapse.\23\
---------------------------------------------------------------------------
    \21\ Harris County Flood Control District, ``Tropical Storm 
Allison,'' undated, https://www.hcfcd.org/storm-center/tropical-storm-
allison-2001/
    \22\ U.S. Climate Resilience Toolkit, ``After Record-Breaking 
Rains, a Major Medical Center's Hazard Mitigation Plan Improves 
Resilience,'' https://toolkit.climate.gov/case-studies/after-record-
breaking-rains-major-medical-centers-hazard-mitigation-plan-improves
    \23\ Tucker, Edgar L. and Angela N. Smith, ``Planning for the Worst 
at the World's Largest Medical Complex,'' presented at the Texas 
Emergency Management Conference, March 26, 2013, https://
www.preparingtexas.org/Resources/documents/
2013%20Conference%20Presentations/Planning%20for%20the%20Worst.pdf
---------------------------------------------------------------------------
    The flood took out all essential services: electrical power, 
heating, ventilation, air conditioning, water, fire detection and 
suppression, and sewage. Medical personnel managed evacuation of 
patients, sometimes transferring equipment and staff with patients 
headed to facilities that would otherwise have been unable to care for 
them. Researchers at the Baylor College of Medicine lost one of the 
world's most extensive collections of breast cancer specimens--some 
60,000 specimens collected over a period of 25 years.\24\
---------------------------------------------------------------------------
    \24\ Bankhead, Charles, ``Tropical Storm Sets Back Research in 
Houston,'' Journal of the National Cancer Institute, Volume 93, Issue 
18, http://jnci.oxfordjournals.org/content/93/18/1366.long
---------------------------------------------------------------------------
    To avoid a repeat of the Allison disaster, the Center undertook an 
extensive review of vulnerabilities of the entire campus and developed 
a comprehensive plan to manage risks into the future. Improvements 
included a new, elevated combined heat and power utility plant, 
multiple flood doors and gates to close off areas susceptible to 
flooding, an elevated utility raceway that also serves as a pedestrian 
walkway, rooftop telecom cell towers, major improvements in drainage 
and stormwater management across the campus and in the larger 
watershed, a state-of-the-art flood warning system, various perimeter 
berms and barriers to protect facilities up to the 500-year flood 
level.\25\ In addition, because the Houston area has experienced ground 
subsidence of more than three feet since 1976 and that subsidence can 
alter the flood-readiness of buildings, a solar-powered system for 
monitoring ground subsidence was installed.\26\
---------------------------------------------------------------------------
    \25\ Fang, Zheng , et.al., ``Case Study of Flood Mitigation and 
Hazard Management at the Texas Medical Center in the Wake of Tropical 
Storm Allison in 2001,'' Natural Hazards Review, Vol 15, Issue 3, Aug 
2014, https://www.buildinggreen.com/sites/default/files/
Fang14TMC_Final.pdf
    \26\ U.S. Climate Resilience Toolkit, ``After Record-Breaking 
Rains, a Major Medical Center's Hazard Mitigation Plan Improves 
Resilience,'' https://toolkit.climate.gov/case-studies/after-record-
breaking-rains-major-medical-centers-hazard-mitigation-plan-improves
---------------------------------------------------------------------------
    These improvements allowed the Center to continue functioning 
throughout Hurricane Harvey.\27\ The storm presented challenges for 
receiving patients and rotating medical staff and security, and one 
hospital suffered a broken water pipe, but overall, the Center's 
preparation allowed it to function and to return to a normal schedule 
as the floodwaters cleared in the area. As former Congressman Ken 
Bentsen noted in an op-ed in the Houston Chronicle, ``With the region 
knocked to its knees, the Medical Center stood tall on dry land.'' \28\
---------------------------------------------------------------------------
    \27\ Galehouse, Maggie, ``Despite Hurricane Harvey, TMC 
Institutions Are Operational and Accessible,'' TMC News, Aug 28, 2017, 
http://www.tmc.edu/news/2017/08/despite-hurricane-harvey-tmc-
institutions-operational-accessible/
    \28\ Bentsen, Ken, ``Bentsen: The Texas Medical Center defeated 
Harvey,'' The Houston Chronicle, Sep 4, 2017, http://
www.houstonchronicle.com/opinion/outlook/article/Bentsen-The-Texas-
Medical-Center-defeated-Harvey-12172307.php
---------------------------------------------------------------------------
    As compelling as this story is, there are even more good examples 
in this arena. Many public health and medical professionals and in the 
engineering and architectural services that support them are taking the 
risks of climate change and future disasters to heart. Other 
facilities, like the LEED-gold-certified Spaulding Rehabilitation 
Hospital in Charlestown, Massachusetts, are being built with resiliency 
as a priority.\29\ Sited on the waterfront, the Spaulding facility was 
designed around sea level rise projections out to the year 2100. The 
facility's first floor was placed as high as possible; critical 
mechanical and electrical equipment are on the roof, and patient-
critical functions have been kept off the ground floor. Building 
designers included a combined heat and power plant for backup power; 
elevated all vents; incorporated operable windows; and designed the 
landscaping to offer reef-like barriers to mitigate against storm 
surge.
---------------------------------------------------------------------------
    \29\ Urban Land Institute, ``Developing Urban Resilience: Spaulding 
Rehabilitation Hospital,'' 2018, https://developingresilience.uli.org/
case/spaulding-rehabilitation-hospital/
---------------------------------------------------------------------------
    The Charlestown facility completed in 2013 is just one belonging to 
Massachusetts-based Partners HealthCare, which has since taken on the 
task of assessing the risks posed by climate change and weather 
disasters to all of its facilities and services.\30\ For this effort, 
the company is using its own expertise developed during the planning 
for Spaulding as well as guidance on best practices developed by the 
U.S. Department of Health and Human Services.\31\
---------------------------------------------------------------------------
    \30\ Morgan, Jamie, ``Partners HealthCare undergoes systemwide 
resiliency assessment,'' Health Facilities Managment, https://
www.hfmmagazine.com/articles/3475-partners-healthcare-undergoes-
systemwide-resiliency-assessment
    \31\ U.S. Department of Health and Human Services, ``Primary 
Protection: Enhancing Health Care Resilience for a Changing Climate,'' 
Fall 2014, https://toolkit.climate.gov/sites/default/files/
SCRHCFI%20Best%20Practices%20Report%20final2%202014%20Web.pdf
---------------------------------------------------------------------------
    Clearly, not every medical facility could accomplish the massive 
re-engineering that occurred in Houston, and not every feature of the 
Spaulding facility will transfer elsewhere, but to the extent that 
Congress funds the infrastructure aspects of our health care 
facilities, it should assure that any new resources help to make these 
critical facilities safer and more reliable in the face of disaster.
Transportation
    The transportation sector, as well, has positive news and 
developments and examples of innovation in preparedness. On that front, 
we again thank the Committee for the groundwork it laid last year for 
reauthorizing highway programs. We understand that resilience in 
surface transportation can be complex, perhaps the ultimate example of 
connectedness. That is why we wholeheartedly endorse the Committee's 
proposals to incorporate resiliency into the long-term planning and 
asset management programs that are the heart of the National Highway 
Performance Program (NHPP).\32\ We also support the creation of a new 
pre-disaster mitigation program, efforts to use natural infrastructure 
for flood resilience, and, where possible, the relocation or 
construction of alternatives to repeatedly damaged facilities. We 
recommend that we incentivize action on those repeatedly flooded 
transportation assets with changes to the Federal Highway 
Administration's (FHWA) Emergency Relief (ER) program: requiring 
resiliency improvements and protective features for the non-emergency 
and permanent work undertaken with ER allocations.
---------------------------------------------------------------------------
    \32\ Letter from Thomas Wathen, The Pew Charitable Trusts to The 
Honorable Nancy Pelosi, The Honorable Kevin McCarthy, The Honorable 
Peter DeFazio, The Honorable Sam Graves, June 29, 2020, https://
www.pewtrusts.org/-/media/assets/2020/06/pew-letter-on-transportation-
reauthorization-bill.pdf
---------------------------------------------------------------------------
    In the transportation sector, we see indication that resilience 
advancements are both needed and feasible today: in Delaware, where 
oyster reefs are part of the solution to protecting a coastal highway; 
\33\ in Arkansas, where the State Game and Fish Commission, the Nature 
Conservancy, the Arkansas Economic Development Commission, and other 
partners have set up a program to reduce flooding on rural roads and at 
the same time improve water quality and protect habitat; \34\ in 
California, where designers address the threat of rising seas to a 
coastal rail line with a structural solution that is, itself, 
adaptable: precast piers and caps that allow insertion of additional 
pier segments, if needed.\35\ In Virginia, the Hampton Roads 
Transportation Planning Organization (HRTPO) is working with military 
leadership in the region to address the impacts of sea level rise that 
threaten military readiness and the transportation needs of the region, 
collaborating to set priorities for protecting road segments, tunnels, 
and bridges vulnerable to future damage and destruction,\36\ and the 
Department of Transportation itself is advancing resilience with 
trainings and outreach for highway planners and engineers based on 
their implementation guide ``Nature-Based Solutions for Coastal Highway 
Resilience.'' \37\ In this sector as well, there is ample evidence that 
new infrastructure should and can incorporate resilience. Resiliency is 
what we should demand of new roads and bridges built today and going 
forward.
---------------------------------------------------------------------------
    \33\ Hodges, Tina, Federal Highway Administration, ``Nature-based 
Resilience for Coastal Highways,'' presentation to the International 
Conference on Coastal Engineering, July 29, 2018, https://
ewn.el.erdc.dren.mil/workshops/2018_07-29-NNBF-short-course/ppt/1145-
1205_Hodges-NNBFTransportationCaseStudy.pdf
    \34\ Federal Emergency Management Agency, ``Better Unpaved Roads 
for Nature and People in Arkansas,'' 2021, https://www.fema.gov/case-
study/better-unpaved-roads-nature-and-people-arkansas; Kloer, Phil, 
``The dirt road connection: Arkansas multi-partner project benefits 
residents, endangered and at-risk species,'' U.S. Fish & Wildlife 
Service, August 29, 2017, https://www.fws.gov/southeast/articles/the-
dirt-road-connection/
    \35\ Wright, Richard N., ``Adapting Infrastructure and Civil 
Engineering Practice to a Changing Climate,'' presentation to the 
National Academies' Roundtable on Science and Technology for 
Sustainability, June 5, 2015, https://sites.nationalacademies.org/cs/
groups/pgasite/documents/webpage/pga_165893.pdf
    \36\ Hampton Roads Transportation Planning Organization, ``Hampton 
Roads Military Transportation Needs Study: Roadways Serving the 
Military and Sea Level Rise/Storm Surge,'' July 2013, https://
www.hrtpo.org/uploads/docs/
Roadways%20Serving%20the%20Military%20&%20Sea
%20Level%20Rise-Storm%20Surge%20Report.pdf
    \37\ Federal Highway Administration, ``Implementation Guide: 
Nature-based Solutions for Coastal Highway Resilience,'' September 
2019, https://www.fhwa.dot.gov/environment/sustainability/resilience/
ongoing_and_current_research/green_infrastructure/implementation_guide/
fhwahep19042.pdf ; and FHWA, ``Peer Exchange Report: Nature-based 
Solutions for Coastal Highways,'' August 2018, https://
www.fhwa.dot.gov/environment/sustainability/resilience/
ongoing_and_current_research/green_infrastructure/coastal_highways/
fhwahep18070.pdf
---------------------------------------------------------------------------
Water and wastewater utilities
    Water and wastewater utilities, as well, have and will be impacted 
by erratic and wild weather that can bring both drought and flood, and 
some in this industry are leading efforts to adapt, seeking to avoid 
problems with service shutdowns and sewage overflows. Just over a 
decade ago, a report produced by the National Association of Clean 
Water Agencies conducted what they called an early analysis of 
adaptation costs through the year 2050.\38\ That assessment indicated 
that costs to utilities could range from just under $500 billion to 
more than $900 billion. Some of these utilities, have already 
undertaken some adaptations--including the Milwaukee Metropolitan 
Sewerage District which is solving flooding problems and greening the 
region with an ambitious nature-based stormwater management 
program.\39\
---------------------------------------------------------------------------
    \38\ National Association of Clean Water Agencies, ``Confronting 
Climate Change: An Early Analysis of Water and Wastewater Adaptation 
Costs,'' October 2009, https://www.amwa.net/publication/confronting-
climate-change-early-analysis-water-and-wastewater-adaptation-costs-
2009
    \39\ Milwaukee Metropolitan Sewerage District, Green 
Infrastructure, https://www.mmsd.com/what-we-do/green-infrastructure ; 
The Pew Charitable Trusts, ``Milwaukee's Sustainability Leader Advances 
a Back-to-Nature Strategy to Lower Risk,'' July 20, 2020, https://
www.pewtrusts.org/en/research-and-analysis/articles/2020/07/20/
milwaukees-sustainability-leader-advances-a-back-to-nature-strategy-to-
lower-flood-risk
---------------------------------------------------------------------------
Housing
    Others on this panel have provided ample information about the 
value of and the need for more resilience in the housing sector, but we 
would also mention a recent initiative there, one aimed at enhancing 
protections for multi-family housing and keeping those units 
affordable. The Keep Safe Miami initiative \40\ is a new outgrowth of 
work by Enterprise Community Partners, a non-profit with a strong 
record of assistance for communities recovering from disasters. The 
Miami work builds on previous manuals and trainings on resiliency,\41\ 
now offering owners and operators of affordable housing a set of tools 
that will help them assess the vulnerabilities of their properties, 
consider adaptation strategies for their specific portfolio of 
properties, set priorities, and guide them through the options for 
financing new resilience investments. At the same time, the program 
will train residents on disaster preparedness and steps they can take 
to save money with energy efficiency.
---------------------------------------------------------------------------
    \40\ Enterprise Community Partners, ``Keep Safe Miami,'' 2021, 
https://www.enterprisecommunity.org/solutions-and-innovation/emergency-
management/keep-safe-miami
    \41\ Shoeman, Laurie, Enterprise Community Partners, Inc., ``Ready 
to Respond: Stragegies for Multifamily Building Resilience,'' 2015, 
https://www.enterprisecommunity.org/resources/ready-respond-strategies-
multifamily-building-resilience-13356
---------------------------------------------------------------------------
                           Congress Must Act
    These few examples--across multiple sectors--are encouraging and 
worth celebrating. These and more show us that there are multiple 
resilience strategies that can protect people and property in a 
changing climate. Unfortunately, they have yet to become the norm. They 
must, however, for as the Department of Transportation reminds us, 
``many of the structures being built today will still be in use fifty 
or, in some cases, one hundred years in the future.'' \42\
---------------------------------------------------------------------------
    \42\ U.S. Department of Transportation, ``U.S. Department of 
Transportation Climate Adaptation Plan: Ensuring Transportation 
Infrastructure and System Resilience,'' undated, non-working link on 
dot.gov
---------------------------------------------------------------------------
    That is why Pew urges this Committee to be clear and specific as 
you work on a broad infrastructure package or other legislative 
vehicles that will use federal dollars for investment in 
infrastructure.
    If you stipulate that federal dollars may only be used on projects 
adopting appropriate safety approaches, then those investments will 
begin to fill the deep and growing resilience gap that researchers have 
identified. According to NIBS, the Nation's disaster losses are 
increasing by about 6 percent per year, 10 times faster than the 
population and costing America an average of $100 billion yearly, they 
conclude. The NIBS researchers tell us that the United States could 
cost-effectively spend $520 billion to reduce its disaster liability by 
$2.2 trillion.\43\
---------------------------------------------------------------------------
    \43\ National Institute of Building Sciences, MultiHazard 
Mitigation Council, ``A Roadmap to Resilience Incentivization,'' 2020, 
Porter, K.A. and Yuan, J.Q., eds., https://cdn.ymaws.com/www.nibs.org/
resource/resmgr/reports/mmc_nibs_resilience_incentiv.pdf
---------------------------------------------------------------------------
                  Require Consideration of Future Risk
    Pew urges the Committee to tie infrastructure funding to 
requirements to look forward and consider future risks. For too long 
and in too many places, we have built or repaired as if the last large 
disaster were an isolated aberration, never to be repeated. This is 
particularly true in the case of flooding and coastal storms, where we 
foolishly assume that risk is stationary rather than dynamic. Relying 
solely on the 100-year floodplain as the metric of flood risk, we would 
suggest, is akin to driving the freeway looking only in the rearview 
mirror. It doesn't work. We must plan for the harsher hazards on the 
horizon.
    In 2018, the National Defense Authorization Act for Fiscal Year 
2019 (NDAA) \44\ addressed this problem when it comes to the military. 
It expanded the military's authority to ensure readiness through energy 
and disaster resilience. On the flooding front, it called for looking 
at the design life of projects, assessing the risks that might be 
encountered over that time period, and then incorporating protections 
against those risks. It accepted the reality of uncertainty and the 
current lack of detailed, site-specific future risk data in some 
instances. That is why the statute allows for incorporation of a 
straight-forward margin of safety on flood volumes where detailed, as 
necessary. Other agencies can and should follow this path.
---------------------------------------------------------------------------
    \44\ P.L. 115-232
---------------------------------------------------------------------------
                    Leverage Nature-based Solutions
    In addition, Pew urges the Committee to direct those who design a 
new generation of infrastructure to consider the role that nature can 
play--not only in enhancing protections, but also in lowering costs and 
providing other important benefits, such as cleaner water, protected or 
restored wildlife habitat, tourism, and recreational opportunities. 
Nature-based approaches, used in place of or alongside of more 
traditional ``grey'' defenses, will frequently be more adaptable, 
easier to scale up, and can become stronger and offer more resilience 
over time. In many instances, the nature-based solutions are also those 
most readily embraced by local communities.
                        Allow Silos to be Broken
    Whether they serve in a large city or a rural village, community 
leaders must always look to solve multiple problems. They want to do 
more than guard against hazards and can with resilient infrastructure 
projects that provide multiple benefits. We are hopeful that 
infrastructure legislation will allow for many types of resilience 
projects that break down silos and deliver multiple benefits: projects 
such as the previously mentioned Arkansas roads program, Atlanta's 
green solution to storm sewer pollution in Historic Fourth Ward Park; 
\45\ the ouR-HOME project in North Richmond, California,\46\ and a 
major river corridor project in Iowa.\47\
---------------------------------------------------------------------------
    \45\ The Trust for Public Land, ``City parks, clean water: Making 
great places using green infrastructure,'' 2016, https://www.tpl.org/
city-parks-clean-water
    \46\ Bay Area Resilient by Design, ouR-HOME, undated, http://
www.resilientbayarea.org/our-home
    \47\ U.S. Fish & Wildlife Service, ``Iowa River Corridor Project: 
Port Louisa National Wildlife Refuge,'' 2013, https://www.fws.gov/
midwest/planning/PlansByState/IRCP_CMP_final-July10-2013.pdf
---------------------------------------------------------------------------
    We urge you to allow for and encourage such multi-benefit projects 
and to consider targeting funds to communities that have high risks and 
high poverty and social vulnerabilities. Many communities need the 
types of projects highlighted in this testimony, but not all have the 
resources to achieve them. Infrastructure legislation could follow the 
model of the new FEMA Building Resilient Infrastructure and Communities 
(BRIC) program that offers technical assistance and additional help to 
localities with significant resource constraints. Another approach that 
the subcommittee may wish to consider is one being explored by disaster 
experts at the Reinsurance Association of America (RAA).\48\ With data-
driven analysis of socio-economic as well as physical vulnerabilities, 
RAA believes those communities most in need of adaptation assistance 
can be identified. Their proposal is for a new program using Community 
Disaster Resilience Zones bonds, which could leverage private sector 
funds for investments in resilience, adding to the commitments made by 
state and federal agencies.
---------------------------------------------------------------------------
    \48\ Conversation with Frank Nutter, President, Reinsurance 
Association of America, March 2021.
---------------------------------------------------------------------------
                                Act Now
    We also urge this Subcommittee and the full committee to act 
swiftly on bipartisan legislation that has been introduced to 
specifically address future flood hazards. The Flood Resiliency and 
Taxpayer Savings Act, H.R. 481, would make these sorts of important 
protections permanent for all federal spending going forward. It is 
supported by a wide range of taxpayer and environmental organizations, 
housing advocacy groups, insurers, and engineers. We look forward to 
timely action on that important proposal as well.
    In closing, I'd like to draw your attention to two commission 
reports written a decade apart. Mississippi Governor Haley Barbour, who 
saw his state suffer enormously from Hurricane Katrina, commissioned a 
post-disaster report \49\ that was blunt in its assessment of what had 
gone on prior to the storm: ``[W]e're facing some of the same 
challenges of recovery, rebuilding, and renewal in 2006 because we 
failed to engage them fully after 1969.'' Katrina drove Mississippi to 
try to do better, to build back better than they had in recovering from 
Hurricane Camille. And after Harvey hit Texas, a state that we all know 
has faced a long line of hurricanes, tropical storms, and floods, 
Governor Greg Abbott's Commission report,\50\ ``Eye of the Storm'' was 
also clear in its urgent call to ``future proof'' Texas and frank about 
shortcomings in the State's flood preparedness. Harvey's lessons have 
prompted a serious and ambitious effort to bring enhanced flood 
resiliency to the Lone Star state as well.
---------------------------------------------------------------------------
    \49\ Governor's Commission on Recovery, Rebuilding, and Renewal, 
``After Katrina: Building Back Better than Ever,'' December 31, 2005
    \50\ ``Eye of the Storm: Report of the Governor's Commission to 
Rebuild Texas,'' November 2018, https://www.rebuildtexas.today/wp-
content/uploads/sites/52/2018/12/12-11-18-EYE-OF-THE-STORM-digital.pdf
---------------------------------------------------------------------------
    Congress is now poised to address the pressing infrastructure needs 
described in the most recent report card issued by the American Society 
of Civil Engineers.\51\ As you take on this challenge, we urge you to 
seize the opportunity. The time for hesitation has passed. Congress 
must require better building practices and more durable infrastructure 
protected against future flooding, fire, tornados, and other hazards. 
Accelerate the ``future-proofing'' our nation so sorely needs.
---------------------------------------------------------------------------
    \51\ American Society of Civil Engineers, ``2021 Report Card for 
America's Infrastructure,'' https://infrastructurereportcard.org/
---------------------------------------------------------------------------
    Again, we appreciate the Subcommittee's interest in this important 
topic and the opportunity to participate today. I look forward to your 
questions and working together.

    Ms. Titus. Thank you very much, Ms. Smith.
    Mr. Harper.
    Mr. Harper. Yes, good afternoon. I would like to thank 
Chairwoman Titus, Ranking Member Webster, and other members of 
the committee for the opportunity to testify today.
    My name is Ben Harper, and I am the head of corporate 
sustainability at Zurich North America. I am a civil engineer 
by training and sit on the sustainability advisory committees 
for the American Society of Civil Engineers, the National 
Academy of Sciences Transportation Research Board, the 
Insurance Institute for Business and Home Safety, and others.
    I appreciate the opportunity to discuss the critical 
importance of investing in resiliency and mitigation as we seek 
to reduce loss from disasters and speed individual and 
community recovery.
    Zurich North America is part of Zurich Insurance Group, a 
leading multiline insurer that has been serving its customers 
in global and local markets for over 150 years. Our role as a 
global insurer provides for a unique perspective as to the 
required response and our urgency of the need to respond.
    My testimony is focused on the importance of physical 
resistance from natural hazards. But as risk managers, we fully 
recognize the interconnected nature of risk. Using our core 
risk assessment skills to respond to some of the most 
significant long-term societal and environmental trends, we 
have identified climate change as, perhaps, the most complex 
risk facing society today. It is intergenerational, it is 
international, and it is interdependent.
    Our aim at Zurich is to leverage our sector's role of 
primary risk signaler for society to help raise awareness of 
the increasing frequency and intensity of natural hazard events 
and, ultimately, to incentivize the behaviors and best 
practices that will be required to both mitigate the worst 
impacts, and adapt to changing weather patterns. We do this 
because Zurich's mission is to protect individuals, businesses, 
and communities, and simply because it is the right thing to 
do.
    Furthermore, from an industry perspective, we do this 
because the impact of extreme weather events is escalating, and 
without enhancing resiliency and mitigation measures, many 
assets may simply become uninsurable. The property casualty 
industry has a tradition of being at the forefront of disaster 
mitigation. For example, in the late 1800s, several historic 
fires consumed vast areas of our largest cities, including New 
York, Chicago, and San Francisco. Recognizing that the new 
normal of tightly packed, dense construction greatly elevated 
fire hazards, the insurance industry sounded the alarm for 
adding sprinklers, fire breaks in construction, and other 
mitigation techniques as a necessity to maintaining community 
continuity.
    The industry was forced to send risk-based price signals, 
which is a technical way of saying insurance will be 
prohibitively expensive, or certainly unavailable in some cases 
if you do not adapt to these practices.
    Given the trends that are occurring and the frequency and 
severity of weather events, we are, again, sounding this alarm. 
Investing in mitigation measures, including resilient 
infrastructure, nature-based solutions, and low-carbon 
technologies, is required if society is to continue to operate 
with the continuity and resiliency that is expected.
    It is encouraging, however, that these changes require 
minimal investment in comparison to the benefits received. The 
2019 analysis of the benefits of building resiliency into 
infrastructure systems in developing countries, suggests that 
the extra cost of building resilience into these systems is 
only 3 percent of overall investment needs.
    However, when taken into account with the capital cost and 
operating costs of the asset, in most cases, the total life-
cycle cost will be lower in a hardened, resilient structure.
    In our own post-event studies conducted after significant 
flood, drought, and wildfire events,our analysis shows that 
every $1 spent on resiliency upfront resulted in a $5 savings 
in post-disaster. Like the integration of fire safety in modern 
construction, the necessity of which is unquestioned today, so 
should the inclusion of resiliency in building and 
infrastructure.
    Earlier in this testimony, I noted the concept of 
interconnected risk. This is a fundamental concept in risk 
management, which is directly applicable when managing physical 
risk as we have been discussing. For example, if we provide 
business interruption insurance for a casino operating on the 
Mississippi coast, which is built with hardened, resilient 
components, we need to also consider the supporting 
infrastructure that can have a direct impact to that insured.
    In this example, the value of the resilient building is 
limited if the casino is fully capable of operating after a 
major weather impact, but the roadways leading to the facility 
are damaged and impassable. This is just one example of why it 
is fundamental to consider the supporting infrastructure when 
building a complete resilient environment.
    I also note the urgency in addressing these issues. Just 2 
weeks ago, the American Society of Civil Engineers published 
their 2021 America's Infrastructure Report Card, which gave the 
U.S. infrastructure an overall grade of C-minus, which, sadly, 
is an improvement from the previous score of a D-plus.
    Simply put, we are at a crossroads with regards to aging 
structures, and combined with the significant increase in 
severe weather events, we can no longer afford to deploy 
temporary Band-Aid fixes. And without proper resiliency 
standards as an integral part of all vertical and horizontal 
construction, we will simply be in the same situation we are 
facing today, with increased perils without proper preparedness 
and all at a significant cost.
    Thank you, and I look forward to some of the questions.
    [Mr. Harper's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Ben Harper, Head of Corporate Sustainability, 
                          Zurich North America
    Good afternoon. I would like to thank Chairwoman Titus, Ranking 
Member Webster and other members of the committee for the opportunity 
to testify today. My name is Ben Harper and I am the Head of Corporate 
Sustainability for Zurich North America.
    I am here today to provide testimony as to the critical importance 
of investing in resiliency and mitigation as we transition to a new, 
low-carbon society and seek to reduce losses from disasters. Our role 
as an insurer not only provides us with a unique perspective on the 
required response, but also on the urgency in which we need to respond.
    Before I start, though, let me introduce the company for which I 
work. Zurich North America is part of Zurich Insurance Group, a leading 
multi-line insurer that has been serving its customers in global and 
local market for 150 years. With approximately 55,000 employees, Zurich 
provides a wide range of property and casualty, and life insurance 
products and services in more than 215 countries and territories. 
Zurich's customers include individuals, small businesses, and mid-sized 
to large companies, as well as multinational corporations.
    For over a century, Zurich North America has called the greater 
Chicago area home. In 2016, Zurich moved its U.S. corporate campus a 
few blocks north from its previous location in suburban Schaumburg, 
Illinois to an award-winning headquarters that has earned LEED 
Platinum certification, the highest rating from the U.S. Green 
Building Council. The distinctive design underscores our commitment to 
resilience, collaboration and innovation. Our headquarters became the 
largest LEED Platinum-certified structure of its kind in the United 
States and the only one of its kind in Illinois. On the one-year 
anniversary of Zurich's headquarters, we reported a 30% reduction in 
water and electricity consumption compared with our previous location. 
We have since improved on these metrics, and in North America 
operationally have reduced paper consumption by 80% and have eliminated 
single-use plastics. Globally, Zurich became carbon neutral in 2014 and 
we are committed to using 100 percent renewable energy across our 
global operations by 2022. In addition, we recently signed on to the 
EV100 pledge, committing to switch our entire global automobile fleet 
to electric vehicles by 2030. These are a few examples of adhering to 
our commitment to a more sustainable world, which enhances our 
customers trust in us as we encourage them to pursue their own 
transitions to a more sustainable tomorrow.
    As has become particularly evident in the last 12 months, no person 
or place is immune from disasters or disaster-related losses. As an 
insurer tasked with helping communities, individuals, and businesses 
recover from a catastrophe we are at the forefront of realizing and 
quantifying the large-scale consequences for the nation and its 
communities. We have direct insight into the difficulties in quickly 
returning to ``normal'' and are continually looking for solutions to 
reduce impacts and shorten recovery times. Infectious disease 
outbreaks, terrorism, social unrest, or financial disasters in addition 
to natural hazards can all create difficult fiscal, social, cultural, 
and environmental choices to ensure basic security and protection 
against hazards and disasters. My testimony today will be focused on 
the importance of physical resilience from natural hazards but, as risk 
managers, we fully recognize the interconnected nature of risk.
    Using our core risk assessment skills to respond to some of the 
most significant long-term societal and environmental trends, we have 
identified climate change as perhaps the most complex risk facing 
society today. It is intergenerational; it is international; and it is 
interdependent. Representing the consensus of the international 
scientific community, the Intergovernmental Panel on Climate Change 
(IPCC) finds strong evidence that climate change is occurring, that it 
is influenced by human action, and that it is leading to changes in 
extreme weather and climate events.
    For context, global losses from natural disasters in 2020 are 
estimated at $210 billion, of which some $82 billion was insured \1\. 
Both overall losses and insured losses were significantly higher than 
in the previous year (2019: $166bn and $57bn respectively) \2\. The US 
share of losses was exceptionally high: natural disasters in the US 
accounted for $95 billion (2019: $51bn) of overall losses and $67 
billion of insured losses (2019: $26bn) \3\. Globally, of the ten 
costliest natural disasters in 2020, six occurred within the United 
States \4\. However, the most disturbing statistic is that this year's 
natural disasters claimed an estimated 8,200 lives \5\.
---------------------------------------------------------------------------
    \1\ https://www.munichre.com/en/company/media-relations/media-
information-and-corporate-news/media-information/2021/2020-natural-
disasters-balance.html
    \2\ Ibid.
    \3\ Ibid.
    \4\ Ibid
    \5\ Ibid.
---------------------------------------------------------------------------
    It is Zurich's aim to leverage our sector's role as a primary risk 
signaler for society to help raise awareness of the increasing 
frequency and intensity of natural hazard events, and ultimately to 
incentivize the behaviors and best practices that will be required to 
both mitigate the worst impacts and adapt to changing weather patterns. 
We do this because Zurich's mission is to protect individuals, 
businesses and communities, and because we believe it's the right thing 
to do. Furthermore, from an industry perspective, we do this because 
the impact of extreme weather events is escalating, and without 
enhancing resiliency and mitigation measures many assets will simply 
become uninsurable.
    As an insurer of physical property and business continuity, we are 
tasked with providing economic resilience in the form of an insurance 
policy. Economic resilience is inclusive of three primary attributes: 
the ability to recover quickly from a shock, the ability to withstand a 
shock, and the ability to avoid the shock altogether. When an event 
does occur--such as a flood, fire or wind damage--it is best for both 
the owner and the insurer to minimize the time it takes to recover. And 
we know the recovery time will be less if the insured asset is able to 
better withstand the detrimental effects of the event or, simply put, 
is more resilient. This scenario is easier shown in the graph to the 
right:
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    As indicated in the graph, the value of a physical asset--perhaps a 
home, factory or office building--loses some value as an impact of the 
event. Bringing the value of that asset back to its base worth is the 
role of insurance. While the loss of the physical asset is clearly a 
significant cost, the time it takes for recovery can be just as costly, 
especially to the asset owner. Where we aim to be as an industry is in 
the smallest triangle above and bounded by the red lines, which means 
an insured can get back to their normal operations as quickly and 
efficiently as possible. This means the impact was minimalized and the 
speed to recovery maximized. And this will only occur when a structure 
or asset is built to a correct and current resiliency standard.
    The property & casualty industry has a tradition of being at the 
forefront of disaster mitigation, which is why we are in a unique 
position to provide comment on resiliency and mitigation. A useful 
analogy is the development of fire codes in the late 1800's. During 
this period, several historic fires consumed vast areas of our largest 
cities, including New York, Chicago, and San Francisco. Recognizing 
that the ``new normal'' of tightly packed, dense construction greatly 
elevated fire hazard, the insurance industry sounded the alarm for 
adding sprinklers, fire breaks in construction, and other mitigation 
techniques as a necessity to maintaining community continuity. Further, 
the industry was forced to send risk-based price signals, which is a 
technical way of saying insurance will be prohibitively expensive or 
simply unavailable in some cases if you do not adapt to these 
practices. Given the trends that are occurring in the frequency and 
severity of weather events, we are again sounding the alarm. Investing 
in mitigation measures, including resilient infrastructure, nature-
based solutions, and low-carbon technologies, is required if society is 
to continue to operate with the continuity and resiliency that is 
expected.
    What is encouraging is that these changes require minimal 
investment in comparison to the benefits received. Current data 
suggests that the extra cost of building resilience into infrastructure 
systems is only `` . . . 3 percent of overall investment needs.'' \6\ 
However, when taking into account both the capital costs and operating 
costs of the asset, in most cases the Total Lifecycle Cost will be 
lower in a hardened, resilient structure. And the savings are even more 
significant if the structure is impacted by weather. In our own post-
event studies conducted after significant flood, drought and wildfire 
events, our analysis shows that for every $1 spent on resiliency up 
front resulted in $5 savings post-disaster. Like the integration of 
fire safety in modern construction--the necessity of which is 
unquestioned today--so should be inclusion of resiliency in building 
and infrastructure.
---------------------------------------------------------------------------
    \6\ Hallegatte, Stephane, Jun Rentschler, and Julie Rozenberg. 
2019. Lifelines: The Resilient Infrastructure Opportunity. Sustainable 
Infrastructure Series. Washington, DC: World Bank pg.xiii.
---------------------------------------------------------------------------
    As I noted previously, insurers play a critical role in assisting 
communities, individuals, and businesses recover when catastrophe 
strikes. Importantly, the industry also plays a vital role in improving 
community preparedness and risk management before the disaster hits. In 
furtherance of this mission, Zurich has undertaken a series of 
initiatives to apply the analytics of insurance to a much broader set 
of stakeholders. Our goal with is to demonstrate the effectiveness of 
investing in pre-event resilience and shift funding from recovery to 
resilience.
    In 2013 Zurich launched its Global Flood Resilience Alliance, a 
multi-sector partnership focusing on finding practical ways to help 
communities strengthen their resilience to floods. In 2018, we extended 
and expanded the program with the goal to increase third-party 
investments dedicated to pre-event resilience by $1 billion. We seek to 
do this by rolling out best-practice community programs that 
demonstrate the value of resilience-building and advocating for more 
investment in resilience with authorities and public and private 
funders.
    Another approach we take is to share our knowledge about resilience 
through the publication of our Post-Event Review Capabilities, or 
PERCs. To date, we have completed 16 PERCS globally. In the United 
States, we have conducted four (4) such reports covering flooding 
events in North Carolina,\7\ South Carolina,\8\ and Houston,\9\ and 
wildfires in California \10\.
---------------------------------------------------------------------------
    \7\ hurricane-florence-building-resilience-for-the-new-normal.pdf 
(zurichna.com)
    \8\ https://www.zurichna.com/-/media/project/zwp/zna/docs/kh/
climate-resilience/perc-sc-
report.pdf?la=en&rev=08690b6e85b2401ea050ceddfc21c658
    \9\ https://www.zurichna.com/-/media/project/zwp/zna/docs/kh/
weather/perc_harvey_final.pdf
?la=en&rev=e653cf8b7970497eac14abb7b32633fa
    \10\ california-wildfire-report.pdf (zurichna.com)
---------------------------------------------------------------------------
    Zurich's PERC analyses of global disasters demonstrates that:
    <bullet>  Disaster risk management is playing catch-up to an 
increasingly larger exposure to natural hazards.
    <bullet>  Globally, spending on climate-related response is far 
greater than investment in pre-emptive risk reduction strategies.
    <bullet>  Where money is invested on weather-related prevention, it 
typically goes to protecting physical structures rather than more cost-
effective risk management such as environmental planning.
    <bullet>  Infrastructure protection already in place--levees, for 
example--can produce a false sense of security.
    <bullet>  Few incentives exist to encourage ``building back 
better'' and including resilience into the rebuilding process.
    <bullet>  The neediest in society are often neglected before and 
after disasters, and sometimes are still recovering from one event when 
the next one strikes.

    From our perspective, prevention and resilience-building are not 
just about humanitarianism, they are about more effective use of scarce 
funds. As noted previously, our research on the cost-benefit analysis 
from dozens of specific flood resilience programs shows that investing 
in resilience not only reduces suffering, it also is responsible 
budgeting.
    I would like to further explain the statement I made earlier in 
this testimony regarding interconnected risk. This is a fundamental 
concept in risk management, which is directly applicable when managing 
physical risks as we have been discussing. We know there are direct 
pathways that influence outcomes, so when considering resiliency, we 
need to consider the entire built environment. For example, if we 
provide business interruption insurance for a casino operating on the 
Mississippi coast built with hardened, resilient components, we need to 
also consider the supporting infrastructure that can have a direct 
impact to that insured. It does no good to have a resilient building 
that is fully capable of operating after a major weather impact, but 
the roadways leading to the facility are damaged and impassable. This 
is just one example of why it is fundamental to consider the supporting 
infrastructure when building a complete, resilient environment. Lastly, 
the urgency in addressing these issues should be considered immediate. 
Just two weeks ago, the American Society of Civil Engineers (ASCE) 
published their 2021 America's Infrastructure Scorecard that gave the 
U.S. infrastructure an overall grade of C-, which sadly is an 
improvement from the previous score of D+. Simply put, we are at a 
crossroads with regards to aging structures and, combined with the 
significant increase in severe weather events, we can no longer afford 
to deploy temporary or band-aid fixes. And without proper resiliency 
standards as an integral part of all vertical and horizontal 
construction, we will simply be in the same situation we are today: 
facing increased perils without proper preparedness--and all at a 
significant cost.
    In closing, let me reinforce that the insurance sector has a 
fundamental role to play in helping society prepare for and address the 
costs associated with severe weather events. We are proud of the 
leadership our sector is taking in driving awareness and action on this 
critical issue. Zurich is dedicated to continuing to play a leadership 
role in driving global sustainability, and we invite and encourage 
everyone to join us in this essential effort.
    Thank you.

    Ms. Titus. Thank you, Mr. Harper.
    Mr. Fowke.
    Mr. Fowke. Thank you.
    Chairwoman Titus, Ranking Member Webster, members of the 
committee, I am pleased to appear before you today on behalf of 
the National Association of Home Builders.
    I would like to discuss the importance of housing 
affordability, the role that modern building codes play in 
reducing damage from natural disasters, and the need for 
mitigation policies and programs to improve the resiliency of 
the existing housing stock. I also want to focus on suggested 
financing mechanisms and other incentives to spur investment of 
production of homes that are both resilient and affordable.
    My name is Chuck Fowke. I am the National Association of 
Home Builders chairman of the board, and I am a custom 
homebuilder in the Tampa Bay area. I have served on the city of 
Tampa and the State of Florida Hurricane Codes Committees, 
which gave me a firsthand look at what catastrophic disasters 
can do to communities.
    The unusual number of significant disasters over the past 
several years has been sobering, igniting a nationwide dialogue 
about risk, resiliency, and mitigation. NAHB has been actively 
engaged in these discussions, and we have been a long-time 
leader in the drive to make homes more resilient.
    To do so, we have repeatedly demonstrated commitment to 
sound Federal disaster and flood plain management policies and 
cost-effective, market-driven resiliency solutions that 
maintain housing affordability, while balancing the needs of 
growing communities.
    Housing affordability is a real concern for many consumers. 
It is at a 10-year low for single family market. Almost one-
third of the Nation's households pay more than 30 percent of 
their income for housing. NAHB estimates that if the median 
U.S. new home price goes up by $1,000, more than 150,000 
American households would be priced out, and no longer able to 
afford the American dream.
    Recognizing this crisis, Congress must factor in housing 
affordability when looking at solutions to build more resilient 
communities. Numerous proposals from legislators and 
stakeholders have suggested that mandates and more stringent 
building codes, such as the use of the latest published codes, 
are the answers to improving residential resiliency. We 
strongly disagree. Many of the code provisions are too 
prescriptive, too costly, and would do very little to improve 
resilience. That is because homes built to modern post-2000 
building codes are resilient and making significant updates are 
unnecessary.
    Evidence from FEMA and others support the fact and 
demonstrate that modern building codes have been very effective 
in preventing the destruction of homes due to various storms, 
fires, and earthquakes. For example, after the 2018 hurricane 
in Mexico Beach, Florida, studies showed that homes built post-
2000 remained standing while older homes did not.
    It is imperative that Congress recognize the importance of 
defining the latest published building code as one of the two 
most recently published editions of codes. This definition is 
essential, as it provides States with the flexibility they need 
to follow their own code adoption, implementation, and 
enforcement processes, while remaining eligible for Federal 
funds and other assistance.
    It is also important for State and local governments to be 
able to tailor building codes and amend them as necessary to 
fit the needs of their communities and protect their citizens. 
Modern codes are intended to be flexible. What is best for 
Nevada is not best for Florida.
    Another important factor in the resiliency discussion is 
the role of existing housing stock. Ninety-eight million homes 
out of the Nation's 124 million homes were built before 2000. 
This older housing stock was not subject to the modern building 
codes that are now in effect.
    It is imperative that Congress focus on improving the older 
homes, structures, and infrastructures that are less resilient 
to natural disasters. Federal incentives, tax credits, grants, 
and other assisted programs, would go a long way to facilitate 
and help fund the upgrades needed to ensure our homes and 
communities are ready for the future. These practical solutions 
will also ensure that working families have access to safe, 
decent, and affordable housing.
    In conclusion, we urge Congress to take a practical 
approach when seeking to mitigate the effects of future natural 
disasters. Relying on existing building codes, heeding the 
expertise of State and local governments, focusing on improving 
existing housing stock, and providing incentives is the best 
way to encourage greater resiliency in the Nation's housing 
stock. This will also preserve housing affordability for new 
and existing homes.
    Thank you for the opportunity today to testify before you.
    [Mr. Fowke's prepared statement follows:]

                                 <F-dash>
Prepared Statement of John C. Fowke, Chairman, National Association of 
                             Home Builders
    Chairwoman Titus and Ranking Member Webster, I am pleased to appear 
before you today on behalf of the National Association of Home Builders 
(NAHB) to share our experience and views regarding building resilience 
and mitigation. My name is Chuck Fowke, and I am NAHB's Chairman of the 
Board. I am also the founder and president of Homes by John C. Fowke 
Inc., and have built hundreds of homes throughout the Tampa Bay area. 
In addition to being a custom home builder, I have served on the City 
of Tampa and State of Florida Hurricane Codes Committees. In my 
capacity on those committees, I have had a firsthand look at what 
catastrophic disasters can do to homes and communities and how 
investing in mitigation can alleviate some of the challenges.
    NAHB represents more than 140,000 members who are involved in land 
development and building single-family and multifamily housing, 
remodeling and other aspects of residential and light commercial 
construction. NAHB's members construct approximately 80 percent of all 
new housing built in the United States each year. NAHB's mission is to 
enhance the climate for housing and the building industry, including 
providing and expanding opportunities for all people to have access to 
safe, decent and affordable homes.
    This testimony will focus on the following key points:
    <bullet>  Maintaining housing affordability must be the cornerstone 
to any efforts to create cleaner and stronger homes.
    <bullet>  Modern building codes (e.g., post-2000) are resilient.
    <bullet>  State and local governments must retain authority over 
their land use and code adoption processes.
    <bullet>  Modernizing the existing housing stock is crucial.
    <bullet>  Incentive programs and other funding mechanisms must be 
provided to offset the increased costs for above-code and mitigation 
activities.

    The unusual number of significant natural disasters over the past 
several years has been sobering. At the same time, they have ignited a 
nationwide dialogue about risk, resiliency and mitigation. NAHB has 
been actively engaged in these discussions for many years and we have 
taken a leadership role in improving the resiliency and performance of 
new and existing homes. In fact, NAHB and its members have a long 
history of supporting, developing and participating in many state and 
local initiatives, as well as various federal activities aimed and 
reducing disaster losses and improving resiliency. We have repeatedly 
demonstrated our commitment to working with all levels of government to 
promote and implement sound disaster and floodplain management policies 
and improve the resiliency of the homes we build and the communities we 
serve. In doing so, we take pride in helping to develop cost-effective, 
market-driven solutions that maintain housing affordability while 
balancing the needs of growing communities with the need for reasonable 
protection of life and property.
    Today, I would like to discuss the importance of housing 
affordability, the role modern building codes play in reducing damage 
from natural disasters, the need for mitigation policies and programs 
to improve the resiliency of the existing housing stock, and suggested 
financing mechanisms and other initiatives to spur investment in the 
production of homes that are both resilient and affordable.
                         Housing Affordability
    Housing affordability continues to be a concern for households 
across the nation. Many people cannot afford to purchase a new home or 
install energy efficient or resilient features in an existing home--and 
that's before Congress considers any new policies aimed at tackling 
climate change. These challenges are real and we are hopeful that this 
Subcommittee will refrain from enacting any policies that will 
exacerbate these existing realities.
    According to NAHB research conducted earlier this year, housing 
affordability in the single-family market remains near a 10-year low. 
Only 58.3 percent of new and existing homes sold in the last quarter of 
2020 were affordable to families earning the U.S. median income of 
$72,900, while these same families could only afford about 40 percent 
of the new homes.\1\ \2\ At lower income levels, the reality is even 
starker. Based on conventional assumptions and underwriting standards, 
the minimum income required to purchase a $100,000 home is $22,505. In 
2021, about 21.1 million households in the U.S. are estimated to have 
incomes below that threshold and, therefore, cannot afford a $100,000 
home. To make matters worse, in many areas of the country, homes priced 
below $100,000 simply don't exist.
---------------------------------------------------------------------------
    \1\ Quint, Rose, Housing Affordability Holds Steady; Challenges 
Loom, National Association of Home Builders, February 8, 2021, accessed 
at https://eyeonhousing.org/2021/02/housing-affordability-holds-steady-
challenges-loom/ on March 15, 2021.
    \2\ Zhao, Na, Ph.D., NAHB Priced-Out Estimates for 2021, National 
Association of Home Builders, February 2021, accessed at https://
www.nahb.org/-/media/NAHB/news-and-economics/docs/housing-economics-
plus/special-studies/2021/special-study-nahb-priced-out-estimates-for-
2021-february-2021.pdf?_ga=2.166628414.1684294592.1615476404-
1214384301.1615476404 on March 15, 2021.
---------------------------------------------------------------------------
    Clearly, owning or renting a suitable home is increasingly out of 
financial reach for many households. In fact, almost a third of the 
nation's households are cost burdened and pay more than 30 percent of 
their income for housing. At the same time, net new households are 
being formed faster than new single-family and multifamily homes are 
coming online to accommodate them, so there is both a surge in need and 
not nearly enough supply.
    The nation continues to experience a housing shortage and an 
affordability crisis. Despite these real challenges, many continue to 
suggest that home builders should build structures that are more 
resilient and/or efficient in an effort to respond to and stem the 
impacts of climate change, meet carbon emissions limits or further 
environmental goals. Oftentimes, such additional requirements are 
unnecessary because many new homes outperform existing ones and these 
new mandates will only serve to exacerbate the current housing 
affordability crisis.
    For example, building costs are estimated to increase between 
$4,000 and $16,000 due to the changes from the 2009 to the 2015 
Residential Building Code \3\ and the additional cost of raising the 
height of the foundation for a new 2000-square-foot home was estimated 
in 2017 to range from $890-$4,470 per foot of elevation.\4\ Obviously, 
those costs are passed along to the consumer and can have a significant 
impact on the pool of eligible buyers. Indeed, NAHB estimates that in 
2021, a $1,000 increase in the median new home price would price 
153,967 U.S. households out of the market.\5\ But, as shown, complying 
with many code changes or undertaking building retrofit activities can 
be significantly more costly than $1,000.
---------------------------------------------------------------------------
    \3\ Home Innovation Research Labs. (2014, December). Estimated 
Costs of 2015 IRC Codes. NAHB. https://www.nahb.org/-/media/NAHB/
advocacy/docs/top-priorities/codes/code-adoption/irc-2015-cost-
study.pdf
    \4\ See Association of State Floodplain Managers, The Costs & 
Benefits of Building Higher, 2018, accessed at https://s3-us-west-
2.amazonaws.com/asfpm-library/General/
Benefits_Cost_Freeboard_ASFPM_2018.pdf on March 15, 2021. While it is 
not clear how these estimates were derived, many NAHB members have 
reported costs that are significantly greater than those indicated in 
this publication.
    \5\ Zhao, Na, Ph.D., NAHB Priced-Out Estimates for 2021, National 
Association of Home Builders, February 2021, accessed at (https://
www.nahb.org/-/media/NAHB/news-and-economics/docs/housing-economics-
plus/special-studies/2021/special-study-nahb-priced-out-estimates-for-
2021-february-2021.pdf?_ga=2.166628414.1684294592.1615476404-
1214384301.1615476404) on March 15, 2021.
---------------------------------------------------------------------------
    Stricter construction standards and mitigation come with a price 
tag. Regardless of the level of benefit, some entity has to provide the 
upfront funding required to conduct the construction or mitigation 
activities or they will not occur. This is where the challenge lies for 
most consumers and homeowners. Just because more stringent codes or 
pre-disaster mitigation may provide a benefit doesn't mean it can or 
will be implemented. While the federal government has historically made 
funding available for these types of activities, most of the programs 
have been consistently oversubscribed and target the highest risk 
structures or the lowest income properties, which make it unlikely that 
they will be able to fully serve the array of mitigation needs 
associated with existing housing. New sources, avenues, and incentives 
must be found if we are to make meaningful progress on resiliency while 
maintaining housing affordability.
                             Building Codes
    It is clear that the unusual number of significant natural 
disasters occurring over the past few years, coupled with ongoing 
concerns over the effects of climate change, have increased awareness 
of and raised concerns about the resilience of buildings. Although most 
states and localities are governed by building regulations that are 
designed to protect homes and their occupants from severe weather 
events and hazards, some argue that more should be done. NAHB 
disagrees. Modern codes have proven to be resilient. More stringent 
codes can come at costs that not only curtail homeownership and 
significantly hinder housing affordability, but can severely impact 
state and local economies because they greatly influence how or if 
existing structures and cities are reengineered, rebuilt and/or 
remodeled and impact how and where or if new homes and communities are 
built. Instead of ratcheting up their stringency, the nation needs to 
embrace modern building codes and the positive role they play and focus 
on ensuring they are sufficiently flexible to address regional risks 
and associated considerations.
Modern Codes are Resilient
    Building codes are designed to establish minimum requirements for 
public health and safety for commercial and residential structures. 
Although they have existed in various forms for decades, building codes 
in the United States achieved a milestone in 2000 when the three 
regional code organizations were consolidated into the International 
Code Council (ICC) and their codes were combined to create the first 
set of ``I-Codes'', which were published in 2000. Although there are 
other building codes available, the I-Codes are by far the most widely 
used model building codes, with some form of the International Building 
Code (IBC) adopted in all 50 states and versions of the International 
Residential Code (IRC) adopted in 49 states. Like most model building 
codes and referenced standards, the I-Codes are modified through a 
formal public consensus process every three years. This has resulted in 
the publication of a new edition in 2003, 2006, 2009, 2012, 2015, 2018 
and 2021.
    When the I-Codes were created, a number of major improvements were 
immediately made to the traditional building code requirements within 
the residential building code to address issues observed after 
Hurricane Andrew in 1992 and the California earthquakes of 1989 and 
1994. Although additional improvements have been made since the I-
Codes' debut in 2000, the number of changes incorporated into the newer 
editions of the IRC that dramatically impact structural reliability and 
occupant life safety within residential structures have greatly 
diminished. In other words, the modern building codes (e.g., post-2000) 
have proven to be resilient and the need for triannual updates is not 
necessary for improved resilience. Homes designed and constructed to 
the national model building codes are built to withstand major damage 
from disasters and already provide substantial resiliency for many high 
seismic, high wind, heavy snow, wildfire and flooding events.
    Despite this, a number of recent proposals targeted at making 
buildings more resilient are predicated on requiring the use of 
``latest published editions'' of certain codes or standards. This is 
unnecessary and creates a number of challenges. First, although many 
believe that homes built following the ``latest published edition'' of 
the building code equate to more resilient homes, that is not 
necessarily the case when compared to those built to previous editions 
of the IRC. Homes built to modern building codes--defined as any 
edition of the IRC--have been shown to be resilient. Evidence from FEMA 
and others demonstrate the IRC, throughout its history, has been very 
effective in preventing the destruction of homes due to various storms 
and earthquakes and significantly reducing damage to wall and roof 
coverings.\6\ Further, because many of today's new homes are built 
``above code,'' with additional sustainable and high-performance 
building features, they are even more durable and resilient.
---------------------------------------------------------------------------
    \6\ For example, FEMA's Summary Report on Building Performance--
2004 Hurricane Season (FEMA 490, March 2005) indicated that ``no 
structural failures were observed to structures designed and 
constructed to the wind design requirements of . . . the 2000 IBC/
IRC'', and FEMA's Summary Report on Building Performance from Hurricane 
Katrina (FEMA 548, April 2006) stated ``most structural failures 
observed . . . appeared to be the result of inadequate design and 
construction methods commonly used before IBC 2000 and IRC 2000 were 
adopted and enforced.''
---------------------------------------------------------------------------
    Second, it is not clear that this definition recognizes and 
accommodates the different risks, building technologies and landforms 
that occur across the country or specifically allows the model codes to 
be amended--a step that is crucial to maintaining the resiliency of the 
codes. Third, because each state and local government follows its own 
code adoption, implementation, and enforcement processes and has 
limited dedicated resources, many are not able to adopt the latest 
published codes within expected timeframes. Evaluating and adopting a 
new building code is a time consuming and costly undertaking--a multi-
step process that oftentimes requires state legislative as well as 
administrative action and that can take years to complete. Given these 
realities, mandating the adoption of the ``latest published editions'' 
creates an unintended disadvantage for many states and localities that, 
under other measures, would be considered fairly up to date in 
maintaining their codes (e.g., following a standard and predictable 
process and timeline).
    The successful performance of the IRC over the past 20 years is an 
indication of the ``maturing'' of building codes as they have gone 
through the iterative process of refinement since 2000. While tweaking 
the code to reflect technological advances will continue, it is clear 
that major changes aren't as necessary as they used to be. Similarly, 
because the codes are nearing a point of diminishing returns in terms 
of the cost/benefit ratio, additional updates may not be cost-
effective. Homes can be built to withstand any disaster, but homes 
cannot yet consistently be built to withstand any disaster and be 
affordable. New homes built to modern codes are safe. New homes built 
to modern codes are resilient. There is no need to require more 
stringent requirements or the adherence to the latest published edition 
of the code--especially if that is interpreted to mean the most recent 
version.
Modern Codes Address Local Conditions
    State and local governments play a key role in the codes adoption 
process and determining the value of and need for certain code 
requirements. Because the model codes are meant to be amended, for 
decades, state and local governments have been responsible for 
evaluating each new edition of the model consensus-based building codes 
and determining which provisions are applicable within their borders. 
They do so by adding, removing, or revising provisions so that the 
codes better fit the construction practices and techniques, geography 
and risks, and economic and market conditions within the region. If 
they were unable to make these vital changes, state and local 
governments would be stuck trying to fit the square peg of national 
codes into the round hole that represents local conditions. Equally 
problematic, doing so would impose numerous unnecessary requirements on 
builders--requirements that translate into higher costs for buyers.
    The ability to tailor the codes is a key component in ensuring the 
codes are resilient. Some states make few changes to the model codes, 
others hand-pick the provisions and/or amend certain requirements, and 
others use the model code as a baseline to create their own state-
specific code. In this way, jurisdictions can assess their specific 
risks and needs to create the code that best suits their specific 
seismic, wind, flood, and/or other conditions. At the same time, they 
can avoid imposing mandates (and associated compliance costs) for 
provisions that are not applicable or designed to address levels of 
risks that are not present in their areas, such as elevation 
requirements outside the traditional flood hazard areas, or increased 
structural requirements for snow loads in more temperate regions.
    Under this rubric, Nevada is free to identify the risks it faces 
and adopt the codes that are best suited to its locale, geography and 
economic conditions, while North Carolina is able to do the same. In 
fact, because the model codes are intended to be tailored, amendments 
are made to nearly every code that is adopted at the state or local 
level, whether it applies to only the administrative requirements or 
major rewrite of the entire document. For example, North Carolina 
adopted its 2018 building codes based on the 2015 I-Codes on January 1, 
2019 with 38 pages of amendments.\7\ Similarly, Nevada adopts the 
building codes at the local level, but collaborates statewide on the 
amending process and had 14 pages of amendments on the residential code 
alone.\8\ Any federal efforts must not alter this vital underpinning 
and must allow and embrace amendments as an important component of 
ensuring both the codes' applicability and resiliency, and, in turn, 
its affordability.
---------------------------------------------------------------------------
    \7\ See http://www.ncdoi.com/OSFM/Engineering_and_Codes/Documents/
2018_NCBuilding
Code_amendments/2018_NCBuildingCode_amendments.pdf
    \8\ See http://www.clarkcountynv.gov/building/plan-review/
Building%20Codes/2018_IRC_
Amendments.pdf
---------------------------------------------------------------------------
Building Codes do not Address Existing Homes
    As currently structured, most building codes apply only to new 
construction. This means that any effort to increase the stringency or 
otherwise focus on the implementation of building codes overburdens new 
construction and essentially ignores the performance and resiliency of 
the existing housing stock. Such a result is unacceptable.
    According the 2019 American Housing Survey, over half (65 million) 
of the nation's 124 million homes were built prior to 1980 (98 million 
prior to 2000); and therefore, most were not subject to the modern 
building codes that are now in effect. Equally problematic, the latest 
Census statistics show the number of homes built before 1970 that are 
taken out of commission is only about 6 out of every 1,000 being 
retired per year. These low rates of replacement mean that the built 
environment in the U.S. will change slowly and continue to be dominated 
by structures that are at least several decades old. Indeed, optimistic 
estimates suggest that if 1.2 million homes were built every year, 
after 20 years only 16 percent of the conventional housing stock would 
consist of new homes built between now and then. In comparison, 68 
percent would still consist of homes built before 1990.\9\ Clearly, 
these statistics demonstrate the impact that newer building codes can 
have on the built environment is limited because new construction 
represents such a small portion of the housing stock. Any effort to 
increase those gains would be difficult and costly.
---------------------------------------------------------------------------
    \9\ Emrath, Paul, Ph.D., More New Homes Needed to Replace Older 
Stock, National Association of Home Builders, August 2, 2018, accessed 
at https://eyeonhousing.org/2019/01/more-homes-needed-to-replace-older-
stock/ on March 15, 2021.
---------------------------------------------------------------------------
    In sum, those who call for the adoption of more stringent and 
costly building requirements fail to acknowledge that this would do 
very little to provide further protection from natural disasters. 
Inappropriately focusing on new construction would create hardships for 
state and local governments and would make new housing prohibitively 
expensive for hard-working families at a time when the nation is 
already suffering through a housing affordability crisis.
                        Pre-Disaster Mitigation
    The American housing stock continues to age, especially as 
residential construction continues its modest rebound after the Great 
Recession. Because recent production has fallen short of even the 
levels needed to accommodate the number of net new households, there is 
increasing pressure to keep existing homes in service longer--homes 
that may not perform as well or be as resilient as newer homes. 
Retrofitting these homes represents the biggest opportunity to improve 
the resiliency of the nation's housing stock.
Existing Housing Stock Ripe for Retrofit
    Older homes are less resilient and energy efficient than new homes. 
They were not built to the stringent requirements contained in modern 
codes, use (and lose) more energy, and are more susceptible to damage 
from natural disasters. Many of the post-disaster investigations 
support this conclusion. For example, in FEMA's Mitigation Assessment 
Team Report regarding Hurricane Sandy, the summary reads, ``Many of the 
low-rise and residential buildings in coastal areas [that had 
observable damage] were of older construction that pre-dates the 
NFIP.'' \10\ Similarly, the Insurance Institute for Business and Home 
Safety stated in its preliminary findings report for Hurricanes Harvey 
and Irma that, ``Total destruction from wind occurred to mobile homes, 
as well as older site built conventional homes,'' and ``Newer homes 
generally performed better than older buildings.'' \11\ Clearly, 
upgrading existing buildings and improving their ability to withstand 
disaster events must play a key role in any efforts to improve the 
nation's overall resiliency.
---------------------------------------------------------------------------
    \10\ Federal Emergency Management Agency, Mitigation Assessment 
Team Report Hurricane Sandy in New Jersey and New York, November 27, 
2013, accessed at (https://rucore.libraries.rutgers.edu/rutgers-lib/
44511/PDF/1/play/) on May 19, 2019.
    \11\ Brown-Giammanco, Ph.D., Hurricanes Harvey and Irma--IBHS 
Preliminary Findings Report, Insurance Institute for Business & Home 
Safety, accessed at (https://ibhs.org/wp-content/uploads/wpmembers/
files/Hurricane-Harvey-Wind-Damage-Investigation_IBHS.pdf) on May 19, 
2019.
---------------------------------------------------------------------------
Flexible and Cost-Effective Options Critical
    As policymakers seek to mitigate the effects of future natural 
disasters, they need to create an array of opportunities to facilitate 
upgrades and improvements to the older homes, structures and 
infrastructure that are less resilient to natural disasters because 
they were built when there were no national model codes in existence or 
constructed following codes that are now outdated. Modernizing existing 
structures and properties to improve their resiliency can take many 
forms--ranging from better sealing roof penetrations or installing 
hurricane shutters to elevating the structure or improving the site's 
stormwater management. Clearly, mitigation will be largely dependent on 
property location and condition, type of hazard and level of risk, 
geographic conditions, economic levels, community and individual 
resources and other factors. Like most efforts, however, there is no 
one solution that can address the full range of issues and needs 
associated with improving resiliency. Therefore, flexibility in program 
design, application and implementation is vital. Any federal assistance 
must also be broadly applicable over geographic and economic spectrums 
at both the community and individual levels. While some will need 
financial assistance, others may benefit from technical expertise or 
innovation.
    At the individual home level, recognizing many households do not 
have the interest or means to conduct larger scale renovation projects, 
NAHB, in concert with the Federal Emergency Management Agency, the, 
International Code Council, and the Insurance Institute for Business & 
Home Safety, is developing a series of Tech Notes that describe 
different types of retrofit techniques that can be used to increase the 
resiliency of existing buildings. Importantly, these how-to fact sheets 
focus on strategies that require minimal costs (typically less than 
$1,000 for a typical home), but have a significant impact on reducing 
damage.
    The first six topics that have been completed include sealed roof 
decks, attachment of roof coverings, flashing and sealing of roof 
penetrations, use of hurricane shutters, use of impact resistant doors 
and methods of preventing ice dams. It is hoped that these new 
resources will help homeowners understand their options, recognize that 
certain mitigation options can be cost-effective, and compel them to 
take action. NAHB continues to demonstrate its commitment to increase 
the performance of homes through the development of these resources and 
the ongoing promotion of voluntary participation in green building 
programs.
    We strongly urge Congress to recognize and promote voluntary, 
market-driven, and viable green building, high performance and 
resiliency initiatives for both new and existing homes. Unlike 
mandates, these programs can promote lower total ownership costs 
through insurance and utility savings as well as provide the 
flexibility builders need to construct homes that are recognized as 
being cost-effective, affordable and appropriate to a home's geographic 
location.
                     Incentives/Funding Mechanisms
    Incentive programs that offset the increased costs for above-code 
and mitigation activities are an important tool to reduce the barriers 
that many resiliency opportunities pose and encourage more homeowners 
to invest in home modernization. For example, due to the high initial 
costs associated with investing in certain resiliency and mitigation 
efforts, many homeowners are unable to finance desired or necessary 
upgrades and, without assistance, would likely forego the improvements. 
Mitigation funding and/or incentives that are available at the federal 
and state levels, as well as those that could be offered through the 
real estate valuation and transaction processes, can address this 
issue, produce results and have proven to be attractive alternatives to 
mandates.
Federal Incentives
    Congress has taken a number of steps over the years to alleviate 
the challenges associated with funding retrofits--most prominently 
through federal funding for pre-disaster mitigation and tax incentives. 
NAHB asserts that continuing and expanding these types of programs is 
necessary in order to realize measurable change in the resiliency of 
the housing stock. Indeed, coming up with what can be significant up-
front costs or increased down payments needed to finance improved 
resiliency is often the most difficult part of new or existing home 
upgrades.
    Tax incentives are another proven way to realize results and, as 
they have been effective at advancing energy efficiency improvements, 
perhaps could be used as a model for resiliency. Sections 25C for 
qualified improvements in existing homes (building components), 45L for 
new homes and 179D for commercial buildings have permeated the market 
and assisted many families and building owners to invest in efficiency. 
Continuing and expanding programs like these, which have demonstrable 
results, will compel more homeowners to take positive actions.
State Incentives
    States can also play a role in enticing positive behavior. One 
alternative that has been used in several states is providing insurance 
discounts to homeowners who conduct specific activities. In Texas, the 
state's hurricane insurance pool, the Texas Windstorm Insurance 
Association, offers premium discounts of 19 percent to 33 percent for 
building code compliance. In Rhode Island, insurers are required to 
waive the hurricane deductible for insured homeowners who voluntarily 
implement mitigation measures that are specified in the insurance 
regulation. In Alabama, tax credits of up to $3,000 are available for 
retrofitting a taxpayer's legal residence to make it more resistant to 
hurricanes, tornadoes, other catastrophic windstorm events, or rising 
floodwaters.
    In addition, the Alabama State Legislature established the 
Strengthen Alabama Homes Act in 2011 to provide grants to qualified 
homeowners to retrofit their homes to reduce property damage caused by 
hurricanes or other catastrophic windstorm events. Clearly, these state 
programs have proven to be popular, as they provide value through loss 
reduction, yet enable and facilitate broader participation through 
reduced costs. The recognition and expansion of programs like these is 
one way to engage participation while offsetting the hefty costs 
associated with upgrades.
Other Incentives
    There are a number of other opportunities to facilitate, 
incentivize, and offset the costs of voluntary above-code construction 
and/or pre-disaster mitigation that could be achieved through public-
private partnerships and other collaboration. These options include 
modifications to property valuation and financing protocols; loans, 
grants and other funding programs; and insurance premium reductions 
within the National Flood Insurance Program (NFIP), among others.
    Under current practice, in most instances, mortgage companies, 
appraisers, assessors and real estate professionals do not consider the 
costs or benefits associated with the various resiliency upgrades. This 
creates a disincentive to take proactive steps to reduce a home's 
exposure, as those expenditures are not necessarily considered to be 
valuable amenities. If the improvements are not included in the 
appraisal or appraised value of the structure, not only is the buyer 
uninformed about the home's qualities, his or her willingness to pay 
more can be significantly diminished.
    By recognizing and valuating the upgrades, appraisers can 
consistently give weight to these improvements in their valuations, 
lenders may reconsider qualifying loan ratios, realtors can promote 
their benefits, and homeowners would get assurances that the 
investments they have made will retain value and be recognized in 
resale. Homes will also get the upgrades needed to better weather storm 
events, thereby reducing future damage, insurance outlays and homeowner 
displacement.
    Other opportunities to facilitate, incentivize, and offset the 
costs of voluntary above-code construction and/or pre-disaster 
mitigation include tax incentives, grants, the creation of a 
weatherization assistance-like program for resiliency, and/or financing 
programs that would allow the costs of retrofits to be added to a 
mortgage.
    Congress is encouraged to consider a full range of federal 
incentive and funding opportunities, as well as ways to promote and 
facilitate state-level and private efforts to optimize the resiliency 
of new and existing homes. Clearly, overcoming the significant hurdles 
of how to finance upgrades and entice homeowners to take action will be 
a key to the success of any effort to increase investment in resilience 
and mitigation.
                             Moving Forward
    Sound building codes are already in place in most communities and 
they are doing their job. NAHB is supportive of voluntary and 
incentive-based efforts to improve the nation's resilience, but remains 
concerned with how any expansion of federal authority over state and 
local governments' ability to adopt location-appropriate building codes 
or take other steps may impact where and how homes are built or 
severely constrain the production of affordable housing. NAHB is also 
troubled by the inappropriate focus the adoption of the most recent 
versions of codes places on new construction at the expense of the 
existing housing stock and strongly believes that expanding mitigation 
opportunities and targeting upgrades to existing structures could help 
to better manage and more evenly reduce the risks.
    We strongly urge this Subcommittee through its oversight role to 
focus any efforts related to housing on cost-effective, market driven 
solutions that encourage greater resiliency in the nation's housing 
stock while preserving housing affordability for both new and existing 
homes. Further, given our members' knowledge and experience building 
homes and communities--activities that place them on the front lines in 
terms of designing, planning and building to reduce risks and minimize 
future losses, we stand ready to assist and help deliver positive 
results and help you reach your goals.
                               Conclusion
    I would like to thank the Subcommittee for the opportunity to 
testify today and share NAHB's views. The nation's home builders have 
long supported the adoption and implementation of building codes as a 
way to ensure the homes we build are solid and safe. In doing so, what 
has become clear is that with each new home we build, we are 
transforming our communities into resilient cities of the future.

    Ms. Titus. Thank you very much. And I apologize, it is Mr. 
Fowke, not Mr. ``Folk.'' So thank you for being with us.
    Mr. Fowke. That is OK.
    Ms. Titus. I now ask unanimous consent that members not on 
the subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    Without objection, so ordered.
    I would now like to recognize members of the committee for 
questions. Each Member will be recognized for 5 minutes of 
questions, and I will start by recognizing Chairman DeFazio.
    Mr. DeFazio. Thank you, Madam Chair. I appreciate the 
opportunity to go first.
    Just to any members of the panel, we are looking at major 
investments in water infrastructure, both wastewater and 
drinking water, in the infrastructure package upcoming in the 
next couple of months.
    I found in my district that plastic melts in severe fires 
and, obviously, then you have issues with seismic that could 
relate to other substances.
    How are we going to deal with this? I think maybe the last 
witness was talking about localities. I guess you would assess 
what your risks are, what your biggest concern is and then try 
and attempt to rebuild the infrastructure in a way that deals 
with that?
    Mr. Wright. I guess, Mr. Chairman, if I could, I would tell 
you that that is exactly the right case. You have got to deal--
particularly on this infrastructure side, but on the housing 
stock as well, specifically with the risk as it exists in that 
community. So, you think about how things tie together. You 
think about the pipes, but also think about water 
infrastructure, and whether or not the infrastructure itself 
can withstand a major storm, a major storm surge event, or a 
fire that approaches it. Things like a flood risk management 
standard is so imperative because if water comes up and over 
into a wastewater treatment plant, it shuts down.
    Mr. DeFazio. All right.
    Ms. Smith. I would add, Mr. Chairman, that the important 
thing is also to look at the risk as it will exist in the 
future. You don't want to have to rebuy a new infrastructure. 
You don't want to have to rebuild housing again. So you want to 
look, to the extent that you can, where is going to be the 
saltwater intrusion that could affect the placement of new 
water supplies, where should the pumps be placed, all sorts of 
things, the wastewater facilities, how can you keep the 
electricity running when you are flooded. So to look at future 
risk as well as current.
    Mr. DeFazio. Thank you.
    And then, I guess, probably to Mr. Fowke, or others can 
answer, but you raised concerns about the potential for a 
$1,000 increase in cost; yet, I was just talking to Mr. 
Garamendi, who had to leave, and he was the insurance 
commissioner for a number of years in California, and I was 
talking about how I had seen a photo after a chaparral fire of 
a neighborhood where everything was toast, except for one 
house, and that house was built with concrete siding, a tile 
roof, and metal shutters, and block attic vents, and it was 
still standing. But I am willing to bet that current building 
codes don't require that, and it probably cost a lot more than 
$1,000 to get to that point.
    So do you think like with building in chaparral areas and 
other things as L.A. expands, that the modern building code 
will take care of that, which would be probably asphalt roof, 
certainly wouldn't include shutters and other things.
    Mr. Fowke. Well, I believe that codes should be flexible 
where they can change in nature to where issues take place 
throughout different regions of the country. To make houses to 
where they meet and exceed some of the things that you are 
mentioning here, if they are not affordable, I don't think the 
consumer will ever have the opportunity to enjoy or appreciate 
the savings or the use of that facility.
    Mr. DeFazio. Well, the point being, if someone is doing a 
major new development, and they are building it in such a way 
that in the chaparral area, it is likely to burn down, that is 
going to impose considerable costs, obviously, on the 
individuals, and on the insurance and potentially on Stafford. 
So there are kind of front-end costs, back-end costs on these 
things, and I think there has to be a balance, and it should 
be, it seems to me, dictated by the region and the risk, and 
not, say, well, we will get a uniform national building code 
and houses are bolted down now, they don't fly off the 
foundation, blah, blah, blah, we are taking care of these 
things. I think it needs to be more regionalized and localized.
    So insurance would like to, or perhaps, someone else 
respond to that?
    Mr. Harper. Sure. Thank you for the question.
    I would echo your comments that, you know, there is a 
national building code, and there is a need for regional codes 
as well. Natural disasters, there is uniqueness to different 
geographical areas. And when you use the example of wildfire, 
that is one of those where I think it is almost a combination 
of what can you do from a regional perspective with codes, and 
then what can you do, also, from a larger built environment 
perspective? How can we use public lands and parks to create 
buffer zones? How can zoning be used to reduce exposures by 
mandating clustering of the built environment, creating 
defensible space, and ensuring transportation networks are 
interconnected?
    So codes can be used to influence building styles, building 
materials, and landscapes. So I think there are several tools 
in the toolbox, but I would agree that there are very unique 
regional components to what we are trying to do here. But I 
think we also have to look at all of our possible tools that we 
have, including the built environment in which that structure 
is sitting.
    Mr. DeFazio. Thank you.
    Thank you, Madam Chair.
    Ms. Titus. Thank you.
    Mr. Webster.
    Mr. Webster. I would say that, first of all, Mr. Fowke, you 
raised some important issues on affordability in your 
testimony. We can push stronger building codes. However, if 
those building codes cost too much money, then the homeowners 
can't afford them and we haven't improved mitigation. So where 
is the real balance between those two? I mean, there has to be 
a balance, and I know in Florida there are places where we 
balance that out. What do you think?
    Mr. Fowke. Well, Ranking Member Webster, I think Florida is 
a perfect example of balance. After Hurricane Andrew, I was 
able to witness firsthand the destruction that took place. It 
was devastating. It was almost hard to imagine the damage that 
took place.
    The knee-jerk reaction was to build homes that were 
bulletproof and could withstand any kind of storm. But we 
learned very quickly the affordability was out the window then. 
A consumer cannot afford the home. It was very unattractive. 
And, so, we looked for balance, and we worked real hard in 
research and development after Hurricane Andrew.
    And Mexico Beach, Florida, the last hurricane in 2018, was 
a great example where older homes did not stand. The newer 
homes that were built post-2000 stood up against the storm, and 
it was a success story.
    We learned a lot about Hurricane Andrew, and the research 
that took place there and the practices that have happened 
afterwards have been a success story in Florida.
    But, like I said earlier as well, what we do in Florida is 
not necessarily what they need to do in Nevada, and, therefore, 
the codes need to be flexible throughout the country in 
different regions. One size doesn't fit all.
    Mr. Webster. How can we support homeowners with existing 
homes in improving their resiliency at their properties?
    Mr. Fowke. Well, if funding was available for existing 
homes, the commerce is out there where companies will come in 
and bring your house up to current codes. Things that we 
learned that were very simple were application of windows, 
strapping of the trusses on the building, and installation and 
application of the exterior doors and garage doors. Some of 
these items here that I just mentioned would be very cost 
effective and add value to the home, and also add safety to the 
homeowner.
    Mr. Webster. So can you talk about your work in Florida for 
which you were typically used as a model for building codes and 
mitigation, and how the flexibility to address affordability 
can be worked into mitigation activities and planning?
    Mr. Fowke. Well, we looked at, first, the failure of the 
homes in Hurricane Andrew, when Hurricane Andrew happened, and 
from there, we looked at solutions, and we learned quickly that 
if the roof trusses were to lift, the exterior wall would 
collapse; therefore, the entire structure would collapse. So we 
started out with strapping down the trusses, putting more rebar 
in concrete in the exterior walls and beefing up the exterior 
walls.
    In velocity zones, we made sure that we had the velocity 
tight windows, impact windows. And, in the installation of 
windows throughout the State, we used more stringent 
application for installing the windows so that they weren't 
easily removed from high winds.
    But another thing in Florida, Ranking Member Webster, that 
we need to pay attention to--and it is not a coastal problem, 
but the flood insurance issue is set to expire in September, 
and we continue to put a Band-Aid on that.
    And, so, I would say to this committee today, too--and I 
sat on a roundtable discussion with Congressman Charlie Crist a 
few years ago, and we began to look for solutions to the flood 
insurance issue.
    And, so, I think--hand-in-hand, I think the insurance 
members on this call today will also agree with me that we need 
to quit putting a Band-Aid on flood insurance. And I am not 
saying that because I am from Florida, because floods are not a 
coastal issue.
    Mr. Webster. Thank you very much.
    I yield back, Madam Chair.
    Ms. Titus. Thank you.
    I would like to ask a couple of questions myself. This can 
go to anybody on the panel. We are trying to be the best 
stewards of taxpayer money, and we have reacted to a lot of 
this weather that you have all mentioned in creating a number 
of disaster programs. You have got some in HUD. You have got 
some in defense, in transportation, DOE, EPA, just all these 
different programs.
    I wonder if you could talk to how we can make them more 
accountable, how they can be more cost effective, and how they 
can be more coordinated so you don't just keep creating layers 
of bureaucracy and difficulty for people who need to apply for 
these funds that come from different sources.
    Mr. Strickland. I would like to speak on behalf of the 
national emergency managers to that point, because that is an 
issue that we really are constantly up against. It is the 
numerous Federal programs, both before, during, and after a 
disaster.
    And, if there could be a way, at the Federal Government 
level, to centralize this coordination--and, to us, it would 
really be FEMA needs to be well aware of all of the programs 
that are available within the Federal Government, and to be 
able to coordinate with the States those programs and how they 
may be most effective per what that particular State's issue 
and risk vulnerabilities might be.
    That, to us, would be of great, great assistance.
    Thank you.
    Ms. Smith. Madam Chair, if I could add, perhaps, somewhat 
of a friendly amendment to Mr. Strickland's approach, that we 
see that this is an issue, and it is important to try to 
harmonize and allow the various programs to work together, to 
have more flexibility on trying to match dollars from NRCS at 
USDA, with FEMA dollars, for buyout, or something of that sort. 
I think allowing for projects that have co-benefits will be 
helpful.
    Mr. Wright. Taking it one step further, there was a 
National Mitigation Framework developed 7 years ago, and it has 
been revised once. And, in that, they created a mitigation 
framework leadership group. It has all of the Federal agencies 
on that group. My prior role at FEMA, I got to lead that group.
    It has the right people at the table. It had the right 
conversations. But, to be honest with you, Madam Chair, there 
is not a mandate legally. There is not a mandate from Congress 
that tells those individual programs with different departments 
in different committees of jurisdiction to make it simpler, to 
bring those efficiencies there.
    And, so, it is done far too ad hoc. Far too much of it is 
informal, because everyone is following their own organic act, 
their own legal framework.
    And, to Mr. Strickland's point, it just becomes 
unreasonable by the time you are trying to implement it on the 
ground.
    Ms. Titus. Sometimes you get into jurisdictional battles 
among the agencies as well. Nobody wants to----
    Mr. Wright. Absolutely.
    Ms. Titus [continuing]. Give up any turf or any budget.
    Mr. Wright. This is true.
    Ms. Titus. Sounds like from all of you that this might be 
something that we need to look at more carefully, and we will 
welcome your wise counsel as we do that.
    One other question. We saw in FEMA's National Advisory 
Committee report that underserved communities stay underserved. 
They usually don't get the benefits of some of these programs.
    I wonder if you all might comment on how we could better 
serve those communities, get the information to them, get the 
resources to them, supplement their ability to apply for 
grants. Any suggestions?
    Mr. Wright. I think twofold. One of them is there is a need 
to have the capabilities on the ground to develop the 
applications. I think the bigger issue is the ability to bring 
the match.
    In almost every State, the locality has to bring that 25-
percent match, which is required in all of these--at least the 
FEMA grant programs that we are referencing here today. And 
underserved communities don't have that. And that was my point 
earlier. While there were $3.6 billion worth of applications 
that came in from BRIC, I wonder how many of those are coming 
from underserved communities. How many of them really have 
that?
    So, I am always reticent to say that we should change cost 
shares all the way to 100 percent, but I do think it is 
appropriate to look at that cost share and potentially make 
adjustments, specifically when underserved communities will 
increase their resilience.
    Ms. Titus. Well, we did have that included in the rescue 
package, and so it is a possibility. We might want to give--
maybe look at that and shape it in such a way that it would be 
limited. Good suggestion.
    Excuse me, Ms.--sorry----
    Ms. Smith. I would just suggest, Madam Chair, that an 
example from the State of Florida might be helpful where they 
provide different amounts for different localities' share, 
depending on what kind of efforts have been undertaken, and, 
perhaps, you could do that with a balancing sliding scale based 
on level of need.
    Ms. Titus. Thank you. Thank you very much.
    Mr. Guest?
    Mr. Guest. Thank you, Madam Chairman.
    Mr. Harper, in your testimony, you cite my State of 
Mississippi as an example that you use on page 5. You say there 
on page 5--it says: ``When considering resiliency, we need to 
consider the entire built environment. For example, if we 
provide business interruption insurance for a casino operating 
on the Mississippi coast built with hardened, resilient 
components, we need to also consider the supporting 
infrastructure that can have a direct exact impact to that 
insured. It does no good to have a resilient building that is 
fully capable of operating after a major weather impact, but 
the roadways leading to the facility are damaged and 
impassable. This is just one example of why it is fundamental 
to consider the supporting infrastructure when building a 
complete, resilient environment.''
    Mr. Harper, can you speak on the importance of investing in 
resilient infrastructure as a public good, which would then 
support private investment? And do you believe that such 
investment would then incentivize private investment in 
resilient structures in new construction in those areas?
    Mr. Harper. Yes, sir. You know, speaking to the importance 
of infrastructure is also talking about the importance of 
response and recovery. We need to invest in infrastructure 
systems that can withstand disaster in order to allow emergency 
responders--at minimum, allow emergency responders in and to 
allow recovery to begin as soon as possible, opening up 
businesses within days, and not weeks.
    Further, with more detail provided in my written testimony, 
as you stated, infrastructure is critical to economic 
resilience, which is really two parts: One is lessening the 
impact of the events, and two is the speed to the time of 
recovery to normal. And, as an insurance provider, that is 
really our role, is to try to make people whole and make people 
businesses once again, and that is two-part.
    And that is why it is so critical right now, when you do 
look at an asset, to consider all parts of resiliency, which 
infrastructure is a critical part of that.
    With regards to the second part of your question, I 
absolutely believe that investment in sound, resilient 
infrastructure will incentivize private investments. In 
particular, infrastructure performance is a key due diligence 
metric in analyzing commercial real estate investment. Simply 
put, nobody wants to invest in a property with an above-average 
chance to become a stranded asset.
    And, even if there is development in a noninvestment 
market, companies want safe access to and from their facility 
for both customers and employees. And that is why resilience in 
infrastructure has to be part of the conversation.
    Mr. Guest. And, continuing kind of on that same vein, in 
February, winter storms across the South devastated many local 
water and electric systems. Jackson, the capital city of 
Mississippi, a city that I am proud to represent, parts of the 
city lost water for more than 3 weeks, and here we are now 5 
weeks out, and there are still portions of the city that do not 
have an adequate supply of clean drinking water.
    This has affected families, businesses, schools. All have 
been affected by this.
    Mr. Harper, you speak also in your testimony--on page 6, 
you say that ``we are at a crossroads with regards to aging 
structures and, combined with the significant increase in 
severe weather events, we can no longer afford to deploy 
temporary or Band-Aid fixes.''
    And so my question to you is: What fixes to our aging 
infrastructure can we make that will be most beneficial to the 
taxpayers?
    Mr. Harper. I think, at this point, it is not only what 
fixes can we make, but what replacements need to be made? If 
you look at a lot of the aging infrastructure, so much of it 
was built post-World War II, and, with the rapid growth in 
population in certain areas, that infrastructure, we continued 
to put Band-Aids on that.
    One example is stormwater systems in this country, which, 
if you look at the ASCE report card, I believe received a D-
minus. That is just one example of the aging infrastructure 
that we not only need to look at it and say, hey, what can we 
do as a temporary fix, but, has it reached the end of useful 
life? And would we be better served if we put those funds truly 
towards replacement with an eye for the future, recognizing 
that times have changed?
    We are living in an environment where the frequency and 
severity of storms is occurring in a much greater rate, and we 
need to plan accordingly for that. So, there is that potential 
that our existing infrastructure, even with certain upgrades, 
may still be inadequate. So we really need to look at that with 
an eye for what we expect to see in the coming years.
    Mr. Guest. Thank you, sir.
    And, Madam Chairman, I yield back.
    Ms. Titus. Thank you.
    Ms. Norton?
    Ms. Norton. Thank you, Madam Chair. And I particularly 
thank you for this hearing. It is about something that the 
Congress just seldom does, investing ahead of time in order to 
save money in the long run.
    My first question is for Mr. Fowke. I was interested in 
your comments on housing affordability. My district and many 
others like it find that young people, for example, are living 
in apartments meant for two. Four or five are in that 
apartment. Housing affordability is a major concern throughout 
the country.
    Residents who most need to modernize their housing are the 
least likely to have the resources to do so.
    Could I ask you, therefore: how effective are tax 
incentives for low-income communities who don't pay enough 
taxes to get a credit for home improvements? And what other 
resources are there for them to modernize their homes? So could 
I ask that two-part question.
    Mr. Fowke. Thank you. Thank you for the question.
    I think that it is important that there is financing 
opportunities for people in these areas. The older homes stock 
in our country is the area that needs real attention, that 
needs construction to bring it up to being resilient.
    Affordability has become more and more difficult with 
regulations. Twenty-five to thirty percent of a house before it 
is ever built--the cost of the house--is in regulations. And 
there are people trying to make code changes out there that are 
companies that are promoting a product in commerce. So we need 
to trust research and use good data to make our decisions.
    But the financing opportunity should be out there and 
available to these areas that you are speaking of in your 
district so that these older homes can be--the construction of 
those homes can be brought to date, and have them be brought up 
to being more resilient.
    Ms. Norton. Yes. And I am not sure how low-income people 
are going to be able to do so. I understand your answer.
    My next question is for both Mr. Wright and Ms. Smith, 
because you have focused on disadvantaged and low-income 
residents. The most vulnerable housing to face challenging 
upheavals in a disaster will make it difficult for low-income 
and disadvantaged people.
    What ideas do you have for how Congress can focus 
resilience and mitigation on aid of some kind on those who are 
most vulnerable? That is for you, Mr. Wright.
    And, Ms. Smith, in a related question, you talk in your 
testimony about breaking silos, to use infrastructure to 
deliver benefits to communities. How can breaking silos benefit 
high-poverty, vulnerable communities?
    That two-part question is for Mr. Wright and Ms. Smith.
    Mr. Wright. Thank you, Ms. Norton.
    I think that there are a number of pieces that are here. 
So, clearly, when people have the ability to pay for it, we 
need to nudge them to go do it. Sometimes those kind of tax 
incentives will help.
    But I do think some ideas, like the community disaster 
resilient zones, literally putting ways by which private 
investment would be incentivized to go into those areas, you 
know, variations, or maybe in a more targeted way towards 
opportunity zones, first of all.
    Second of all, many times these people are renting, and 
this is a point where the HUD financing is there for those 
multifamily dwellings. They may be a renter, but there is 
Federal money that is backing those pieces up.
    So, how do we make it a requirement at the point of 
construction and even an ongoing requirement, that if you are 
getting support, capital or otherwise, through HUD, you must be 
meeting these resilience standards so that those who live there 
can withstand the events.
    Ms. Norton. Ms. Smith?
    Ms. Smith. Yes. I would certainly second what Mr. Wright 
has said, is that, in many cases, it is the rental housing that 
suffers significantly, and a lot of those folks are renting and 
don't even recognize that there is a flood risk, for example.
    I would go back to what Mr. Harper said. Some of the answer 
is a whole-of-community solution. You may be able to help those 
who are least able to help themselves by having better 
stormwater infrastructure, and having better protection across 
the community, not just the housing itself.
    My testimony points out a really promising project by 
Enterprise Community Partners with the city of Miami, called 
Keep Safe Miami, where they are trying to work with housing 
portfolio owners, to the multihousing portfolio owners, so that 
they can improve those housing units, and protect the people 
who are their renters.
    Ms. Norton. Thank you, Madam Chair.
    Ms. Titus. Thank you.
    Miss Gonzalez-Colon?
    Miss Gonzalez-Colon. Thank you. Thank you, Madam Chair, and 
to the ranking member.
    And I was looking at the statements of all the witnesses 
today, and of course I think my constituents have had an 
intensive 4 years between hurricanes, earthquakes, and now the 
pandemic. One thing is clear, and it is about not that those 
disasters are not coming to us, but how fast we can recover 
from them?
    And losing services, losing water, losing electricity, and, 
in our case, even telecom, was something that we never 
experienced before. So there is some truths, basics here. 
First, natural disasters are never going to stop happening, and 
we need those mitigation measures so our infrastructure and 
housing and businesses are prepared to face them.
    And, second, we cannot make infrastructure and buildings 
indestructible, even if we wish. So that resiliency and the 
capacity to get back to functioning should be the one that we 
measure.
    And it is not just fixing what is broken like it was 
before. Every time, I think, that is wasteful, and the proper 
mitigation and the resiliency measures in our times should be 
to build back better. And I have been preaching that for the 
last 4 years, because I think it is a taxpayer's expense and a 
waste of money if we do not change the new buildings to the 
current codes.
    So, in that sense, I worked with Congressman Graves in the 
fight for the Disaster Recovery Reform Act, and I will continue 
to do and be by his side seeking those provisions to be fully 
implemented. I think the critical services definition that we 
have been promoting in several bills--and I am glad that one of 
the witnesses even brought those issues up.
    But I think, also, advocating for bringing structures to 
the current building and safety codes, regardless of the 
previous States should be the measure for all areas that are 
being impacted by disasters.
    However, I must bring up that there is something here that 
we need to take care of as well, and it is the issue of the 
funding. And you just brought it up. I must point out that, 
from the information that I do have from FEMA, Puerto Rico 
received $2.9 billion for risk mitigation assistance. Of that, 
only $108 million has been obligated.
    So, it is not just that the money has been approved by 
Congress. It is how fast, or why people are stopping that money 
from being obligated. And we must pay attention to why and who 
is responsible, and what are the issues that are stopping that 
money from coming?
    So I will make one question right now to the Insurance 
Institute for Business and Home Safety, and it is that--I am 
looking at the appendix that you provided in your statement. 
And I think it is good to know the census tract about the 
National Risk Index among other things, but I am not seeing 
Puerto Rico there.
    So my question is: Are we included, and, if not, why?
    Mr. Wright. So thank you for the question.
    We included two illustrations in this, looking at the one 
in Florida and one in Nevada, and I would be pleased to follow 
up with you and look at some of the particulars that are 
existing that apply there. It is built off of national risk 
inventory pieces from FEMA, as well as other private-sector 
pieces. And I will work with your staff to make sure that you 
get yours as well.
    Miss Gonzalez-Colon. Thank you.
    And one of the issues that has been one of the hurdles and 
obstacles back home in Puerto Rico is that, in order to get 
some FEMA funds to be obligated for Public Assistance, in many 
areas, you need those municipalities and the State to actually 
look at their insurance. And we have been fighting, for the 
last 3 years, to get the insurance to pay.
    Some of them went into bankruptcy. So it has been a 
nightmare for a lot of private owners, including the government 
of Puerto Rico, just to recover those funds. And that is 
stopping much of the rest of the recovery process with 
government buildings and public infrastructure, because we need 
to wait for that.
    In that sense, there is a claim, at least in my district--I 
don't know if that is happening in the rest of the districts 
here--how can we expedite that process of reviewing, doing the 
assessment, making the proper payments, because once that is 
done, then you have FEMA, and then you have the local 
government doing the match-up for many of those issues.
    Do you have any recommendations to direct me in that sense?
    Mr. Wright. You know, ma'am, I think everything has to do 
with the particulars of the claim that is in place, as is the 
case in Puerto Rico, as is all across the United States. It is 
a State-regulated entity on the insurance side of the equation, 
and oftentimes, they are best positioned to lay in that space. 
And, in some cases, you are saying some of those providers may 
not exist as they did formerly.
    Miss Gonzalez-Colon. I know my time has expired, Madam 
Chair, so I will submit some questions for the record.
    I yield back.
    Ms. Titus. Well, we want to be sure that you follow up with 
the information on Puerto Rico to Miss Gonzalez-Colon.
    Mr. Wright. We will do so.
    Ms. Titus. Thank you.
    Ms. Davids?
    Thank you. Then we will go to Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Madam Chair.
    It is with great interest that I am listening to this. One 
of the things that we noted is that Mother Nature no longer is 
dependable. We have things that have happened, like the cold in 
Texas. And in California, we have problems with earthquake, 
with fire, and with the levees out in northern California. But 
I have long been a proponent that below ground is where the 
utilities are to go.
    But Mr. DeFazio is right [audio malfunction].
    Ms. Titus. We lost you, Grace. I don't know if it is your 
end or at our end. Do you want to try something, some magic?
    We will come back to you, Grace. Oh, sorry.
    Ms. Van Duyne?
    Ms. Van Duyne. Oh, yes. Thank you very much.
    Mr. Fowke, I just wanted to ask you a question. You had 
suggested that we should take a comprehensive look at disaster 
preparedness and recovery.
    Would you mind elaborating on that?
    Mr. Fowke. Would you repeat the question again?
    Ms. Van Duyne. Sure. Sure. You had suggested that we should 
take a comprehensive look at disaster preparedness and 
recovery, and I am just wondering if you wouldn't mind 
elaborating on that.
    Mr. Fowke. Well, I think, if I spoke to that, it was in 
regards to the model that the State of Florida has been over 
the years, responding to hurricanes, preparing for future 
hurricanes, and disasters that happen.
    I am proud to say that I am a resident of Florida and a 
homebuilder in Florida, and some of the requirements have been 
difficult for everyone to accomplish and adjust to, but the 
fruits of our labor have proven, like I said earlier, in Mexico 
Beach, the results that we saw from there.
    But, going forward, the State of Florida has done an 
outstanding job being prepared for hurricanes, and the response 
we have when a natural disaster happens, and even strong winds 
can cause a lot of disaster or rain.
    So the State of Florida has done an outstanding job of 
being prepared for this, and I am just proud to say that we 
have done a lot of work and research towards that goal.
    Ms. Van Duyne. Well, I know you have. When I worked at HUD 
back in 2017, when we had Hurricane Harvey and we had Hurricane 
Maria--I am sure you remember that--I think the initial 
estimates for damage in Florida was going to be over $5 
billion, and ended up being less than half a billion dollars. 
And that was almost specifically exclusively due to the fact of 
the resiliency build; and a lot of States did not have that, as 
Jenniffer was pointing out about Puerto Rico.
    So I think we definitely learned our lessons on that.
    Mr. Fowke. And we are very, very much in favor of anything 
that we can do, because Puerto Rico is kind of a neighbor of 
ours, and we have been working very hard to do what we can to 
help Puerto Rico and the residents in Puerto Rico.
    But, to give you an example of construction preparedness, 
though, there has been a new rule in Florida where you have 
your code where the house has to be built, for instance, 12.5 
feet above sea level, to meet 100-year flood plain 
requirements, and now they have just added an item called 
freeboarding, which adds another foot to that requirement.
    And the layman doesn't understand how 1 more foot adds, in 
some cases, $5,000 to $10,000 to the cost of a house. So I keep 
going back to housing affordability.
    Ms. Van Duyne. Yeah.
    Mr. Fowke. It is of the utmost importance for everyone, 
everybody that has the dream of owning a home in our country.
    Ms. Van Duyne. Oh, yeah. You just kind of teed me up, by 
the way, for my other question.
    There are some regulations, or administrative burdens, that 
increase the time it takes homebuilders to deliver projects and 
prevent innovation on resiliency. How can Congress address 
those, and what kind of recommendations would you have? What 
are you seeing?
    Mr. Fowke. Policymakers need to reduce regulations.
    Ms. Van Duyne. Do you want to be more specific? I just got 
here. I just got here.
    [Laughter.]
    Mr. Fowke. Well, next time I am up in Washington, I will 
have a class for you.
    Ms. Van Duyne. OK.
    Mr. Fowke. But, no. In Florida, I guess we are the leaders 
in a lot of things in coastal construction, because hurricanes 
are so prominent in our area. Ranking Member Webster was 
involved with our codes committees that worked to create these 
codes for hurricanes.
    Ms. Van Duyne. Well, I guess I was just asking, do you see 
that some of the regulations basically prohibit kind of the 
innovations on different----
    Mr. Fowke. Yeah, it does. It takes time, especially in the 
land development side of it.
    Ms. Van Duyne. OK.
    Mr. Fowke. In some areas, there are multiple layers of 
approvals, and, so, we have experienced that in Florida, and we 
are--as a State, we are trying to do some things to help 
eliminate some of the regulations. But some of it is 
repetitive, and once you get past one layer of regulation, 
there is another layer for you that is redundant. It is almost 
a similar request, but just from a different office.
    And so, I mentioned earlier that 25 to 30 percent of the 
cost of a house right now is regulations, and the majority of 
the regulations are attributed to the land development side of 
it. But time is money, and under the circumstances now with 
COVID and a lot of the shortages of materials and things we are 
experiencing as an industry, lumber prices, affordability is 
becoming very, very difficult. And we take this very seriously 
at the National Association of Home Builders.
    Ms. Van Duyne. Excellent. Well, thank you very much.
    Chairman, I yield back my time.
    Ms. Titus. Thank you.
    I believe Mrs. Napolitano is back with us?
    Mrs. Napolitano. Yes, I am. Can you hear me now?
    Ms. Titus. OK. We can, so the floor is yours.
    Mrs. Napolitano. Thank you very much, Madam Chair.
    My statement has been that maybe we need to look at what 
agencies deal with hurricanes, or any kind of emergency and 
what they do with the moneys they get. I know that you say that 
they don't want to give up any kind of title or ownership, but 
it would be nice to know what they do with anything they are 
given.
    The other thing I want to say is we ignore the Native 
Americans, and, of course, the Territories as you have heard 
from Puerto Rico. The Mariana Islands have suffered a lot of 
hurricanes.
    But, to Mr. Wright, the building codes in California are 
very extensive and very harsh--I know that--but we have 
earthquake, we have fires, and we have levees up in northern 
California. Mother Nature has thrown a lot of curves, and will 
continue to give us heartache, I think.
    So how can we prepare for that? How do we amend our 
building codes? Because every area is different. You can't say 
that one applies to all of them. And any information that you 
can give, dissemination to the legal cities, to the Governors, 
to give to the cities so they can start looking at things that 
they should be looking out for in their own areas. Anybody?
    Mr. Wright. Yes. And thank you, Congresswoman.
    What I would say to you is, first of all, California has 
really, really solid building codes. I think on the earthquake 
side, particularly, they are very good. They have good pieces 
on wildfire as well.
    But remember that most of the homes in California were 
built well before any of the wildfire building codes came into 
effect in that space.
    As we move forward in that space, we have got to find a 
way, particularly in wildfire, to understand there is 
individual to the----
    [Audio interruption.]
    Mr. Wright. I will keep going. Sorry. That there is the 
structure itself, but it is also the neighborhood and the 
surrounding community, and it really requires all three of 
those layers to take action.
    Wildfire is one of those few pieces, that even if you 
perfectly mitigate your home, your neighbor's not doing the 
right thing can cause your home to burn.
    Mrs. Napolitano. Sorry about that.
    Yes. And I have an area in my backyard that we have a 
mountain range, and so, we do have the ability of fires, and we 
had several in the last couple of years that have really been 
devastating. And then, it deals with the slush, the mud coming 
down off the mountains, because later you get rains, and then 
you get that additional burden for residents.
    Mr. Wright. Yes. The Bobcat Fire this year that kind of set 
off a whole series of cascades there in your district, and 
then, when the rains do come, that turns into mud and flooding.
    Mrs. Napolitano. To Ms. Smith, can you discuss the need for 
increased investment in water quality in some water projects? 
That is one of the areas that Chairman DeFazio and Mr. 
Fitzpatrick and I introduced in the reauthorization of the 
Clean Water SRF Program recently, and it includes a grant 
program. But can you touch on that?
    Ms. Smith. Be happy to.
    As a former member of the Virginia State Water Control 
Board, I know how important those programs are to States and to 
localities. And I do understand that, it was maybe 10 years 
ago, some of the leaders actually from California in the 
wastewater industry and the water utility industry were calling 
it the era of assessments, so that there is a lot of work going 
on assessing vulnerability.
    And I think, to the extent that you--for the utilities that 
haven't done the assessments, to getting that going in your 
infrastructure package, and also, to adding money so that they 
will be able to start building in the protections to elevate 
their mechanical components, their electric, to protect--put up 
berms to protect their intake points, protect groundwater 
supplies, all of that.
    If you can add that into your package, that would be 
greatly needed and greatly appreciated, I think.
    Mrs. Napolitano. Well, we appreciate any comments you have 
to forward to the committee or to committee staff or to my 
office, and we will look at them and see if we can add them 
now. But I would certainly like to thank everybody for being on 
here.
    It is interesting. Back maybe 10 years ago, maybe more than 
that, I was looking at the insurance for the riverbed, and it 
opened my eyes to the fact that many people don't know, because 
they are renters that have the housing, and they don't hear 
about it, and they don't get the insurance, and they are at 
risk.
    Thank you very much, Madam Chair.
    Ms. Titus. Thank you.
    You know, one thing that hadn't been mentioned is all these 
projects, whether it is assessment or mitigation or 
construction, result in the creation of jobs, and that is 
another plus that comes from all of this.
    Now I go to Mr. Graves.
    Mr. Graves of Louisiana. Thank you, Madam Chair.
    And, Madam Chair, I want to actually commend you for your 
statement and questions earlier about all of the different 
funding streams and resiliency programs across the Federal 
Government. I believe Mr. Wright, to some degree, covers it in 
his testimony as well.
    As we all know, in this committee, we have nearly $100 
billion in backlog Corps of Engineers-authorized projects. We 
put $2 to $3 billion a year into the construction of those. You 
do the math, and you will finish them approximately never.
    In addition, we have the BRIC program; pre-disaster 
mitigation; Hazard Mitigation Grant Program; Community 
Development Block Grant; disaster recovery; you have NFIPs, ICC 
program; the Federal Highway Administration has an emergency 
program; the USDA Natural Resources Conservation Service. On 
and on and on. And the problem is, is all of these programs, 
they are siloed.
    Now, Madam Chair, we work with you, and I, again, want to 
thank Chairman DeFazio for the work we did on at least knocking 
down one wall between Corps of Engineers programs and the 
Hazard Mitigation Grant Programs.
    Look, if somebody has got a great idea for mitigation or 
resiliency in their communities, we should be incentivizing 
them to commingle the dollars and get these projects done, not 
installing barriers to that.
    And I want to turn to Mr. Strickland.
    Mr. Strickland, would you like to share opinions or just 
thoughts about the various Federal funds that can be used 
potentially for mitigation or for resiliency-type investments, 
yet the programs coming from a Federal agency--in some cases, 
even the same agency--aren't allowed to be commingled, which 
therefore prohibits completing projects? Do you think that is 
something we should be addressing?
    Mr. Strickland. Absolutely, and that is something our 
association has been very interested in. And it really came to 
light, particularly with some of the disasters in North 
Carolina, where there is the pre-disaster mitigation money, and 
then there is also the post-disaster mitigation money, and then 
the opportunity for the funding out of HUD with the Community 
Development Block Grant.
    And the challenge of trying to line those programs up so 
they can complement each other and truly make a long-term 
difference, what I would call, really pushing forward the 
future of mitigation, making it transformational--I know North 
Carolina had some real challenges with that, and worked very 
heavily with you all on that as well as at their State level.
    But we constantly run into that where we have money from 
two or three different Federal programs, but we can't use that 
money to be part of the match to another program. Then we will 
run into situations where the national highway administration 
has coverage of the center of the roadway after a disaster, but 
FEMA has the left and right of the roadway. It is very 
cumbersome and challenging to get through that.
    Mr. Graves of Louisiana. Thank you.
    And, Madam Chair, look, I remind you, part of the 
dysfunction, or perhaps a lot of it, is our fault. You know, in 
the Congress, the House Financial Services Committee has 
jurisdiction over the Community Development Block Grant 
program.
    Candidly, I think that that really is something that is 
related to disasters and should be more so under this 
committee's jurisdiction.
    But thank you, Mr. Strickland.
    Mr. Wright, I really enjoyed reading through your 
testimony. There are a lot of things in here that I think are 
really insightful, based on your extensive experience with 
NFIP. Actually, one thing I maybe disagree with and I just want 
to ask you to clarify. You have said that we should permanently 
authorize the Community Development Block Grant Disaster 
Recovery Program, and I wanted to understand.
    Do you believe that that specific program should be 
permanently authorized, or do you believe that a long-term 
recovery program should be authorized?
    Mr. Wright. It is a long-term recovery program, CDBG-DR 
being the one that Congress has been using. The principal 
reason to say it needs to be permanently authorized is, right 
now, it is a whole new program that starts up every single 
time. It can have very different rules. It would be better if 
there were some predictable pieces to CDBG-DR, thus our 
recommendation that it have a permanent imprimatur from the 
authorizers, as opposed to just getting filled up by the 
appropriators.
    Mr. Graves of Louisiana. Thank you. And I think that that 
objective is what we really should be focusing on, and just 
to----
    Mr. Wright. Thank you.
    Mr. Graves of Louisiana [continuing]. Remind the committee, 
we worked with Congresswoman Plaskett and introduced 
legislation to actually do a FEMA long-term recovery program 
within this committee's jurisdiction that would achieve the 
objectives. Folks came and testified before this committee, 
and, on average, it takes HUD 7 years to hit the same outlays, 
percentages as the Economic Development Administration's 
disaster program that they hit--I think it was in 12 months or 
16 months or something like that. So it further impacts the 
disaster victims.
    And, Madam Chair, thank you very much. I look forward to 
working with you on some of these issues, and yield back.
    Ms. Titus. Yeah. I think we have our work cut out for us, 
but we have some common goals here, and I look forward to 
pursuing them with you, Mr. Graves.
    Ms. Davids?
    Ms. Davids. Thank you, Madam Chair.
    And I would actually love to follow up on what Congressman 
Graves brought up a couple of minutes ago. You know, I 
represent Kansas' Third Congressional District. We are pretty 
centrally located. We have one of the largest intermodal hubs 
in the country, and we happen to also have the confluence of 
the Kansas and Missouri Rivers.
    Unfortunately, studies have shown that the Kansas City 
metro area is likely to be one of the most impacted 
metropolitan areas because of climate change. And I think the 
idea of how we fund projects and what we are doing around that 
is really important, and Mr. Graves brought up some of the 
different funding options.
    And, at the close of the 116th Congress, the House and the 
Senate reached an agreement to establish a resilience revolving 
loan fund that would seed State-level funds, and would make 30-
year low-interest-rate loans to communities for investments in 
resilience and mitigation projects. And that loan option is one 
that has worked well on water infrastructure.
    I am curious, Mr. Strickland, from your perspective as a 
State leader in this space, if you could provide the 
subcommittee with some of your thoughts on this new funding 
option. And, you know, maybe we will be looking at Maryland for 
ways to utilize this new option.
    Mr. Strickland. Well, I appreciate that very much, because, 
actually, Maryland has a bill in right now that would create a 
fund that we could utilize for building resilience, and really 
through mitigation projects.
    Several other States have done the same thing, and I think 
it is in the cooperation between the State governments and the 
Federal Government with this project that we will really be 
able to make some strong headway, particularly where we build 
these funds, and we ultimately have some of the match 
requirements that are available for the other grant programs as 
we move forward. So we are 100 percent behind that.
    Ms. Davids. Thank you, Mr. Strickland.
    And I don't know if anybody else wants to weigh in on this 
new funding option.
    Ms. Smith. I would add from The Pew Charitable Trusts that 
we certainly see a revolving loan fund concept--that construct 
can help build institutional capacity and knowledge that can be 
shared. So it is a good approach. We had backed that 
specifically for flood, but think it makes sense to do it as 
well across the board.
    So we are very supportive.
    Mr. Wright. If I could, I would go just one step farther 
down this line. I think, as we look at the larger amounts of 
dollars that are available in a BRIC program, or other kinds of 
recovery pieces, the ability to bring match will be a gap.
    If this revolving fund is put in place and adequately 
filled up, I think it really becomes a reservoir for people to 
be able to take actions far faster than they would be able to 
do if they were simply waiting.
    Ms. Davids. Thank you. I appreciate that.
    And I yield back.
    Ms. Titus. Thank you.
    Well, I would like to thank our panelists very much for 
your information. Your presentations have been very helpful. We 
will want to pursue some of the things that we have talked 
about today, and we will look to you as a resource.
    Are there any other questions? Mr. Webster, any comments?
    Well, then, in that case, I don't see any questions, so, 
again, thank you all for participating. I will ask unanimous 
consent that the record of today's hearing remain open until 
such time as our witnesses have provided answers to any 
questions that may have been submitted to them in writing, or 
provide information that was requested by the Members during 
the hearing.
    I also ask unanimous consent that the record remain open 
for 15 days for any additional comments and information 
submitted by the Members or the witnesses to be included in the 
record of today's hearing.
    Without objection, so ordered.
    Thank you again, and the subcommittee stands adjourned.
    [Whereupon, at 3:49 p.m., the subcommittee was adjourned.]


                       Submissions for the Record

                              ----------                              

  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Titus, and thank you to our witnesses for being 
here today.
    I also want to thank and recognize the new Subcommittee Ranking 
Member, Mr. Webster of Florida.
    Florida's annual hurricane season has given him significant 
practical and policy experience with federal disaster preparation, 
mitigation, and recovery programs.
    I want to thank him for taking on this leadership role.
    Whether it's combating the threat of hurricanes in Florida, severe 
flooding in my district, or wildfires or tornados in others, resiliency 
has been the cornerstone of the emergency management work of the 
Committee.
    Even before it was popular, it was this committee that helped press 
the importance of investment in mitigation.
    We can't continue to throw good money after bad by simply 
rebuilding infrastructure and communities year after year rather than 
building and rebuilding to withstand and last.
    I've seen that firsthand in my district and I know other members 
have as well.
    Again, it is through investment in mitigation that we are going to 
get a handle on the increased costs of disasters.
    I look forward to hearing from the witnesses today and the ongoing 
work of the Committee on this topic.
    Thank you, Chair Titus. I yield back.

                                 <F-dash>
   Letter of March 18, 2021, from the National Ready Mixed Concrete 
Association; National Stone, Sand and Gravel Association; and Portland 
  Cement Association, Submitted for the Record by Hon. Daniel Webster
                                                    March 18, 2021.
Hon. Dina Titus,
Chair,
Committee on Transportation and Infrastructure, Subcommittee on 
        Economic Development, Public Buildings and Emergency 
        Management, 2165 Rayburn House Office Building, Washington, DC.
Hon. Daniel Webster,
Ranking Member,
Committee on Transportation and Infrastructure, Subcommittee on 
        Economic Development, Public Buildings and Emergency 
        Management, 505 Ford House Office Building, Washington, DC.
    Chairwoman Titus, Ranking Member Webster, Members of the 
Subcommittee:
    Thank you for holding today's hearing on ``Building Smarter: The 
Benefits of Investing in Resilience and Mitigation.'' The General 
Services Administration (GSA) owns and leases nearly 377 million square 
feet of space in 9,600 buildings in more than 2,200 communities 
nationwide.\1\ This footprint represents a significant investment of 
public funds and houses many of the most critical functions of the 
federal government.
---------------------------------------------------------------------------
    \1\ https://www.gsa.gov/real-estate/gsa-properties
---------------------------------------------------------------------------
    We applaud the Subcommittee's recognition of the importance of 
resilience and mitigation related to these buildings. Constructing 
federal buildings and leasing existing structures built to resilient 
standards will safeguard taxpayer dollars, prevent the need to rebuild 
after natural disasters, and lower the embodied carbon of federally 
owned and utilized structures.
Resilient Construction and Breaking the Cycle of Destruction
    The number of billion-dollar disasters per year is rising. In 2020, 
the U.S. experienced 22 billion-dollar severe weather and climate 
disasters.\2\ These disasters represent devastating loss of life, 
crippling economic setbacks, and significant expenditure of federal 
emergency relief funds to rebuild and restore communities.
---------------------------------------------------------------------------
    \2\ https://www.ncdc.noaa.gov/billions/
---------------------------------------------------------------------------
    For federal buildings, natural disasters also represent a potential 
disruption in service and loss of taxpayer funds as buildings are 
repaired or restored. Building to resilient standards and investing in 
pre-disaster mitigation efforts to prepare our built environment and 
our communities to resist the impacts of natural disaster represents 
significant taxpayer savings as resilient buildings do not require 
significant repairs.
    A study by the National Institute of Building Sciences indicates 
that resilience and mitigation yield a $13 savings for every $1 
invested.\3\ Similarly, the Massachusetts Institute of Technology (MIT) 
Concrete Sustainability Hub reports that factoring resilience into 
building design can also reduce lifetime repair and maintenance in 
hazard-prone areas.\4\
---------------------------------------------------------------------------
    \3\ https://cdn.ymaws.com/www.nibs.org/resource/resmgr/reports/
mitigation_saves_2019/ms_v4_overview.pdf
    \4\ https://cshub.mit.edu/sites/default/files/documents/
CSHub_Building_Resilience_
Final%20.pdf
---------------------------------------------------------------------------
    To that end, it is critical that we build our public buildings, 
infrastructure and federally-funded structures to resilient standards 
that allow our facilities to withstand extreme weather events and 
return to normal operations as quickly as possible.
    Recognizing the limits of this Subcommittee's jurisdiction, we 
would further note that resilient construction and mitigation should 
not be limited to federal buildings. Nearly one-third of all existing 
buildings in the United States will need to be rebuilt by 2030, simply 
because they were not designed to last any longer. As these buildings 
are rebuilt, we must take the opportunity to rebuild and replace with 
resilient construction materials and techniques that will improve their 
resiliency and durability to the changing climate.
    We recommend to the Subcommittee's consideration the Disaster 
Savings and Resilient Construction Act, legislation to provide a tax 
credit for home and business owners who build or rebuild after a 
natural disaster to a resilient standard. The legislation will 
incentivize owners of structures to build or rebuild to a structure to 
withstand future natural disasters. This policy will reduce federal and 
social costs or rebuilding, but also eliminate the embodied carbon 
associated with reconstruction activities. We strongly encourage 
Congress to pursue policies that incentivize private construction and 
reconstruction to a resilient standard, and strongly encourage this 
Subcommittee to prioritize resilient construction in standards for 
federal buildings.
    Federal agencies have an important role to play as well. The 
General Services Administration, for example, has been a leader in 
developing policy to promote green building design and procurement. 
Much of that work has focused on the construction phase of the planning 
and assessment process, largely focusing on greenhouse gas intensity. 
But greenhouse gas intensity and resiliency are inextricably linked. To 
be truly effective in incentivizing sustainable construction and 
operations, these efforts need to consider resiliency on equal footing 
with carbon intensity and other factors.
Sustainable and Climate Benefits of Resilient Construction
    In addition to preserving life, preventing economic losses, saving 
taxpayer dollars, and minimizing disruptions in federally provided 
services housed in public buildings, incorporating resilient 
construction standards and pre-disaster mitigation planning in public 
buildings represents an opportunity for reducing carbon emissions. 
Buildings account for nearly 40% of U.S. emissions.\5\ While much of 
that is operational emissions, embodied emissions can be reduced by 
resilient construction.
---------------------------------------------------------------------------
    \5\ https://www.eesi.org/topics/built-infrastructure/description
---------------------------------------------------------------------------
    In addressing methods for reducing embodied carbon, the 
Underwriters Laboratory identified building and designing for the long 
haul, use of recycled material and taking note of the embodied impacts 
through Environmental Product Declarations.\6\ Building to resist 
damage brought on by natural disasters prevents emissions generated by 
rebuilding and repairs.
---------------------------------------------------------------------------
    \6\ https://spot.ul.com/blog/embodied-vs-operational-carbon/
---------------------------------------------------------------------------
    Research shows that in hazard-prone areas, the maintenance costs 
can be significant over the lifetime of a building. In fact, the costs 
of hazard-related repairs--financially and environmentally--can exceed 
the initial construction costs. To reduce repair related costs, which 
include energy consumption and repairs due to damages from hazards, it 
is important to invest in resilient building construction. Research 
published by Massachusetts Institute of Technology helps building 
designers and owners calculate the risk and level of investment for 
residential buildings in hurricane-prone communities.
    This research can be used to calculate the break-even cost when 
comparing a proposed baseline wood construction with an enhanced 
concrete design for a multi-family residential building. In New 
Orleans, for example, MIT's research shows the break-even cost for an 
$8.5 million midrise apartment building is 8%, meaning nearly $700,000 
could be spent up front on mitigation while still breaking even on 
total cost over the life of the building--and obviating the need for 
future reconstruction and its environmental impacts.\7\
---------------------------------------------------------------------------
    \7\ https://cshub.mit.edu/bemp-dashboard
---------------------------------------------------------------------------
Material Neutral Approach to Construction Materials
    In approaching resilient construction and mitigation, we urge the 
Subcommittee to take a material neutral approach. Establishing material 
neutral standards for the durability, sustainability and performance of 
federal buildings allow engineers and construction professionals to 
construct the most resilient buildings and facilities. A material 
neutral approach avoids picking winners and losers and maximizes 
engagement from industry.
    In establishing material neutral standards, we urge the 
Subcommittee to encourage the adoption of a life cycle analysis that 
evaluates the impacts of competitive materials using a cradle-to-grave 
or cradle-to-cradle full life cycle view of materials and a full life 
cycle cost analysis of construction and building operations. Without 
considering the costs and benefits of material selection during the 
use, reuse, recycling, or disposal phases of the lifecycle, federal 
efforts to transition to a carbon neutral economy will be limited, if 
not counterproductive.
Concrete as a Sustainable Building Material
    While we strongly advocate that Congress take a material neutral, 
standards-based approach to resilient construction, we believe that 
concrete is a critical building material to improve the resiliency of 
infrastructure and buildings--both public and private.
    Concrete represents disaster-resilient construction that is capable 
of withstanding the impacts of natural disasters and climate change, 
resistant to natural elements like water and fire, and represents 
building systems with the potential for net-zero energy efficient 
structures.\8\ Concrete absorbs and permanently sequesters carbon over 
its lifetime and is recycleable--further absorbing carbon during the 
recycling process and over its next life. Furthermore, technological 
innovation and optimal mix designs hold the promise of net zero 
emission concrete.
---------------------------------------------------------------------------
    \8\ https://www.specifyconcrete.org/blog/icfs-and-net-zero-
residential-construction
---------------------------------------------------------------------------
    Similarly, stone, sand and gravel--critical components to 
concrete--are an essential resource for developing any type of 
infrastructure and are key to producing renewable energy sources and 
sustainable public works. From new electric vehicle charging stations, 
to natural gas and hydrogen production and transportation, our members 
stand ready to supply the needed construction materials for these 
projects that will be needed to reduce emissions across the 
transportation industry.
    In producing these essential materials, the aggregates industry 
takes every effort to run operations effectively to minimize waste, 
reduce air emissions, and to conserve water and are always working to 
improving energy efficiencies and developing alternative energy 
sources. The aggregates industry has undertaken many greenhouse gas 
mitigation efforts, such as investing heavily in fuel-efficient mobile 
equipment and improving operational efficiency. Further, our members 
are working to deploy new technologies that help further the goal of 
reducing environmental impacts like the utilization of recycled 
construction materials.
    Members of the National Stone, Sand and Gravel Association are 
leaders in taking aggressive action to protect our environment and 
enhance environmental stewardship. Companies across the industry 
routinely develop award-winning projects reclaiming land and unused 
areas that conserve critical habitats and promote biodiversity.
    Cement, the binding agent that binds these materials and gives 
concrete its strength, is also part of a sustainable future. US cement 
manufacturers have invested heavily in technology to make their plants 
more energy and fuel efficient, substituting fossil fuels for lower-
carbon alternative, and leveraging alternative low-carbon cement mixes 
like portland limestone cement and fly ash cement. These new 
technologies not only reduce the carbon emissions associated with 
cement manufacturing, they divert fly ash, nonhazardous wastes, and 
other alternative materials from landfills, impoundments, and the 
environment in the form of discarded waste, reducing the burden on host 
communities.
    The Portland Cement Association sees significant opportunity to 
advance this transition to more efficient operations and lower carbon 
feedstocks and fuels going forward. Indeed, these innovations are at 
the heart of the cement industry's developing roadmap for achieving 
carbon neutrality across the cement concrete supply chain by 2050. To 
achieve these advances, however, the industry looks forward to working 
with the committee to develop incentives and reduce impediments to 
rapid transition.
Sustainable Access to Construction Materials
    We encourage the Committee to examine policies that ensure local 
sources of aggregates are available to supply construction projects. To 
build the 21st century energy and transportation infrastructure that 
will lead to reduced emissions we must have a sustainable supply of 
building materials.
    Further, having access to locally sourced materials is a key factor 
in reducing costs of infrastructure projects and provides greater 
return to taxpayers. Further, decreasing the distance aggregates must 
travel to a project has shown to significantly reduce tail pipe 
emissions from haul trucks and improve road safety. Ensuring 
sustainable aggregates supply will support local economies with high 
paying jobs, reduce construction costs, and improve environmental 
outcomes.
    We appreciate the opportunity to present these views and look 
forward to working with you on these important issues.
        Respectfully,
                         National Ready Mixed Concrete Association.
                       National Stone, Sand and Gravel Association.
                                       Portland Cement Association.


                                Appendix

                              ----------                              


Questions from Hon. Peter A. DeFazio and Hon. Dina Titus to Russell J. 
 Strickland, Executive Director, Maryland Emergency Management Agency, 
       on behalf of the National Emergency Management Association

    Question 1. At the close of the 116th Congress, the House and 
Senate reached an agreement to establish a resilience revolving loan 
fund that would seed state-level funds that would make 30-year low-
interest loans to communities for investments in resilience and 
mitigation projects. This loan option is one that has worked well with 
water infrastructure. From your perspective as a state leader in this 
space, can you provide the subcommittee with your thoughts on this new 
funding option and whether Maryland is looking to utilize this new 
option?
    Answer. The resilience revolving loan fund is an opportunity which 
Maryland intends to utilize, and communities across the nation will be 
able to use to build stronger communities as the program is developed. 
The Maryland General Assembly passed a bill establishing a state-level 
revolving loan fund intended to capitalize on this federal legislation 
in an effort to generate additional funding for mitigation and 
resilience actions. The Resilient Maryland Revolving Loan Fund also 
promotes equity by prioritizing communities with the greatest financial 
need and targeting historically disenfranchised jurisdictions. We 
believe that this action, in addition to the actions by the federal 
government, will greatly enhance our mitigation, building resilience 
efforts, specifically with the matching fund requirements. We also 
encourage Congress to prioritize resilience and mitigation as they 
consider bills that provide sweeping investments in infrastructure. The 
investments we make now will have impacts for generations to come.
    As a witness representing all state emergency managers, however, I 
would be remiss in not also mentioning apprehensions by some of my 
colleagues. Hurdles in other states include a lack of organizational 
capacity to manage such a program and potential legal impediments to 
local participation. At this time, I am not sure how widespread the use 
of resilience revolving loan funds will be nationwide.

    Question 2. Studies show that $1 of prevention saves $4-$6 in 
disaster losses. Yet the government spends $1 pre-disaster for every 
$14 post disaster. Does the National Emergency Management Association 
(NEMA) believe more should be done at the federal level to shift and 
balance these numbers since we know pre-disaster spending saves 
taxpayer dollars and lives? If so, does NEMA have specific 
recommendations to modify the Federal Emergency Management Agency's 
(FEMA) existing Hazard Mitigation Assistance programs?
    Answer. NEMA strongly believes that mitigation spending is 
paramount to creating more resilient infrastructure and driving down 
the overall costs of disasters. Programs such as the National Public 
Infrastructure Predisaster Hazard Mitigation Program (also known as 
BRIC) will go a long way toward shifting the paradigm away from 
mitigating post-event. But while pre-disaster mitigation is important, 
so too are the programs currently built to aid in mitigation efforts. 
The Hazard Mitigation Grant Program (HMGP), for example, is funded 
based on receiving a disaster declaration and known costs while BRIC is 
a competition-based program. Both provide benefits to the overall 
system and allow a diversity of states to participate. Not all 
mitigation funding should be post-disaster, but neither should it all 
be competitively based through programs such as BRIC.
    Overall, grantees should be empowered to implement transformative 
mitigation actions with the greatest potential community benefits by 
allowing states and locals the discretion to choose projects which meet 
FEMA allowable project types and align them with the goals established 
in approved mitigation plans. Given that local communities are on the 
front lines of fighting the battle against climate change and 
disasters, they understand more clearly the threats and hazards facing 
their communities. Thus, Congress should give FEMA the flexibility to 
maximize BRIC funds by exploring a combination of competitive and 
formula-based awards. This will allow states to administer BRIC grants 
and will better-align mitigation priorities across all levels of 
government.
    States and communities have access to a variety of possible 
mitigation programs across the federal government, all with the 
overarching goal of helping grantees become more resilient and better 
prepared for future disasters. The specific authorities and purposes of 
such programs usually vary, however, and FEMA may not have authority to 
allow grantees to co-mingle funds or shift the priorities of specific 
grant dollars. Nonetheless, FEMA should:
    <bullet>  Work across the federal interagency and with Congress to 
obtain the necessary authorities to allow grantees to blend various 
projects with support from other mitigation programs available within 
FEMA and across the federal government.
    <bullet>  Allow for collaboration, convergence, and promotion of 
projects that enhance the level of protection of people and property 
across various programs regardless of the funding sources and legal 
requirements.
    <bullet>  Anticipate future conditions by broadening allowable 
project types which meet hazard impacts.

    In terms of broad programmatic changes, NEMA believes time must 
first be allowed for new programs such as BRIC to take hold and be 
properly evaluated. BRIC was created in 2018 and a full application and 
award cycle has not yet been completed. While we appreciate the 
excitement over further developing mitigation programs, constantly 
changing guidance, programs, and priorities creates confusion at the 
state and local levels and does not allow newly established programs to 
be fully implemented.

    Question 3. Investment in hazard mitigation such as flood control 
projects and seismic retrofitting is key to improving our disaster 
resilience and reducing the costs of future disasters. To this end, in 
the nine-year period fiscal year 2010 to 2018, FEMA funded $11 billion 
in state and local hazard mitigation efforts through four grant 
programs. However, many state and local officials report that the grant 
application process for these programs is prohibitively complex and 
lengthy. What steps could FEMA take to simplify and streamline the 
grant application process and encourage state and local investment in 
hazard mitigation?
    Answer. Grantees should be empowered to implement transformative 
mitigation actions with the greatest potential community benefits by 
allowing states and locals the discretion to choose projects which meet 
FEMA allowable project types and align them with the goals established 
in approved mitigation plans. This will better-align mitigation 
priorities across all levels of government. Additionally, trusting the 
applicants' judgement in making policy and project determinations will 
better meet the varied needs of diverse communities. This can be 
accomplished by FEMA establishing its priorities as early as practical 
in the application process.
    Applicants should also be allowed greater oversight of funding 
activities. The current oversight regime is overly restrictive due to 
the numerous stipulations requiring applicants to serve as the 
``middleman'' to convey information and arrange reviews between sub-
applicants and FEMA. This prevents the achievement of FEMA's goal of 
proper, full-cycle grant management and implementation. If an 
application is eligible under FEMA's allowances and meets the 
guidelines established through the FEMA approved hazard mitigation 
plans, then applicants should be provided the ability to exercise 
discretion in funding allocations to include decisions such as 
conducting sub-award reviews, approving sub-awards, and monitoring 
projects and finances.
    Disasters occur without warning and require immediate resources. 
The length of time the FEMA Hazard Mitigation Assistance application 
takes must be shortened. Oftentimes disaster survivors are not able to 
wait several months or years for hazard mitigation assistance when in 
reality funding is needed quickly. In these circumstances they pursue 
alternative pathways to return to normal and the opportunity for 
mitigation is lost. This creates a disaster rebuild cycle that could 
potentially be averted by seizing the opportunity for mitigation.

    Question 4. Have you, or has the Maryland Emergency Management 
Agency (MEMA), found resistance in your efforts to better prepare 
Maryland communities for disasters? If so, from whom?
    Answer. ``Resistance'' is not necessarily seen in our efforts to 
strengthen resilience. However, resultant financial requirements can 
sometimes generate resistance given competing priorities. In our 
efforts to inculcate a culture of preparedness, the greatest resistance 
we encounter again, is financial, in that we need staff and operational 
support. Too much of the time we are focused on the response phase, 
without which when events occur additional damage could potentially 
result. Thus, we need to be prepared to respond. And yet the need to 
build a resilient state through transformational prevention, 
protection, and mitigation is equal, if not greater, when coupled with 
our recovery efforts.
    Maryland is a state with diverse needs. Our rural, low resourced 
communities raise concerns regarding the ability to provide the non-
Federal share portion of the projects for community-based proposals, 
but there are also financial concerns in our urban communities. In some 
urban communities, homeowners face challenges with providing the cost-
share for individual projects.
    Local communities must be mindful of local, state, and federal 
priorities in order to be successful in the nationally competitive 
grant cycles. As such, providing local jurisdictions and states the 
flexibility to prioritize the projects that align with their priorities 
will reduce the complexity of identifying and developing projects.
    Investments made today will translate into safer communities in the 
future. Across the nation most emergency managers do not experience 
resistance to implementing these types of programs, however there are 
many other programs and initiatives that are prioritized for funding 
ahead of mitigation and resilience. With a renewed bipartisan focus on 
building stronger infrastructure and the first year of BRIC projects 
submitted it is an opportune time to surge funding into communities to 
not only build needed infrastructure but do so in a way that will adapt 
to our changing environment and save future taxpayer dollars.

    Question 5. As the Committee looks to be the best stewards of 
taxpayer dollars, what actions can Congress and federal agencies take 
to better harmonize the numerous emerging disaster programs (HUD's 
CDBG-DR and Mit programs, DOT, DOE, EPA, etc.) so these that they are 
accountable, cost effective, and coordinated for seamless delivery of 
disaster assistance and that they remove unnecessary barriers to 
recovery?
    Answer. There are three specific ways in which the Committee can 
ensure disparate federal disaster programs are accountable, cost-
effective, and coordinated.
    First, clarify FEMA's role during incidents and disasters that 
require multi-agency coordination. FEMA should be the lead coordinating 
agency for all multi-agency incidents across all phases of the 
incident, to include recovery. This includes Stafford Act and non-
Stafford Act events.
    Second, develop a universal application for disaster survivors and 
grant management system for applicants and subapplicants that could 
then be utilized across all federal disaster assistance programs. This 
seamless interagency data sharing would enable significantly better 
communication and coordination, as well as faster disbursement of funds 
and improved oversight and accountability.
    Finally, no discussion of long-term recovery would be complete 
without addressing the CDBG-DR program at the Department of Housing and 
Urban Development (HUD). We always appreciate the support of Congress 
in appropriating funds to CDBG-DR, and HUD has been a great partner to 
the states in administering the program. The program, however, remains 
bifurcated from other federal recovery programs and the lack of a 
regular authorization leaves states waiting months, if not years for 
HUD to publish Federal Register notices for funding.
    Congress should consider working with stakeholders to affect 
Stafford changes that include prioritizing pre-disaster mitigation 
funding programs, aligning federal funding for recovery and resilience 
(e.g. CDBG) under FEMA, and applying the countless lessons learned in 
the wake of the COVID-19 global pandemic.

    Question 6. How does NEMA believe that FEMA can better help 
communities identify and implement hazard mitigation and disaster 
resilience efforts that will have the greatest impact on reducing 
community risk?
    Answer. FEMA has adopted the National Institute of Standards and 
Technology (NIST) definition of resilience: ``The ability to prepare 
for and adapt to changing conditions and withstand and recover rapidly 
from disruptions. Resilience includes the ability to withstand and 
recover from deliberate attacks, accidents, or naturally occurring 
threats or incidents.'' It is better to allow the states to work with 
locals to identify those efforts as they are the most knowledgeable of 
the impacts to a certain region, as long as they stay within the 
confines of what FEMA has adopted to mean resiliency. FEMA can 
certainly maintain their role as support but should provide flexible 
funding to state and local organizations to implement resilience 
locally.
    True investment and commitment is required in order to assist 
communities in identifying hazards and assessing vulnerabilities. FEMA 
must ensure sufficient resources and funding are available and 
accessible to continue to support hazard mitigation planning efforts 
and subsequent implementation.

    Question 7. What actions should federal agencies take to help the 
nation achieve greater disaster resilience? For example, what 
opportunities exist for federal agencies to ``mainstream'' risk 
reduction, by integrating disaster resilience goals and activities into 
all their missions and initiatives?
    Answer. Federal agencies must start now in understanding each of 
the missions and how they respond to varying events. Through these 
partnerships, they could find out who would be best positioned to 
implement assistance to the states and locals for the next disaster; 
find ways to improve mitigation and preparedness efforts; and overall 
provide a more robust national resiliency plan that covers the health 
of our citizens and communities. If it is FEMA's role to be the primary 
lead, then they must be challenged to create such partnerships and 
understanding of the other agencies' missions. FEMA should apply the 
emergency management system model of multi-agency coordination to the 
issue of resilience and mitigation programs. Having those partnerships 
and knowledge already in place adds to the resiliency of our nation by 
stakeholders knowing where to go at any given point rather than waste 
valuable time trying to understand all the intricacies of each of our 
federal partners and how they could be best utilized to streamline 
response and recovery. Leveraging FEMA as a one-stop-shop for all 
mitigation and resilience programs across the federal agencies would be 
a tremendous benefit to resource constrained state and local 
communities. This is not to suggest that all these programs should 
legally reside within FEMA, but rather to empower FEMA to assist states 
in managing disparate federal programs.

    Question 8. Fewer than 40 percent of FEMA-funded Public Assistance 
projects have included a mitigation component during the period 2010 to 
2018. What can FEMA do to incentivize state and local officials to 
incorporate mitigation measures when repairing disaster-damaged 
facilities?
    Answer. NEMA believes the incentive for state and local officials 
to incorporate mitigation measures when repairing disaster-damaged 
facilities is inherent in states' desire to prevent impacts from future 
disasters. What interferes with that incentive, however, is the 
flexibility in existing programs to give states the ability to manage 
necessary improvements to facilities during repair operations. Projects 
funded through the Public Assistance (PA) program are currently micro-
managed primarily out of fear of fulfilling audit requirements in 
subsequent years. If states had more flexibility to implement PA at 
their discretion with FEMA merely ensuring programmatic requirements 
are met, such mitigation priorities would occur naturally.

    Question 9. In the latest Government Accountability Office (GAO) 
High-Risk Report, issued early this year, GAO again finds that the 
federal government must reduce its fiscal exposure by managing climate 
change risks and that it has yet to make measurable progress to reduce 
its fiscal exposure to climate change. What do you think the federal 
government ought to do to build or rebuild infrastructure so that it is 
resilient to future conditions of climate change-related impacts such 
as inland and coastal flooding, wildfires, or extreme heat over the 
life-cycle of the project?
    Answer. NEMA strongly believes that mitigation spending is 
paramount to creating more resilient infrastructure and driving down 
the overall costs of disasters. States hold the expertise on the 
impacts their communities experience due to such future conditions 
listed in the question. The federal government can support efforts to 
mitigation spending in such programs already discussed such as BRIC or 
HMGP. These programs should prioritize addressing climate change risks 
and encourage projects with co-benefits.

    Question 10. The Building Resilient Infrastructure Communities 
(BRIC) program offers the opportunity for the nation to make sizable 
investments in disaster risk reduction. How can FEMA administer BRIC to 
ensure effective reduction of risk to whole systems, communities, and 
regions rather than as a ``pre-disaster mitigation on steroids'' that 
invests more money using the same fragmented, stove piped, and 
parochial approaches that historically have failed to result in 
significant overall risk reduction or address the nation's most 
significant infrastructure and community risks?
    Answer. NEMA believes the BRIC program will be successful if the 
following tenets are followed:
    1.  Promote broader Grantee Collaboration and Consistency. Promote 
broader grantee collaboration to encourage creative applications 
crossing state, jurisdictional, or artificial FEMA regional boundaries.
    2.  Expand the Traditional Definition of ``Mitigation'' and 
Encourage Large Infrastructure Projects. This includes encouraging 
large infrastructure projects that would not only promote health and 
safety but expand economic opportunities and the impact of mitigation.
    3.  Empower Grantees to Control Mitigation Priorities. By allowing 
grantees greater oversight of funding activities, the new program can 
be uniquely streamlined and ensure better alignment of mitigation 
priorities across all levels of government.
    4.  Allow for Coordination Across Existing Programs. Existing 
federal programs remain disjointed which does not harness the full 
power of available programs and funding. If not already in place, FEMA 
must seek the appropriate authorities to leverage various mitigation 
programs across the federal interagency to reduce administrative 
burdens and ensure responsible use of taxpayer funds.
    5.  Maintain a Minimum Set-Aside for All Applicants. A minimum set-
aside allows those small or rural states a fair chance to compete for 
mitigation projects while also rewarding disaster-prone states which 
already support large mitigation initiatives.
    6.  Support and Enhance Planning and Traditional Projects. While 
large infrastructure projects remain the hallmark of the new mitigation 
program, the underlying need for building capacity and supporting 
traditional projects is paramount to achieving nationwide resilience.
    7.  Rethink the Notice of Priorities, Application Process, and 
Award Cycles. The establishment of priorities, the overall application 
process, and even common assumptions on traditional award cycles should 
be challenged, streamlined, and improved if barriers exist.
    8.  Build Implementation Capacity Through Technical Assistance. 
Large infrastructure projects require expertise from across federal, 
state, and local agencies. Grantees and FEMA must reach across other 
partners and stakeholders in all aspects of this new program from 
setting priorities, aligning projects, and implementing strategies.
    9.  Offer Flexibility in Benefit-Cost Analysis Approaches. The 
current Benefit-Cost Analysis is cumbersome and unfair to small and 
rural states. While making changes to the overarching programs, the 
Benefit-Cost Analysis must be simplified with a more level playing 
field.

    Question 11. We are just beginning to assess the response to the 
2020 BRIC grant cycle. Can or has NEMA already identify areas which 
need to be improved or challenges that need to be addressed?
    Answer. Given that local communities are on the front lines of 
fighting the battle against climate change and disasters, they 
understand more clearly the threats and hazards facing their 
communities. Thus, Congress should give FEMA the flexibility to 
maximize BRIC funds by exploring a combination of competitive and 
formula-based awards. This will allow states to administer BRIC grants 
and will better-align mitigation priorities across all levels of 
government.
    The program must also be fully funded. Up to six percent of the 
previous year's disasters losses are available for the program. In 
2020, despite over $900 million in funding availability, the 
administration only authorized $500 million in BRIC funding. Demand far 
outpaced the available funding in this grant cycle. Additional funding, 
to include the full six percent of COVID-19 disaster losses from 2020 
should be included in the 2021 cycle.

    Question 12. State and local officials often mention the challenges 
they face in implementing and enforcing codes, largely due to a lack of 
resources. What more could the federal government do to help states and 
communities overcome this hurdle?
    Answer. The federal government should incentivize state and local 
adoption of strong building codes based on national standards and the 
hazards of the region. In many states, legislatures can take action on 
the matter by implementing statewide building code requirements. The 
federal government should provide resources to states to make this a 
reality, as well as support states and communities that are unable to 
unilaterally make these changes. NEMA is positioned to assist state 
emergency managers in state-action on building codes.

    Question 13. In November 2020, a FEMA study found that over a 20-
year period, cities and counties with modern building codes would avoid 
at least $32 billion in losses from natural disasters, when compared to 
jurisdictions without the same codes. What steps can FEMA take to 
further promote and help communities adopt modern building codes?
    Answer. While not all codes are appropriate in all instances, 
ensuring building codes meet the needs of a locality and its hazard 
profile has a demonstrated impact on community resilience in the event 
of a disaster. FEMA programs should be careful not to usurp state 
authority in setting building codes appropriate to a variety of 
situations based on local conditions; however, FEMA can incentivize 
adoption of building codes through administration of grant funds and 
provide additional resources to assist communities in updating building 
codes.

    Question 14. Building departments are charged with protecting their 
communities and ensuring construction adheres to the building codes and 
resiliency requirements their jurisdiction has adopted. Many of these 
departments relied on paper-based processes prior to the pandemic and 
had to quickly adapt to work remotely--presenting challenges to their 
efforts. As Congress considers investments in infrastructure, should 
resources be provided to assist building departments in modernization, 
resulting in more efficient processes while maintaining their public 
protection mission? Does NEMA feel these resources should pass through 
emergency management agencies to building officials, or directly to 
state building agencies?
    Answer. The day to day management of building codes is the 
responsibility of building officials, but emergency managers must be 
able to provide consultation on local and regional hazards. While 
resources to address these challenges could go directly to building 
officials, they should include stipulations that require input from the 
local emergency manager. Emergency managers understand the broader 
implications of disaster risk and are uniquely positioned to apply a 
strategic perspective to the issue of building codes. Similarly, 
emergency managers are not involved in the technical execution of 
infrastructure projects (e.g., roads) but should provide input into the 
process from a risk reduction perspective. In summary, emergency 
managers should have equal/fair representation in the planning and 
building code adoption process.

    Question 15. We know that the adoption of the latest edition of the 
building code gives the greatest return on investment--$11 for every $1 
invested. What can be done federally to incentivize states to adopt and 
enforce model statewide building codes?
    Answer. FEMA has stated that it wishes to support the adoption of 
appropriate building codes through programs such as BRIC but if 
applicants are disadvantaged due to their older building codes and are 
unable to obtain funding for those projects it only perpetuates a cycle 
that leaves buildings and people less safe. Especially in the initial 
years of the BRIC process, we encourage FEMA to be understanding of the 
different status of codes nationwide and work collaboratively and not 
punitively to support the states as they work to raise their building 
code standards.

    Question 16. As Congress considers comprehensive legislation to 
modernize and strengthen our nation's infrastructure--our road, rail, 
and aviation networks, hospitals, schools, public housing, and other 
public facilities--would you be supportive of a requirement that these 
structures and facilities be built to the latest consensus-based 
building codes whenever federal funding is used? Are there areas where 
the standards should be increased beyond code requirements to industry 
best practices (i.e., high wind areas)?
    Answer. In recent years, NEMA's state-based membership has evolved 
to accept ``consensus-based building code'' requirements in many cases. 
While this still interferes with the ability for states to set their 
own requirements, it at least sets a baseline of quality while avoiding 
more onerous requirements such as ``modern'' building codes.

    Question 17. It seems that even across FEMA's programs, there is 
not the uniform application of consensus-based codes and standards 
(Public Assistance, Individual Assistance, Hazard Mitigation, and the 
National Flood Insurance Program). There is also inconsistent 
application across the numerous federal programs that drive investments 
in resilience and mitigation. One of President Biden's early executive 
orders effectively reinstated the Federal Flood Risk Management 
Standard. Should there be a legislative requirement that the 
investments of all federal funds in built infrastructure follow these 
foundational flood requirements?
    Answer. Federal grant funds to state and local communities should 
be focused on providing flexible solutions to state and local risk 
problems. The federal government should not be investing in projects 
that fail to eliminate long-term risk to disasters. In the same vein, 
FEMA and other granting organizations should avoid overly prescriptive 
requirements that increase barriers to entry for vulnerable and 
disenfranchised communities.

    Question 18. What are the biggest obstacles facing residential 
mitigation? How can those be overcome?
    Answer. Across the nation households are struggling to meet the 
basic requirements of daily life. While there are a number of actions 
households can take to reduce their disaster risk, they are oftentimes 
cost prohibitive or not in line with the immediate priorities of the 
family. A nationwide campaign to inform homeowners of the concrete 
steps is a first step in raising awareness of hazards and what can be 
done to lessen said hazards. The federal government also can provide 
incentives for homeowner action through tax credits for eligible 
actions.
    Aside from existing homes, new construction standards should be 
based upon consensus building codes for the area and lessen the impacts 
of hazard impact on individual homes. This includes limiting future 
development in high-hazard areas and installing hazard mitigation 
solutions in new construction like tornado safe rooms in areas 
vulnerable to tornadoes. Other steps, including mandatory residential 
sprinkler systems have been shown to drastically reduce losses and save 
lives.

    Question 19. What actions can Congress take that would be most 
effective in supporting the resilience of low- and moderate-income 
families?
    Answer. The first action Congress can take to most effectively 
support the resilience of low- and moderate-income families is to 
ensure federal programs maintain the necessary flexibility to allow 
states to serve those populations. In addition to providing flexibility 
to states, Congress should not over-prescribe requirements on FEMA, 
thereby allowing the states and FEMA to work together in making sure 
programs are best tailored to the conditions of individual communities.
    Broadening the definition of small, impoverished communities will 
provide a pathway for more low- and moderate-income families to access 
the increased Federal cost-share and reduce financial barriers to 
implementing mitigation.

    Question 20. In its recent equity report, FEMA's National Advisory 
Committee stated that throughout the entire disaster cycle, communities 
that have been underserved stay underserved, and thereby suffer 
needlessly and unjustly. How could FEMA better target federal 
assistance to communities of low- to middle-income, and communities who 
have been historically and disproportionately disadvantaged?
    Answer. FEMA could target federal assistance to communities of low- 
to middle-income, and communities who have been disadvantaged by:
    <bullet>  Providing easier access and simplifying FEMA disaster 
assistance programs so that rural communities and disadvantaged 
individuals/families can apply and receive assistance;
    <bullet>  Reviewing all grant programs through an equity lens to 
determine whether funding increases or decreases equity over time, and 
make necessary adjustments; and
    <bullet>  Targeting preparedness and mitigation resources to 
communities that are most in need of federal funding to build 
resilience in those communities.

    Question 21. According to the First Street Foundation there are 
nearly 4.3 million homes across the U.S. with substantial flood risk 
that would result in financial loss. The analysis indicates that if 
these homes were to be insured against flood risk through the National 
Flood Insurance Program (NFIP), the rates would need to increase to 
cover the risk today, and that the cost of expected annual loss of 
properties in the next 30 years will grow by as much as 61% due to 
climate change. Do you think Congress should compel FEMA to develop an 
affordability program under the NFIP? If so, how urgent is the need, 
especially for low- and fixed income, historically disadvantaged 
communities and communities of color?
    Answer. The National Flood Insurance Program does not fall under 
the emergency management agency in most states. NEMA believes, however, 
that Congress should do all it can to ensure a robust, affordable, 
solvent, and effective flood insurance program available to the 
broadest population of eligible residents.

    Question 22. How can the private and public sectors forge creative 
partnerships to help educate and promote resilience and overcome 
potential obstacles to individuals, communities, and states investing 
in resilience?
    Answer. Building relationships and trust are the most critical 
elements of forging creative partnerships between the private and 
public sectors to help educate and promote resilience. The biggest 
obstacle that has plagued the public private partnership conversation 
is the myth that you have to give something to get something. After 
what we have seen and experienced this past year, we should all have a 
better understanding of what community is and that we are all in this 
together.
    Recent changes in funding programs have opened the door to a 
community's ability to apply the whole of community approach but the 
education on how to implement and engage is lacking. Some stakeholders 
have expressed concern that smaller projects or funding for planning 
may be less likely to obtain support through programs like FEMA's 
Building Resilience Infrastructure and Communities (BRIC) Program, and 
that small, impoverished, or rural communities may not have the 
capacity to apply for and administer the larger amounts which could be 
funded by such programs.
    In addition to federally funded programs, Congress could consider a 
program similar to a medical thrift savings plan translated to disaster 
preparedness and resilience initiatives. This could mean that an 
individual and businesses could participate by directing pre-tax 
dollars toward preparedness and resilience efforts for themselves and 
their employees. Similar to a medical savings plan, specific activities 
would be pre-determined as being eligible. Private sector partners 
could, and likely would, promote these programs internally and benefit 
from the outcomes and the tax breaks. For example, a business could 
match savings and implement preparedness programs teaching and 
supporting employees to build personal plans and put policies and 
protocols in place for how they deal with disasters. Similarly, 
individuals who participate could direct money towards priorities such 
as flood insurance, preparedness kits, home generators, and disaster 
savings.
    The full solution to developing these relationships, however, do 
not and cannot rest solely with Congress. Another obstacle that needs 
to be considered are the various regulations and laws currently in 
place in each state dictating the way in which states and locals can 
engage with the private sector. Each state must determine what if any 
legislative changes need to be made to enable these partnerships to 
flourish.

 Questions from Hon. Michael Guest to Russell J. Strickland, Executive 
   Director, Maryland Emergency Management Agency, on behalf of the 
               National Emergency Management Association

    Question 1. Mississippi and America struggle protecting our most 
vulnerable populations from recurring disasters. Low-income and 
minority communities often bear the brunt of disasters such as flooding 
yearly in places like Mississippi's South Delta and throughout the 
state. FEMA and MEMA, our state agency in Mississippi, work together to 
implement programs such as mitigation buyouts to remove these 
vulnerable populations from high hazard areas and build back to Federal 
mitigation standards. However, many of these families struggle to 
participate in these programs because of an inability to build back in 
a more resilient way by the time FEMA mitigation funds reach the 
property owners, often taking 6 to 7 months.
    a.  What are ways that the Federal government can better streamline 
assessments and fund disbursement to citizens so that they can rebuild 
in a more resilient way while also maintaining appropriate living 
standards?
    Answer. FEMA must reduce the complexity of the grant programs the 
agency administers in all program areas. This includes making Public 
Assistance funding that is used to rebuild public infrastructure 
flexible enough to not only recover but also build back stronger, while 
simultaneously applying the principles of mitigation in the recovery 
process.
    With regard to FEMA's Individual Assistance (IA) Program, efforts 
should be made to continue to streamline the process and lessen the 
administrative burden on survivors. This includes continuing to embrace 
strategies to shift the burden from survivors to FEMA staff, and 
working to implement known challenges in the administration of the IA 
program.
    FEMA should have field staff who can immediately deploy and begin 
the process of appraising structures as an effort to streamline this 
process for individuals and communities. The current standard practice 
is that the homeowner and/or community hire an appraiser and are 
reimbursed once the project is approved.
    Based on the state-specific issues inherent with this question, 
however, we recommend consulting with the Mississippi Emergency 
Management Agency for further elaboration.

    b.  Please expand on ways to improve FEMA and state agency 
mitigation buyout programs that take into account what happens 
following the buyout offer, such as ensuring the ability to purchase a 
new home or offering temporary housing until funds are disbursed, 
allowing for more individuals in need to participate in the programs.
    Answer. FEMA should look to the real estate market to identify 
opportunities to expedite the buyout process following disasters. 
Disaster survivors are not able to wait several months to relocate or 
find alternative housing. In addition to expediting the time required 
to develop an application and receive FEMA funding, FEMA should offer 
support services for relocation. These include social services required 
when individuals are unexpectedly relocated from their homes. For low- 
and moderate-income families, they may be limited on how far they can 
move from their existing homes due to transportation, employment, and 
other factors. FEMA should coordinate with other agencies in order to 
provide these types of social services to assist in relocation.
    Based on the state-specific issues inherent with this question, 
however, we recommend consulting with the Mississippi Emergency 
Management Agency for further elaboration.

  Questions from Hon. Peter A. DeFazio and Hon. Dina Titus to Roy E. 
Wright, President and Chief Executive Officer, Insurance Institute for 
                        Business and Home Safety

    Question 1. You indicated during the hearing that your organization 
had done follow-on studies about how Hurricane Michael affected the 
Florida Panhandle, including the importance of building codes. Could 
you please detail for us the findings with specific attention to homes 
built prior to 2000, prior to 2008, and over the past decade?
    Answer. The IBHS damage assessment for Hurricane Michael focused on 
the initial landfall location near Panama City, Florida. This allowed 
the team to investigate structural performance of residential 
construction in the area of highest winds and in lower wind speed areas 
west of the storm track to obtain a cross-section of performance of 
residential construction across the various wind speed zones.
    Although IBHS was not able to assess houses based on year of 
construction in this study, IBHS did observe that newer residential 
buildings built under the modern Florida building codes as compared to 
older construction. In addition, IBHS observed that FORTIFIED 
construction proved effective for minimizing wind damage in the 
hardest-hit area of Mexico Beach. Another nearby FORTIFIED residence 
demonstrated the added advantage of elevating the structure to minimize 
the effects of storm surge. Further, construction practices for the 
Habitat for Humanity's Habitat Strong residences (which encourages 
beyond-code construction techniques based on those of the FORTIFIED 
Home program) proved effective, as these structures performed better 
than many of the surrounding structures when subjected to winds near 
the design level. This finding demonstrates that resilience is possible 
across all levels of home values.
    Aerial images available from NOAA also provide points of comparison 
between homes constructed to the Fortified standard and neighboring 
houses. The below image demonstrates that the roof on the circled 
Fortified house, located above the canal, performed better than the 
roofs on the line of houses, built in the 2004-2006 time frame 
according to real estate records, on the other side of the canal.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Question 2. You highlighted the need to target investments in 
expanding and modernizing building code implementation through the 
Federal Emergency Management Agency's (FEMA) Building Resilient 
Infrastructure and Communities (BRIC) program. Could you please provide 
specific details on your recommendation?
    Answer. Congress can amend the Stafford Act to direct FEMA's 
Building Resilient Infrastructures and Communities (BRIC) program to 
create set-asides to incentivize new state-level building code 
enactment, modernization, and enforcement. These funds should target 
the creation and expansion of building code activities, not simply fund 
what is ongoing in given jurisdiction. These funds would be most 
effective if used to catalyze advancement in building code adoption and 
enforcement, not as a stream of ongoing financial support.

    Question 3. You spoke at length in your testimony about housing as 
infrastructure. What are the biggest obstacles facing residential 
mitigation? What specific actions do you suggest Congress take to 
address this infrastructure need while advancing resilience, both for 
new and existing construction, and also for low- and moderate-income 
families?
    Answer. The two most significant obstacles for residential 
mitigation are risk awareness and funding. Regarding the first 
obstacle, social science suggests that effectively evaluating risk--
particularly high impact, low likelihood risk like natural disasters--
is challenging for most people. When it comes to natural perils, people 
usually feel more protected than they are. To overcome this obstacle, 
Congress should direct federal agencies to make more climate- and 
natural disaster-related data available to the public. This will allow 
both the public and private sector to use this data to shape policies, 
inform communities and individuals, and develop market-based solutions 
to risk.
    Regarding the second obstacle, different types of financial 
incentives and support mechanisms are needed to provide funding for 
residential resilience. This includes:
    <bullet>  Tax credits for eligible expenses paid by individuals and 
businesses for purchases that help reduce potential damage from 
hurricanes, flooding, and other forms of natural disaster. Making these 
tax credits transferable would make them a useful financial resource 
for low- and moderate-income families that otherwise would not be able 
to take advantage of the credits.
    <bullet>  Ending federal taxation for of the benefits individuals 
and businesses receive from state-based catastrophe-loss mitigation 
programs.
    <bullet>  Creating resilience set-asides within funding 
authorization for existing affordable housing programs. Investing in 
resilience and energy- and water-efficiency for housing for low- and 
moderate-income families ensures that those homes have lowered monthly 
utility and insurance costs and are more able to avoid damage in future 
natural disasters. This creates a framework in which those homes are 
enduringly affordable--and not just affordable on the day of purchase.

    Question 4. Our water infrastructure has proven time and again to 
be vulnerable to be heat and seismic events. We have learned that some 
water systems have been contaminated in the wake of wildfire due to 
melting pipelines. What can we do to strengthen key infrastructure 
against these risks?
    Answer. IBHS research does not extend to the components of water 
infrastructure. As with other types of infrastructure, however, water 
infrastructure should be built to both current consensus standards (if 
available) and be able to withstand knowable risks for a thirty-year 
period. Put another way, infrastructure should only need to be built 
once in a generation. Moreover, existing infrastructure need not be 
rebuilt in every instance to make it resilient to knowable natural 
perils. For example, replacing materials that can melt during wildfires 
could be a more cost-effective resilient-enhancing investment than 
replacing whole water infrastructure systems.

    Question 5. Wildfires in western states have been devastating to 
the lives of so many survivors and communities. In the wake of every 
fire, we worry about the next one. How can Congress provide new tools 
to mitigate against the risk of wildfires and prepare before wildfires 
strike?
    Answer. Wildfire risk to homes, businesses, and communities can be 
reduced but it cannot be eliminated. In part, this is because the 
intensity of wildfires varies in parcel scale, and wildfire-resistant 
building materials and designs that are effective up to a certain 
thermal exposure are limited once these thresholds are met. The 
insurance industry's understanding of wildfire risk and the steps that 
can make homes and communities more resilient is improving. We know a 
variety of mitigation actions at different price points that can 
decrease a home's resilience to wildfire. Notwithstanding this initial 
progress, developing a collective understanding of the various dynamics 
of wildfire risk is complicated by the interdependencies in densely 
developed suburban neighborhoods, where resilience-enhancing actions by 
one homeowner can be undermined by a neighbor's failure to take proper 
actions. In addition, because of the importance of defensible space, 
ongoing property maintenance (including but not limited to controlling 
vegetation) makes it very difficult to assess a home's vulnerability 
over time.
    Due to the interdependence of homes that make up a community when 
it comes to wildfire risk and resilience, Congress should consider ways 
to incentivize or financial support whole neighborhoods to take 
consistent resilience actions that will maximize the benefits for all 
members of the neighborhood.

    Question 6. How can FEMA better help communities identify and 
implement hazard mitigation and disaster resilience efforts that will 
have the greatest impact on reducing community risk?
    Answer. FEMA could work with communities--particularly those that 
face heightened risk of natural perils and have high levels of 
socioeconomic vulnerability--to develop community-wide resilience 
projects that can be put into place should funding--through federal 
programs or private sector investment--become available. FEMA, along 
with the Army Corps of Engineers and other relevant federal departments 
and agencies, can provide technical assistance by collaborating with 
State Hazard Mitigation Officers and local officials to develop such 
projects. Congress can consider additional funding to support technical 
assistance for such communities.
    To the extent Congress enacts a Community Resilience Development 
Zone program with a related bond program--as referenced in my March 
18th testimony--or a community wants to apply for BRIC funding in the 
future, pre-planned projects benefiting from technical assistance from 
federal agencies and departments would be particularly useful.

    Question 7. What actions should federal agencies take to help the 
nation achieve greater disaster resilience? For example, what 
opportunities exist for federal agencies to ``mainstream'' risk 
reduction, by integrating disaster resilience goals and activities into 
all their missions and initiatives?
    Answer. All government programs and investments that have bearing 
on the built environment should take natural disaster resilience into 
account, such that federally funded projects need only be built once 
during a generation. The Federal Flood Risk Management Standard 
(FFRMS), which requires that federally funded projects be resilient to 
flood hazard, exemplifies this approach. The common-sense purpose of 
the FFRMS is to provide reasonable assurance that the American taxpayer 
need not pay twice for the same project. Congress should enshrine the 
FFRMS in statute so it cannot be revoked by executive order, and expand 
it to require that federally funded projects be designed and built for 
resilience to other significant natural perils, including high winds 
and wildfire.
    Government coordination on resilience and risk reduction--such as 
what already occurs at the Mitigation Framework Leadership Group 
(MitFLG)--can help integrate disaster resilience and activities into a 
broader set of governmental missions and initiatives. The National 
Mitigation Investment Strategy, developed by the MitFLG, is one example 
of this type of coordination. In addition, the nation would benefit 
from the development of a National Climate Resilience Strategy, which 
should focus specifically on building climate resilience into 
communities, services, built infrastructure, and natural and working 
lands. Like the FFRMS but with a broader focus, such a strategy could 
assess the expenditures and programmatic decisions of every federal 
agency--including procurement, grants, and loans--through a climate 
resilience lens.

    Question 8. The BRIC program offers the opportunity for the nation 
to make sizable investments in disaster risk reduction. How can FEMA 
administer BRIC to ensure effective reduction of risk to whole systems, 
communities, and regions rather than as a ``pre-disaster mitigation on 
steroids'' that invests more money using the same fragmented, stove-
piped, and parochial approaches that historically has failed to result 
in significant overall risk reduction or address the nation's most 
significant infrastructure and community risks?

    Question 9. We are just beginning to assess the response to the 
2020 BRIC grant cycle. Can we already identify areas which need to be 
improved or challenges that need to be addressed?
    Answer. This response refers to Questions 8 and 9.
    FEMA has a tremendous opportunity to make BRIC the flexible, 
creative, simple, and transformative program it was envisioned as to 
drive resilience on a systemic basis. The following approaches can help 
optimize BRIC to meet the needs of communities across the country.
    <bullet>  Encourage community-wide participation in resilience. 
FEMA should use BRIC to encourage and incentivize holistic approaches 
to SLTT disaster risk reduction that bring a variety of community 
stakeholders into the planning and carrying out of resilience-enhancing 
projects and programs. Resilience is not solely an emergency management 
issues--community disaster reduction must also include input from 
stakeholders representing housing, public works, transportation, and 
other forms of infrastructure. FEMA should use the BRIC application 
process to encourage SLTTs to bring together these stakeholders to 
develop projects that improve community resilience holistically. 
Additionally, FEMA should ensure that BRIC funding goes to support 
projects that improve resilience to all natural hazards--including 
wildfire and wind--and not just flood projects.
    <bullet>  Improve access and equity. Too many communities lack the 
technical capability to develop projects that would qualify for BRIC 
funding and the financial capacity to pay the 25% state cost-share for 
BRIC funding. This lack of capability and capacity may create a 
significant barrier for underserved communities with small tax bases 
and fewer resources in taking advantage of the program--an inherently 
inequitable outcome that runs contrary to the purpose of BRIC. Congress 
can address this issue by funding additional technical assistance for 
underserved communities and by allowing greater flexibility for the 
state cost-share of BRIC funds (i) by allowing states to buy down their 
share through resilience-advancing actions like smart land use and 
modern building codes, and (ii) by allowing SLTT entities to partner 
with private and philanthropic sources to pay for some of the cost 
share. While SLTTs should always have some skin in the game, greater 
flexibility in putting together the state cost-share will make BRIC 
more meaningful for underserved communities and, thus, more equitable.
    <bullet>  Encourage residential resilience. The BRIC program could 
be better calibrated to fund residential resilience projects. This 
could be accomplished through the creation of a pilot program to 
establish residential resilience grant programs and by streamlining the 
application process to make it easier for projects involving multiple 
structures to qualify for funding by instituting a benefit cost 
analysis (BCA) waiver for SLTT initiatives that fund certain kinds of 
residential resilience projects.
    <bullet>  Integrate Stafford Act funding. BRIC and HMGP have 
similar resilience goals and more could be done to integrate how the 
programs operate and fund resilience projects. Successful BRIC 
applicants should be able to access HMGP funds to spend down unused 
funds in the post-disaster program--this will alleviate challenges 
associated with BRIC oversubscription. Additionally, if HMGP funds 
expire, they should automatically roll over to BRIC to provide 
additional funds for that program.

    Question 10. State and local officials often mention the challenges 
they face in implementing and enforcing codes, largely due to a lack of 
resources. What more could the federal government do to help states and 
communities overcome this hurdle?

    Question 11. In November 2020, a FEMA study found that over a 20-
year period, cities and counties with modern building codes would avoid 
at least $32 billion in losses from natural disasters, when compared to 
jurisdictions without modern building codes. What steps can FEMA take 
to further promote and help communities adopt modern building codes?

    Question 12. We know that the adoption of the latest edition of the 
building code gives the greatest return on investment--$11 for every $1 
invested. What can be done federally to incentivize states to adopt and 
enforce model statewide building codes?
    Answer. This response refers to Questions 10, 11 and 12. A 
mitigation provision in the Bipartisan Budget Act of 2018 included new 
Public Assistance cost-share incentives for states to invest in 
resilience, including an increased federal share (up to 10 percent 
more) for Stafford Act funding to states and territories that undertake 
eligible mitigation actions like adopting current building codes. 
Congress can amend the Stafford Act to give FEMA the flexibility to use 
a portion of the cost-share for all disaster relief and mitigation 
programs as a tool to encourage strong building codes and other pro-
resilience actions by SLTTs.
    In addition, Congress can amend the Stafford Act to direct FEMA's 
BRIC program and Hazard Mitigation Grant Program (HMGP) to create set-
asides to incentivize new state-level building code enactment, 
modernization, and enforcement. These funds should target the creation 
and expansion of building code activities, not simply fund what is 
ongoing in given jurisdiction.

    Question 13. As Congress considers comprehensive legislation to 
modernize and strengthen our nation's infrastructure--our road, rail, 
and aviation networks, hospitals, schools, public housing, and other 
public facilities--would you be supportive of a requirement that these 
structures and facilities be built to the latest consensus-based 
building codes whenever federal funding is used? Are there areas where 
the standards should be increased beyond code requirements to industry 
best practices (i.e., high wind areas)?
    Answer. The FEMA Building Codes Save report makes clear that the 
adoption of the latest edition of the building code gives the greatest 
return on investment--$11 for every $1 invested. Legislation requiring 
that federal investments in infrastructure meet current, consensus-
based building codes and be resilient to knowable natural hazard risks 
would provide an assurance that the American taxpayer need not pay 
twice for the same project. In some instances, consensus-driven model 
building codes may not provide the greatest appropriate protection from 
knowable risks such as high winds or wildfire. Where available, 
Congress should mandate the use of science-based resilience standards--
such as IBHS's FORTIFIED standards--to ensure that federally-funded 
infrastructure only needs to be built once during a generation.

    Question 14. It seems that even across FEMA's programs, there is 
not the uniform application of consensus-based codes and standards 
(Public Assistance, Individual Assistance, Hazard Mitigation, and the 
National Flood Insurance Program). There is also inconsistent 
application across the numerous federal programs that drive investments 
in resilience and mitigation. One of President Biden's early executive 
orders effectively reinstated the Federal Flood Risk Management 
Standard. Should there be a legislative requirement that the 
investments of all federal funds in built infrastructure follow these 
foundational flood requirements?
    Answer. Legislation is more stable and long-lasting than executive 
order. The Federal Flood Risk Management Standard (FFRMS) represents an 
important principle: that federally funded projects should be built to 
withstanding knowable risks, so they last for at least a full 
generation. By passing legislation consistent with FFRMS, Congress 
would enshrine this principle in statute and protect it from future 
revocation by executive order. However, flood is not the only known 
natural peril that endangers federally funded projects. Congress should 
go beyond the FFRMS to require that all federally funded projects be 
designed and built for resilience to all knowable natural hazard risks, 
including high winds and wildfire.

    Question 15. Can you please comment on the work that IBHS is doing 
to protect Americans who live in the Midwest and other inland areas 
from the weather disasters that affect these areas of the country?
    Answer. IBHS research into wind, wind-driven rain, and hail are all 
very relevant to Americans who live in the Midwest and other inland 
areas. IBHS research has taught us that wind is wind--whether the wind 
is associated with hurricanes, tornadoes, or severe convective storms. 
The same lessons that hurricane coast has learned over years of 
landfalling hurricanes can protect communities from high winds in 
severe thunderstorms, derechos, and tornadoes. Wind will attack a home 
or business and find the weakest element. Once wind begins to attack a 
home, it often leads to a cascade of damage including costly water 
intrusion. These high winds can push a garage door inward, allowing 
pressure to build inside the garage and push up on the roof and 
surrounding walls--often resulting in major damage to the home and 
displacing families.
    IBHS also has invested resources in better understanding the way 
that hail damages homes and other structures. We developed a roof 
shingle hail impact test to provide insights into the performance of 
shingles labeled as impact resistant. Homeowners in the Midwest and 
inland areas subject to hailstorms can use the IBHS shingle hail impact 
performance ratings to make informed decisions when they replace their 
roof or build a new home.
    Separately or together, wind, rain and hail can cause significant 
damage to roofs and homes. In response, IBHS developed the FORTIFIED 
Home--High Wind & Hail resilience standard, which--in addition to 
meeting the requirements set out in IBHS's FORTIFIED Roof resilience 
standard--requires that the roof use high performing impact-resistant 
shingles rated good or excellent by IBHS. These actions can narrow the 
path of damage and reduce disruption and displacement so often caused 
by these storms.

    Question 16. Can you give some examples how federal legislation 
could draw upon the work of IBHS to help protect Americans from the 
weather disasters they face today, and the weather effects of climate 
change?
    Answer. IBHS delivers top-tier science and translates it into 
action so we can prevent avoidable suffering, strengthen our homes and 
businesses, inform the insurance industry, and support thriving 
communities. One of the ways we translate our science into action is 
through the development of beyond-code resilience standards (e.g., 
FORTIFIED Home and Commercial) and mitigation guidance documents (e.g., 
our Wildfire Ready Guide, Thunderstorm Ready Guide, and Hurricane Ready 
Guide). Federal legislation could draw upon these standards and guides 
to structure resilience programs. For instance, the proposed Disaster 
Savings and Resilient Construction Act explicitly references FORTIFIED 
as meeting the resiliency requirements needed to qualify for a tax 
credit. FORTIFIED could also be used as one component to a legislative 
``building back better'' requirement for post-disaster relief programs 
like HUD's Community Disaster Block Grant-Disaster Relief program.

    Question 17. How can the private and public sectors forge creative 
partnerships help educate and promote resilience and overcome potential 
obstacles to individuals, communities, and states investing in 
resilience?
    Answer. In my March 18th testimony, I highlighted the importance an 
``all of the above'' approach to strengthening climate change 
adaptation and residential resilience. This approach includes a need 
for creative partnerships between the private sector and public sector. 
One example of this kind of collaboration is the analytical tool 
developed by the Reinsurance Association of America (RAA), using 
federal data, that I referenced in my oral and written testimony. This 
tool allows the private and public sector to identify communities that 
have high exposure to natural perils and high levels of socioeconomic 
vulnerability. Using this tool, Congress could establish programs that 
encourage private sector financing of resilience projects that could 
make a meaningful difference for those communities, particularly when 
paired with government programs in the affordable housing, pre-disaster 
mitigation, and economic development space that also seek to strengthen 
resilience for families, businesses, and communities. Creativity in not 
just educating consumers but layering different funding opportunities 
for communities that need the most help is an important way we can 
collectively increase resilience and adapt to climate change.

    Question 18. Is there a role for the insurance industry to help 
bridge the coverage gap, provide risk identification and data, and 
leverage resources to help communities successfully mitigation disaster 
risks?
    Answer. Yes. The insurance industry has the expertise and capacity 
to work with communities all over the United States to help bridge the 
coverage gap, provide risk identification and data, and leverage 
resources to help communities successfully mitigation disaster risks. 
However, Congress should reconsider existing programs which 
disincentivize SLTTs from taking full advantage of private market 
insurance solutions. FEMA funding should not take the place of 
insurance.

Questions from Hon. Michael Guest to Roy E. Wright, President and Chief 
  Executive Officer, Insurance Institute for Business and Home Safety

    Question 1. Mississippi and America struggle protecting our most 
vulnerable populations from recurring disasters. Low-income and 
minority communities often bear the brunt of disasters such as flooding 
yearly in places like Mississippi's South Delta and throughout the 
state. FEMA and MEMA, our state agency in Mississippi, work together to 
implement programs such as mitigation buyouts to remove these 
vulnerable populations from high hazard areas and build back to Federal 
mitigation standards. However, many of these families struggle to 
participate in these programs because of an inability to build back in 
a more resilient way by the time FEMA mitigation funds reach the 
property owners, often taking 6 to 7 months.
    a.  What are ways that the Federal government can better streamline 
assessments and fund disbursement to citizens so that they can rebuild 
in a more resilient way while also maintaining appropriate living 
standards?
    Answer. The time following a natural disaster, particularly one 
which displaces a family, is the worst time to contend with government 
bureaucracy. The process by which homeowners apply for post-disaster 
relief from FEMA, HUD, and SBA should be simplified and streamlined. 
Congress can direct these agencies and departments to develop a single 
application and tracking process to support Americans seeking 
government aid when they are most vulnerable.

    b.  Please expand on ways to improve FEMA and state agency 
mitigation buyout programs that take into account what happens 
following the buyout offer, such as ensuring the ability to purchase a 
new home or offering temporary housing until funds are disbursed, 
allowing for more individuals in need to participate in the programs.
    Answer. Too often, the FEMA mitigation acquisition program for 
residential structures takes too long. These choices, often difficult 
for a homeowner, are best made immediately after the disaster--before 
major repair and rebuilding activities begin. Speed matters. If a 
homeowner has already rebuilt, the incentive to participate in the 
acquisition program fades. If the residential acquisition strategy was 
implemented within 30 days of the disaster, survivors would be able to 
use the authorized Individual Assistance programs for temporary housing 
needs.

   Questions from Hon. Peter A. DeFazio and Hon. Dina Titus to Velma 
Smith, Senior Government Relations Officer, Flood-Prepared Communities 
                 Initiative, The Pew Charitable Trusts

    Question 1. How can the Federal Emergency Management Agency (FEMA) 
better help communities identify and implement hazard mitigation and 
disaster resilience efforts that will have the greatest impact on 
reducing community risk?
    Answer. Given that flooding events have long been the most common 
and costly natural disasters in the United States and that the science 
in this field is advancing rapidly, Pew recommends that FEMA prioritize 
improved information sharing in this area. Most importantly, FEMA 
should work to provide an initial or preliminary set of complete flood 
maps for communities all across the country and to assure that every 
community has the opportunity to engage in a local RISK MAP public 
meeting.
    Basic information about flood risk is a fundamental building block 
for resilience--the means by which communities can understand the 
extent of their existing vulnerabilities as well as the factors that 
may exacerbate or ameliorate those vulnerabilities over time. Armed 
with a recognition of the dynamic nature of flood risk, a deeper 
understanding of current risks, and a sense of what factors drive the 
risk for a given community, local and state decision-makers can address 
existing problems and safeguard the community from future disasters, 
choosing sensible locations for new public infrastructure investments, 
adopting appropriate land use and zoning controls, and selecting the 
adaptation or mitigation actions that will provide the greatest 
benefits.
    FEMA's National Flood Mapping Program, authorized by Congress as 
part of NFIP reform in 2012, mandates that a complete set of flood risk 
data be provided to communities. This includes 100-year and 500-year 
flood elevations in all areas that potentially could be developed as 
well as residual risk information as it relates to flood control 
structures and dams (like dam failure inundation mapping) and future 
conditions information. Pew believes that if communities were provided 
what Congress has mandated, they would begin to have a clear picture of 
overall flood risk. Unfortunately, what FEMA is providing communities 
today is not complete. While the Agency does a credible job in 
maintaining currency of existing flood hazard data, it struggles to 
provide new flood hazard data in areas that have not yet been mapped 
and has not yet begun to provide either residual risk or future 
conditions data.
    Such a mapping effort would require substantial increases in 
funding. In 2019, FEMA testified that based on current appropriations, 
they cannot provide complete flood maps for all communities in the 
nation. With only about one-third of the nation's land area currently 
mapped for flood hazards, expanded coverage across the country would be 
major undertaking--something of a moonshot for FEMA's mapping program. 
For some areas, then, it may be reasonable to allow for a departure 
from the most sophisticated and detailed methods of hydrologic and 
hydraulic analysis that precede formal adoption of flood maps by local 
governments. Instead, the Agency may be able to use base level 
engineering or other methods appropriate on a broad geographic scale to 
build the understanding of flood risk in areas where little knowledge 
exists. See, for example, the information available to supplement 
official flood map information in FEMA region 6: https://
webapps.usgs.gov/infrm/estbfe/ .

    Question 2. What actions should federal agencies take to help the 
nation achieve greater disaster resilience? For example, what 
opportunities exist for federal agencies to ``mainstream'' risk 
reduction, by integrating disaster resilience goals and activities into 
all their missions and initiatives?
    Answer. The goal of ``mainstreaming'' adaptation and risk reduction 
is an important one, not only for federal agencies but also for states, 
local communities, non-profit institutions and businesses of all sizes. 
Ultimately, policies should drive not just a certain number of 
resilience projects or actions but the creation of a resilience culture 
in which planning for future disasters is incorporated into the range 
of decision-making regarding where and how to build.
    To create this culture of resiliency, the Federal government can 
lead by example, establishing resiliency leadership positions within a 
multitude of agencies, from the White House on down, including, for 
example, the Federal Emergency Management Agency, as well as the 
Council on Environmental Quality, the Department of Commerce, the 
Environmental Protection Agency, and the U.S. Army Corps of Engineers, 
and assuring that resilience personnel work collaboratively, 
communicate with regularity, and share scientific knowledge and the 
lessons learned from disaster experience. In our view, those positions 
will be effective only if they are adequately resourced and provided 
with the authority and staffing to assure that resilience objectives 
and strategies can be integrated into the day-to-day decision-making 
within those agencies.
    An important report released in 2010 offers a perspective on this 
point of integration. Under contract to FEMA, the American Planning 
Association looked at the extent--or the lack thereof--to which local 
hazard mitigation plans were actually integrated into key local 
decision frameworks. The study demonstrated that many of the hazard 
mitigation plans that had been produced to that point had, 
unfortunately, been essentially ignored as the same communities updated 
comprehensive plans, adopted zoning and subdivision requirements, and 
laid out plans for capital spending on infrastructure and economic 
development. Many plans reviewed--though they served to qualify 
communities for federal disaster assistance and provided a basic 
assessment of local vulnerabilities--were relegated to bookshelves and 
files, rather than used as guideposts to improve local decision-making.
    While this study was specific to local planning, it illustrates 
that challenge for all levels of government and what we would hope the 
federal government will model for others: Resiliency is not 
accomplished simply by report production and appointments. It requires 
an ongoing commitment to assessing and understanding risks, including 
the trajectory of future risks, and to making decisions and deploying 
resources that will mitigate against those risks. It must also be an 
iterative process--with decision-makers taking care to observe the 
results of their choices and improve their adaptive capacity over time. 
Ideally, it will become standard practice--for everything from 
designing roads and bridges to locating affordable housing or critical 
infrastructure--to consider of an array of plausible hazard scenarios 
and to evaluate the consequences of those hazards being realized. 
Decision-makers can then opt for the low-regrets solutions that will 
protect people and property and allow for speedier recovery when 
disasters do occur.
    Pew believes that the federal highway legislation passed out of 
this Committee last year and the measure passed out of the Senate 
Environment and Public Works Committee offer good models for what will 
be required. Though the two bills differ in many aspects, both include 
provisions that weave disaster preparedness into the existing fabric of 
long-range transportation planning and asset management. It is the 
integration of resilience factors into the everyday decision-making of 
federal programs that is needed, not simply the creation of new, 
isolated silos.
    For the Environmental Protection Agency, this may mean working with 
states to integrate resilience assessments and actions into the 
intended use plans for water and wastewater utility spending; for the 
Department of Housing and Urban Development, collaboration with states 
and localities to assure that the consolidated plans that set 
priorities for affordable housing and community development fully 
incorporate data on current and future hazards and include needed 
protection strategies; for the Office of Management and Budget, a 
review of the methods used to judge cost-effectiveness of projects and 
spending with multiplying benefits achieved far into the future or 
those resolving long-standing social equity problems. For the Small 
Business Administration, targeted education and assistance to small 
scale entrepreneurs to help them safeguard their investments and their 
employees in the event of disasters. Again, we would expect different 
solutions in different agencies, and those diverse responses might well 
be a sign of successful integration.

    Question 3. Fewer than 40 percent of FEMA-funded Public Assistance 
projects have included a mitigation component during the period 2010 to 
2018. What can FEMA do to incentivize state and local officials to 
incorporate mitigation measures when repairing disaster-damaged 
facilities?
    Answer. In our view, the most important figure may not be the 
percentage of Public Assistance projects recorded as containing a 
mitigation component. The more troubling numbers are the overall 
statistics that show increasing demands on the permanent work under the 
Public Assistance program.
    Those numbers combined with large demands on the Disaster Relief 
Fund overall and the backlog of commitments under the Federal Highway 
Administration's Emergency Relief program, tell us that too many public 
assets, including roads, fire stations, schools, and utilities, have 
not been planned and built in a fashion that allows them to continue 
functioning or quickly return to functioning following a natural 
disaster. The demand for repair and rebuild monies also indicates that 
many of these assets are either uninsured or underinsured. The United 
States has, as the National Institute for Building Sciences says, an 
enormous ``resilience gap''--a growing gap cannot be filled solely with 
federal assistance. We see multiple opportunities for Congress and the 
Administration to encourage states and localities to take more 
initiative in this area.
    First, FEMA should assure that any rebuilding or major repair work 
to be accomplished with the aid of Public Assistance dollars will 
follow, at a minimum, the latest consensus building codes. Compliance 
with the latest building codes is a common-sense essential for enhanced 
resiliency.
    Pew also believes that federal tax dollars should be conditioned on 
going beyond current codes. As laid out in H.R. 481, the Flood 
Resiliency and Taxpayer Savings Act, federal agencies should be working 
to assure that projects built with federal support consider not just 
today's risk, but the risk that will be encountered over the expected 
or hoped-for design life of a facility. Such requirements can not only 
assure that federal dollars are not squandered on short-lived, 
disaster-vulnerable projects but also compel states and localities to 
begin assessing the options for fortifying and protecting existing 
critical facilities, roadways, public buildings, and utilities. Even in 
cases where a locality does not have the resources at hand to carry out 
improvements or needed mitigation before disaster strikes, a pre-
disaster assessment of vulnerabilities and possible solutions may allow 
for quicker action on a safer rebuild if disaster strikes. (See support 
letter for H.R. 481 here: https://www.pewtrusts.org/
-/media/assets/2021/02/national_support_flood_resiliency_and_taxpayer_
savings_act_of_2020.pdf .)
    Related to this point, Pew also recommends that all post-disaster 
FEMA teams deployed to help with damage assessments include staff who 
are expert in mitigation projects. By identifying mitigation 
opportunities early on, even as inspectors are still in the process of 
assessing damages and tallying the number of substantially damaged 
structures, these experts can address the timing imperatives that drive 
many communities to opt for less protective, but faster build back.
    Pew also supports efforts to update the disaster declaration 
criteria in ways that will reward states that are making significant 
commitments of state resources to pre-disaster action and, over time, 
will lessen the amount of assistance available to states that choose 
not to make those needed investments.
    In comments submitted to FEMA in February of this year, Pew 
recommended consideration of an indexed approach to declaration 
decisions that could incorporate relative disaster risk, social 
vulnerability, and a demonstrated commitment to and investment in 
mitigation. Given the current concerns around declines in budget 
capacity voiced by many states and localities, we also recommended that 
FEMA move forward on this topic, not with a final rulemaking, but by 
convening a working group of key stakeholders to develop 
recommendations and eventual policy changes. The task for such a group 
would be to develop workable policy recommendations that put the nation 
on an effective path to equitably sharing the challenges and burdens of 
natural hazard risk management and preparedness. Ideally, these 
policies would manage federal costs while establishing mechanisms that 
reward forward-thinking, strategic investments in resilience by state 
and local governments. See the Pew comments here: https://
www.pewtrusts.org/-/media/assets/2021/02/pew-comments-fema-2020-
0038.pdf
    Finally, we would also recommend that the Committee consider 
requiring improved record-keeping and reporting on buildings, 
utilities, and other assets that suffer repeated damages and require 
Public Assistance funding on multiple occasions. Several years ago, the 
Federal Highway Administration finalized a rule that requires states to 
track and report on repeatedly damaged federal highway segments. (See 
an explanation of the requirements of 23 CFR Part 667 here: https://
www.fhwa.dot.gov/programadmin/23cfr667_qa.cfm.) A similar requirement 
may be appropriate for other infrastructure assets. This record-keeping 
should also cover the extent to which such assets may be uninsured or 
under-insured.

    Question 4. In the latest Government Accountability Office (GAO) 
High-Risk Report, issued early this year, GAO again finds that the 
federal government must reduce its fiscal exposure by managing climate 
change risks and that it has yet to make measurable progress to reduce 
its fiscal exposure to climate change. What do you think the federal 
government ought to do to build or rebuild infrastructure so that it is 
resilient to future conditions of climate change-related impacts such 
as inland and coastal flooding, wildfires, or extreme heat over the 
life-cycle of the project?
    Answer. Since 2013, the GAO has included the fiscal risks 
associated with climate change in its high-risk report series on 
significant government vulnerabilities. The most recent report echoes 
warnings issued earlier and identifies two key imperatives to reducing 
the federal government's fiscal exposure: One is an increase in 
resources dedicated to pre-disaster hazard mitigation, and the second 
is enhanced state and local disaster resilience. We agree, and we urge 
the Committee to consider both sides of this resilience coin.
    In our view, the federal government can and should more generously 
fund pre-disaster mitigation programs, allowing the National Flood 
Insurance Program a higher level of Federal Mitigation Assistance (FMA) 
funding that can go toward buyouts of flood-prone structures, for 
example, or increasing appropriations to NOAA's National Coastal 
Resilience Fund, which can help coastal communities avert flooding 
disasters while they also protect the integrity of sensitive coastal 
ecosystems. Congress could also initiate and seed new state revolving 
loan funds aimed at promoting mitigation and, as this Committee has 
done, work to establish new resiliency grant programs within the 
Department of Transportation.
    At the same time, however, federal policymakers should press their 
state and local counterparts to do their part. States and localities 
are the key decisionmakers when it comes to land use and, with very few 
exceptions, they are the arbiters of where and how new housing 
developments, local schools, hospitals, and businesses will be built. 
They also benefit directly from long-lived, safe infrastructure and 
building within a community, supporting economic development and 
quality of life as well as generating local tax revenues. If local and 
state governments make decisions and investments that promote unsafe 
building in risky areas, however, the need for more mitigation dollars 
and more recovery dollars will never subside. State and local 
governments must be true partners in resilience with assistance from 
the federal government but also with better management of flood and 
hazard risks--promoting growth and development in areas that are high, 
dry, and safe, not in areas that are at high risk of floods and fires.
    Again, we see great value in the framework laid out in H.R. 481 to 
accomplish these objectives. By clearly requiring the sponsors of 
projects funded in whole or in part with federal dollars to assess and 
address future flood risk, federal agencies will promote a vastly 
improved resilience culture. Pew also sees a need for new policies 
regarding disaster declarations and the availability of funding for 
permanent repairs or rebuilding of roadways, utilities, water and 
wastewater treatment plants, and public buildings. Over time, states 
should be scored and rewarded based on their commitment to smart, safe 
building and reasonable mitigation investments.

    Question 5. The Building Resilient Infrastructure Communities 
(BRIC) program offers the opportunity for the nation to make sizable 
investments in disaster risk reduction. How can FEMA administer BRIC to 
ensure effective reduction of risk to whole systems, communities, and 
regions rather than as a ``pre-disaster mitigation on steroids'' that 
invests more money using the same fragmented, stove-piped, and 
parochial approaches that historically have failed to result in 
significant overall risk reduction or address the nation's most 
significant infrastructure and community risks?
    Answer. See answer below.

    Question 6. We are just beginning to assess the response to the 
2020 BRIC grant cycle. Can we already identify areas which need to be 
improved or challenges that need to be addressed?
    Answer. Given that the new BRIC program closed out its first grant 
application period only three months ago, it may be premature to judge 
the failings or successes of this program at this point. We are 
optimistic, however, that the BRIC framework is a good one that can 
give state and local resilience leaders a level of confidence that 
federal mitigation dollars will be a more reliable source of 
assistance.
    As Members know, the Stafford Act's Hazard Mitigation Grant Program 
(HMGP) has long been the largest source of federal assistance for 
mitigation projects. But that mitigation money flows only after a 
disaster has occurred--and because the levels of HMGP funding scale off 
the size of other disaster expenditures--after the costs of recovery 
projects have been tallied. In some instances, disaster-struck states 
have opted to use available HMGP dollars in communities other than 
those affected by the most recent disaster, but for the most part HMGP 
has operated as a post-disaster program.
    BRIC's funding levels also scale from the estimated expenditures 
associated with disasters, but the funding allotments are not earmarked 
for specific states. Instead, those monies go into a fund, and states, 
territories, and tribes, along with localities as sub-applicants, may 
apply and compete for assistance without having experienced a recent 
disaster. By de-linking the funding availability from specific 
disasters, the program is able to operate as a true pre-disaster 
program, thus opening the door for assistance to states that may 
already have done a reasonably good job of mitigating their risks but 
hope to do more. And, with FEMA's decision to manage the fund without 
drawing it down to zero each year, states, territories, and tribes may 
be willing to staff up for mitigation and develop in-house expertise, 
rather than relying solely on contract help with large sums are 
suddenly available.
    The available statistics for this first round of applications 
confirm the pressing need for help: While $500 million was available, 
FEMA received requests totaling $3.6 billion. Considering matching 
funds associated with these requests, the total project costs would 
have come in at close to $5.5 billion. While the bulk of the funding 
requested was for project costs, about a third of the applications 
sought assistance for capacity-building--in our view, a positive sign 
that many communities understand the imperative to get smart and get 
going on adaptation.
    While we would withhold final judgment based only on these broad 
numbers, we suspect it may make sense for FEMA to increase the amount 
of technical assistance it offers in the next round of applications. 
Hopefully, if FEMA sees a pattern of small, under-resourced, or highly 
vulnerable communities having difficulty with certain aspects of the 
application process, it will conduct special outreach and/or simplify 
aspects of the program, such as the benefit-cost calculations.
    And, as Pew noted in comments to the Agency as it set up the 
program, we are hopeful that funding that goes toward writing or 
renewing local or state mitigation plans comes along with greater 
scrutiny and pressure to integrate hazard mitigation planning into 
comprehensive planning, zoning, and capital improvements planning.
    We also agree that broader solutions may be called for in many 
instances, and we would note that the FEMA scoring criteria currently 
provides for additional credits for collaborative applications. As this 
first round of funding concludes, we would also suggest that FEMA also 
consider help connect applicants and sub-applicants within a watershed 
or region who may share a common risk and may each be better able to 
solve their local problems with a regional approach that leverages 
knowledge and resources.

    Question 7. State and local officials often mention the challenges 
they face in implementing and enforcing codes, largely due to a lack of 
resources. What more could the federal government to help states and 
communities overcome this hurdle?
    Answer. See answer below.

    Question 8. We know that the adoption of the latest edition of the 
building code gives the greatest return on investment--$11 for every $1 
invested. What can be done federally to incentivize states to adopt and 
enforce model statewide building codes?
    Answer. With recent changes to the Stafford Act, Congress has 
allowed for more federal resources targeted at building code adoption 
and enforcement. FEMA may now assist local governments post-disaster 
when the tasks of inspections and permitting can overwhelm a community 
that has suffered major damage but has limited capacity in a building 
department. The law is also clear that FEMA may consider local 
commitments to adopting and enforcing the most recent code versions as 
it provides financial and technical assistance to applicants. In our 
view, these were appropriate and useful changes.
    FEMA also incentivizes adoption and enforcement of building codes 
through its Community Rating System (CRS), which provides discounts in 
flood insurance to policyholders based on the activities of the local 
government, including the ratings independently released as the 
Building Code Effectiveness Grading Schedule (BCEGS). These ratings 
produced by Verisk's Insurance Services Office (ISO) consider the level 
of code adoption and enforcement. (See, for example, FEMA's CRS 
guidance https://crsresources.org/manual/ and a summary report on state 
BCEGS https://www.isomitigation.com/siteassets/downloads/iso-bcegs-
state-report_web.pdf.)
    We also support efforts to ensure that federal dollars are used 
only for projects that incorporate, at a minimum, the most recent 
consensus-based codes and standards, and we applaud states and 
localities that have taken steps to incorporate or promote even 
stronger requirements, including higher freeboard standards and 
stronger roofing requirements. Alabama, for example, uses its 
Strengthen Alabama Homes program to provide grant funding to residents 
of Mobile or Baldwin counties to make improvements to the FORTIFIED 
Home<SUP>TM</SUP> standards Mobile or Baldwin Counties (https://
www.smarthomeamerica.org/resources/strengthen-alabama-homes), and New 
York City has released Climate Resiliency Design Guidelines (https://
www1.nyc.gov/assets/orr/pdf/
NYC_Climate_Resiliency_Design_Guidelines_v4-0.pdf) that will help the 
City ensure that City-funded infrastructure and facilities are built 
withstand the future impacts of extreme weather and climate change.
    Unfortunately, however, incentives as well as significant outreach 
and technical materials produced and disseminated from through FEMA's 
Building Sciences programs, have not yet led to an adequate nationwide 
commitment to building code adoption and enforcement. As a recent 
report from FEMA's National Advisory Council notes:

        ``Pushback from builders and manufacturers that benefit 
        financially or otherwise from weaker building codes have 
        stunted inclusion of some disaster-resistant provisions. 
        Despite FEMA's positive efforts to strengthen consensus model 
        building codes and standards over time, the Agency is ill-
        equipped to engage in a sustained way as building code adoption 
        issues threaten the growth of resilience in communities across 
        the U.S.''

    The Council's assessment is a troubling one, as is the statistic 
they cite showing that nearly 70 percent of communities facing hazards 
fall short in code adoption and use. That is why we support not only 
the continuation of appropriate incentives and widespread sharing of 
technical information but also clear requirements for code-compliance 
for any project using federal resources. As discussed earlier, Pew also 
supports the possible lowering of rebuilding assistance to states and 
communities that fail to act on code adoption and enforcement.

    Question 9. As Congress considers comprehensive legislation to 
modernize and strengthen our nation's infrastructure--our road, rail, 
and aviation networks, hospitals, schools, public housing, and other 
public facilities--would you be supportive of a requirement that these 
structures and facilities be built to the latest consensus-based 
building codes whenever federal funding is used? Are there areas where 
the standards should be increased beyond code requirements to industry 
best practices (i.e., high wind areas)?
    Answer. Pew fully supports clear requirements for new construction 
or major reconstruction with federal funding to
    1)  follow, at a minimum, the latest consensus-based codes and 
standards; and
    2)  account for hazards that are anticipated to impact those 
facilities over their excepted lifetimes, incorporating protective 
features to better manage that risk.

    The framework of H.R. 481 offers a common-sense approach for 
addressing future flood risk. For flooding hazards, it provides an 
approach for identifying areas of likely future risk or, where there is 
inadequate information, incorporating a modest safety factor into 
decision-making. This approach will be particularly important in areas 
projected to be impacted by sea level rise, increased frequency and 
intensity of storms, and significant levels of erosion.

    Question 10. It seems as if even across FEMA's programs, there is 
not the uniform application of codes and standards (Public Assistance, 
Individual Assistance, Hazard Mitigation, and the National Flood 
Insurance Program). There is also inconsistent application across the 
numerous federal programs that drive investments in resilience and 
mitigation. One of President Biden's early executive orders effectively 
reinstated the Federal Flood Risk Management Standard. Should there be 
a legislative requirement that the investments of all federal funds in 
built infrastructure follow these foundational flood requirements?
    Answer. Pew strongly supports application of up-to-date codes and 
standards for all new construction and the enactment of H.R. 481 as a 
durable, common-sense approach to addressing future flood hazards. We 
urge Congress not to miss the opportunity to assure that newly built 
infrastructure is built to last, and we believe you can do so by 
assuring that any allocations of new funding immediately trigger 
requirements for forward-looking hazard assessments and protective 
designs and construction. In our view, such requirements are important 
to public health and safety and fiscally responsible.

    Question 11. What are the biggest obstacles facing residential 
mitigation? How can those be overcome?
    Answer. For flooding, the problem is not simply one of historical 
settlement patterns and the natural affinity that many have for 
waterside living. Multiple additional factors work against residential 
resiliency, including

      a long and continuing resistance to updated building codes;
      serious misunderstandings about the nature and uncertainty of 
flood risks;
      inappropriate price signals; and
      decision-making frameworks that focus solely on the short term.

    One of the most frequent arguments against protective building code 
adoption and enforcement is that code requirements will make new 
housing unaffordable. This is an argument that has been proven wrong 
over and over by flood events. The argument assumes that the primary or 
sole focus should be the selling price of a home and contends that 
because code compliance has the potential to raise the construction 
price by some increment, codes create problems. What this argument 
ignores, however, is the fact that the cost of home ownership is not 
simply the price of a house. The cost of home ownership includes the 
purchase price, but it also includes the cost of living in, 
maintaining, and insuring that home throughout the lifetime of 
ownership. In our view, an ``affordable'' home that is subject to 
recurrent flooding or situated in a dangerous surge or landslide area 
is not truly affordable, when its residents must evacuate to safety, 
lose their belongings, and make costly repairs, often multiple times.
    On this point, states should work to assure that all communities 
adopt and enforce up-to-date codes, and federal funding should not 
support projects that fail to meet current codes or fund new unsafe 
construction located in known high hazard zones.
    Another obstacle derives from misinterpretations of flood maps and 
misunderstanding regarding the 1-percent-annual-chance or so-called 
100-year floodplain. While many people, including policymakers, see 
this as a of the worst-case flood or a prediction, it is neither. The 
designated Special Flood Hazard Areas (SFHAs) depict the land areas 
that would be inundated by a flood with an estimated one percent chance 
of occurring in any given year--an imaginary event based on past storms 
and the land uses existing at the time the map is created. The lines on 
the map do not represent a point at which all major flooding would be 
expected to stop, and the one percent probability actually translates 
to a one in four chance of flooding over the 30-year term of many 
mortgages. The government's continued emphasis and reliance on these 
SFHAs as flood forecasts oversimplifies the task of understanding flood 
risk, creating confusion and complacency about managing that risk.
    To address this obstacle, Pew supports adding more information to 
flood maps, including information on future risks, and new requirements 
for disclosure of information on past flooding to allow consumers to 
make sensible decisions before making financial commitments to 
mortgages or leases. FEMA's new insurance rating methodology, Risk 
Rating 2.0, will also improve public understanding of flood risk and 
correct the misleading price signals linked to current and past NFIP 
pricing.
    An additional obstacle is one that FEMA's National Advisory Council 
has discussed. The Council's 2019 report (https://www.fema.gov/sites/
default/files/2020-08/
fema_nac-report_11-2019.pdf) points out that the use of a seven percent 
discount rate for assessing the benefits of future savings from flood 
damages drives decision-makers to reject valuable and needed pre-
disaster mitigation projects. This requirement, instituted long ago by 
the Office of Management and Budget, is one that should be lowered to 
more effectively support effective, long-term mitigation projects that 
will reap savings over time.

    Question 12. Prioritizing mitigation and resilience creates a 
significant opportunity for future infrastructure investment. As 
Congress is poised to consider a comprehensive infrastructure package, 
how can we ensure that those investments also foster disaster 
resiliency? How to we make sure all new infrastructure is resilient?
    Answer. Pew supports clear requirements for federally supported 
projects to be planned and designed to address future risks and, at a 
minimum, to be built in compliance with up-to-date codes and standards. 
In addition, it may be useful for legislative language specific to 
certain types of infrastructure to include references to recommended 
safeguards or approaches, for example, safe rooms for schools in 
hurricane or tornado prone areas; backup power capacity for critical 
facilities; or use of the Department of Transportation's Vulnerability 
Assessment Scoring Tool for roadway projects.
    On this point, it may also be useful for the Committee to confer 
with experts from FEMA's Building Science Branch, which has long 
partnered with other organizations such as the National Institute of 
Standards and Technology, the National Institute for Building Sciences, 
the National Earthquake Hazards Reduction Program, and the Institute 
for Business & Home Safety to develop and disseminate important 
technical information and guidance. Their ``Catalog of FEMA Building 
Science Branch Publications and Training Courses,'' (https://
www.fema.gov/sites/default/files/
2020-07/fema_p787_catalog_2016.pdf) may be a good starting point for 
useful guidance of better protecting newly funded assets like 
hospitals, schools, water utilities, and multi-family housing.

    Question 13. What actions can Congress take that would be most 
effective in supporting the resilience of low- and moderate-income 
families?
    Answer. Pew strongly supports enhanced flood risk disclosure as a 
means of helping all families, particularly those with low- and 
moderate-incomes, make sensible decisions about where to live and how 
to protect themselves from flood losses.
    When provided with useful risk information, including information 
about past flooding events, prospective homebuyers can consider 
alternative neighborhoods, purchase flood insurance, and/or investigate 
mitigation options, such as landscaping improvements, building 
elevation, flood vents, or special placement of electrical or 
mechanical equipment. An informed buyer who has not yet finalized 
financing may be able to roll the costs of flood-resiliency 
improvements into a long-term loan that will protect the structure and 
result in lowered insurance rates. For renters, full flood knowledge 
can allow for the same sort of informed decision-making. The individual 
with mobility issues may choose a safer location, for example, and more 
individuals may decide that an insurance policy to cover loss of their 
belongings in a sensible and affordable safeguard.
    Legislative proposals offered in past sessions of Congress tied new 
flood loss disclosure requirements directly to the National Flood 
Insurance Program, but Members of this Committee may also wish to 
consider disclosure obligations within the context of new federal 
investments in housing.
    Additional mitigation support for low- and moderate-income families 
might also include enhanced funding for pre- and post-disaster 
mitigation actions. For low-income families hit by disasters and 
anxious but unable to move, such assistance might be increased by 
allowing for application of the Uniform Relocation Assistance and Real 
Property Acquisition Act (URA) to more federal buyout offers. Offers 
made under URA or potential new requirements could include additional 
relocation assistance when payment for the market value of a property 
is not sufficient to move the family into a safe and affordable 
alternative home.

    Question 14. In its recent equity report, FEMA's National Advisory 
Committee stated that throughout the entire disaster cycle, communities 
that have been underserved stay underserved, and thereby suffer 
needlessly and unjustly. How could FEMA better target federal 
assistance to communities of low- to middle-income, and communities who 
have been historically and disproportionately disadvantaged?
    Answer. As Roy Wright with IBHS noted in his testimony to the 
Committee, the Reinsurance Association of America (RAA) has developed a 
tool that leverages publicly available data to depict the geographic 
intersect of natural hazards and socio-economic vulnerabilities. Their 
work builds on that of the National Risk Index and would allow for 
identification of some of the communities and neighborhoods that may be 
in most need of assistance. In some cases, the history of these areas 
may have roots in the segregationist policies that ``redlined'' people 
of color or immigrants outside of desirable areas and neighborhoods. 
(See, for example, https://www.bloomberg.com/graphics/2021-flood-risk-
redlining/ .) Some of these areas may also have missed out on 
opportunities for hazard investments due to continuing benefit-cost-
analysis policies that prioritize the value of structures protected for 
selection of flood control or mitigation priorities.
    To address these inequities, FEMA should look to incorporating 
equity considerations into its grant assistance scoring and, as 
necessary, adjust its approaches to benefit-cost analyses. If the 
Agency determines that it lacks authority in this area, then Congress 
should consider new authorities and directives to the Agency. Congress 
might also consider directly targeting enhanced federal assistance to 
these areas and working to leverage these investments with private 
mitigation support through tax credits or other incentives.

    Question 15. According to the First Street Foundation there are 
nearly 4.3 million homes across the U.S. with substantial flood risk 
that would result in financial loss. The analysis indicates that if 
these homes were to be insured against flood risk through the National 
Flood Insurance Program (NFIP), the rates would need to increase to 
cover the risk today, and that the cost of expected annual loss of 
properties in the next 30 years will grow by as much as 61% due to 
climate change. Do you think Congress should compel FEMA to develop an 
affordability program under the NFIP? If so, how urgent is the need, 
especially for low- and fixed income, historically disadvantaged 
communities and communities of color?
    Answer. In our view, the information available from the First 
Street Foundation is a welcome addition to what is readily available to 
the public about flood risk. Their analyses and presentations attempt 
to provide credible information about the changes in risk that are 
likely to occur over time. We believe that this information, along with 
more information about past flooding events and claims are important 
tools that should be provided to consumers.
    As Members of Congress understand, however, flood insurance is made 
available and priced on a yearly basis, and while a consumer investing 
a significant portion of his or her savings and income in a 30-year 
mortgage for a property (or the lender) would be wise to consider how 
risk could change over time, the potential for the long-term increase 
in risk does not factor into the current year premium. So some of the 
First Street information speaks, not to this year's insurance rates and 
prices, but to the longer term.
    Will rising sea levels, increases in the intensity and severity of 
storms, and other land use changes mean that some areas will face 
rising threats and likely rising rates in the future? Absolutely. But 
providing subsidies or deep discounts in the short term, though it may 
help to alleviate today's financial pain, is not a true long-term 
solution for those living in these areas. In fact, such subsidies, if 
not carefully targeted and provided along with clear information about 
that growing level of risk, could worsen the problem--further eroding 
the capability of the NFIP to pay premiums and encouraging people to 
remain in or move into risky areas.
    Pew sees the need for multi-pronged solutions. As we have 
discussed, the federal government can help provide good information 
about current risks and the drivers of risk to certain areas. This 
information is essential to good decision-making about land use and 
building requirements imposed at the local or state levels. It can also 
help to identify those areas where current practices may be increasing 
the level of risk and the areas that should be prioritized for 
mitigation. The federal government can also help increase the 
resiliency of communities by increasing its own investments in 
adaptation and mitigation actions and reward state and local partners 
that contribute resources to such projects. In those areas where risks 
are growing or already extreme, this may mean helping people to move to 
safer locations and restoring the natural ecosystems.
    At the same time, FEMA can address the financial pain that some 
low-income families feel as they work to keep themselves insured. An 
important first step in this regard is the implementation of what FEMA 
is calling Risk Rating 2.0. This new rating methodology--the first 
serious update of FEMA's pricing models since the 1970s--offers fairer 
premiums to those who own modestly priced homes, removing the cross-
subsidies that those policyholders were paying to support those with 
larger, pricier homes.
    Beyond this, the House Financial Services Committee has a proposal 
for targeted insurance assistance to low-income policyholders and a 
proposal for a revolving loan fund that could help those families and 
their communities take mitigation actions. Both of these helpful 
proposals were reported out of Committee in the last session of 
Congress on a bipartisan basis. Pew supports the affordability 
assistance proposal, not only because it is carefully targeted to low-
income policyholders and less complicated and expensive to administer 
than other proposals, but also because it is packaged with additional 
investment in flood mitigation.

    Question 16. How can the private and public sectors forge creative 
partnerships that help educate and promote resilience and overcome 
potential obstacles to individuals, communities, and states investing 
in resilience?
    Answer. Several effective private and public partnerships that may 
offer good models or simply deserve additional support from Congress.
    For example, the National Fish and Wildlife Foundation's National 
Coastal Resilience Fund partnership program ( https://www.nfwf.org/
sites/default/files/2021-03/national-coastal-resilience-fund-fact-
sheet.pdf ) works to restore natural infrastructure in coastal 
communities. This program uses regional coastal resilience assessments 
to identify lands suitable for restoration that could protect people 
and wildlife and minimize the impacts of natural disasters. On-the-
ground work is carried out with support from Congressional 
appropriations and collaboration involving NOAA, EPA, and the 
Department of Defense, as well as Shell Oil Company, TransRe, AT&T, and 
Occidental. Since 2018, the program has enhanced protection to roughly 
100,400 properties and 2,500 critical facilities or assets.
    Another notable partnership is located in Alabama, where a small 
non-profit, Smart Home Alabama, was able to demonstrate the value and 
the affordability of IBHS's FORTIFIED standards on Habitat for Humanity 
projects in the State's coastal communities. (https://nextcity.org/
features/view/what-alabama-can-teach-you-about-storm-resilience ) 
Assistance from the Mississippi-Alabama Sea Grant Consortium and from 
Allstate Insurance allowed the group, not only to provide residents 
with safe housing, but also to demonstrate to others that building to 
FORTIFIED standards could be done at reasonable costs, saving money and 
lives. Today, Alabama residents who build or retrofit to FORTIFIED 
standards receive discounts on the wind portion of their homeowners' 
insurance policies, and according to the Alabama Center for Insurance 
Information and Research at the University of Alabama, FORTIFIED homes 
sell for nearly seven percent more than comparable, non-FORTIFIED 
homes. (https://www.smarthomeamerica.org/assets/uploads/UniversityofAL
_Value-Study_FORTIFIEDReport_V2__2.pdf)
    Elsewhere, as we noted in written testimony, Enterprise Community 
Partners has launched a program with the City of Miami to encourage and 
assist the owners of affordable housing to examine the vulnerabilities 
of their buildings to climate change and natural disasters. This 
program aims to keep affordable housing affordable and safe by helping 
these businesses prioritize needed actions and find financing to 
support improvement projects.
    On a larger scale, it may also be possible for Congress to 
incentivize additional private investments into high-risk and high-
social-vulnerability areas using analytics such as that developed by 
RAA to identify priority areas for mitigation investments. Federal, 
state, and local public funding for infrastructure projects within 
identified priority areas could then be leveraged by providing 
incentives to the private sector to also invest and contribute to these 
projects.

  Questions from Hon. Michael Guest to Velma Smith, Senior Government 
   Relations Officer, Flood-Prepared Communities Initiative, The Pew 
                           Charitable Trusts

    Question 1. Mississippi and America struggle protecting our most 
vulnerable populations from recurring disasters. Low-income and 
minority communities often bear the brunt of disasters such as flooding 
yearly in places like Mississippi's South Delta and throughout the 
state. FEMA and MEMA, our state agency in Mississippi, work together to 
implement programs such as mitigation buyouts to remove these 
vulnerable populations from high hazard areas and build back to Federal 
mitigation standards. However, many of these families struggle to 
participate in these programs because of an inability to build back in 
a more resilient way by the time FEMA mitigation funds reach the 
property owners, often taking 6 to 7 months.
    a.  What are ways that the Federal government can better streamline 
assessments and fund disbursement to citizens so that they can rebuild 
in a more resilient way while also maintaining appropriate living 
standards?
    b.  Please expand on ways to improve FEMA and state agency 
mitigation buyout programs that take into account what happens 
following the buyout offer, such as ensuring the ability to purchase a 
new home or offering temporary housing until funds are disbursed, 
allowing for more individuals in need to participate in the programs.
    Answer. The question of how best to help the most vulnerable 
amongst us is an important one. Numerous studies provide evidence that 
disasters take a heavy toll on the well-being of those who are 
economically or otherwise disadvantaged--among them the elderly, the 
disabled, and those struggling to support their families. Without ready 
access to temporary housing or savings to repair homes and cars, many 
of these individuals will struggle for many months or years to recover 
from disasters. Some will be permanently impacted.
    Pew believes we can improve on current approaches to helping the 
most vulnerable populations in several ways. In making such 
improvements we caution, however, that speed can work against safety in 
some respects, and policies must guard against shorter timelines that 
simply return families to unsafe conditions.
    In terms of the damage assessments, Pew supports the additional 
resources that have been made available through recent changes to the 
Stafford Act. Additional resources for local governments to staff up 
for assessments can now be made available during disaster response. We 
also urge FEMA to assure that mitigation experts accompany any federal 
teams deployed to help local communities conduct the appropriate damage 
assessments. Those experts can help communities identify important 
opportunities for fortifying structures or otherwise offering better 
protection to damaged neighborhoods.
    We would also recommend that Congress work with FEMA to assure that 
the Agency can extend or expand the availability of temporary housing 
assistance during instances in when repairs or reconstruction may take 
a longer time period in order to incorporate improved protections.
    Pew has also been looking into the issues surrounding buyouts and 
the operation of several state and local programs, including those in 
Birmingham, Alabama; Nashville, Tennessee; Austin, Texas; and 
Charlotte-Mecklenburg, North Carolina. Our research to date points to 
several possible solutions, including easing of certain procedural 
requirements for state and local governments that establish effective 
ongoing buyout programs. In addition, as a previous response for the 
record indicated, application of the Uniform Relocation Assistance and 
Real Property Acquisition Act to certain federally funded buyouts may 
be helpful. The experience of Austin, Texas may be instructive here. 
Over the years, as Austin has developed its own policies and procedures 
and used local funding to supplement buyout offers for low-income 
families. (https://www.austintexas.gov/sites/default/files/files/
Auditor/Audit_Reports/
Flood_Buyout_Program__February_2017_.pdf) In a similar fashion, the 
State of North Carolina has offered supplemental assistance for buyouts 
in certain cases. (https://www.ncdps.gov/news/press-releases/2019/10/
15/state-awards-supplements-
local-governments-buyout-properties%C2%A0flooded )

Questions from Hon. Peter A. DeFazio and Hon. Dina Titus to Ben Harper, 
         Head of Corporate Sustainability, Zurich North America

    Question 1. Our water infrastructure has proven time and again to 
be vulnerable to be heat and seismic events. We have learned that some 
water systems have been contaminated in the wake of wildfire due to 
melting pipelines. Given your experience from an engineering and 
insurance perspective, what can we do to strengthen key infrastructure 
against these risks?
    Answer. This very issue was discussed in an article published in 
the January/February 2021 issue of Civil Engineering. The article notes 
that additional study and research is needed. However, the authors do 
make a few suggestions on how water contamination issues may be 
addressed. Those suggestions include:
    <bullet>  deploying system isolation methods,
    <bullet>  deeper burial or the use of protective casing, and
    <bullet>  carefully selecting materials in fire-prone areas.

    For the Committee's convenience, the article can be read at https:/
/source.asce.org/response-team-investigates-wildfire-damage-to-buried-
drinking-water-infrastructure/.

    Question 2. Wildfires in western states have been devastating to 
the lives of so many survivors and communities. In the wake of every 
fire, we worry about the next one. How can Congress provide new tools 
to mitigate against the risk of wildfires and prepare before wildfires 
strike?
    Answer. In 2019, Zurich conducted a Post Event Review Capability 
(PERC) of the 2017 and 2018 California Wildfires (https://
www.zurichna.com/-/media/project/zwp/
zna/docs/kh/wildfire/california-wildfire-
report.pdf?la=en&rev=490b6ac68b5e447a
81430529d1ef40d9&hash=406FCE82EC0568F9C15C374627142B4E).
    That review makes several recommendations including:
    <bullet>  Using public lands, parks and playing fields to create 
buffer zones can reduce community exposure;
    <bullet>  Zoning can be used to further reduce exposure by 
mandating clustering of the built environment. Creating defensible 
space and ensuring transportation networks are interconnected and 
appropriately sized can reduce vulnerability;
    <bullet>  Parks and recreation centers within the city center can 
be designed to provide both recreational value and space to shelter in 
place as a last resort when conditions overwhelm the community's other 
plans;
    <bullet>  Codes can be used to influence building styles, building 
materials and landscaping.

    As Congress considers comprehensive infrastructure legislation, 
projects that are designed and planned to mitigate loss and enhance 
community resiliency should be given priority.

    Question 3. What do you believe are the most significant steps that 
can be taken to better protect individual homes and communities against 
wildfire, both for new and existing construction?
    Answer. In addition to the recommendations noted previously, the 
adoption and enforcement fire resistant building codes is an important 
component to making homes and communities more resilient. For example, 
chapter 7A of the California Building Code is an excellent first step 
in helping communities in the Wildland-Urban Interface (WUI) reduce 
their vulnerability. The California code can be a model for other 
wildfire prone states.

    Question 4. How can FEMA better help communities identify and 
implement hazard mitigation and disaster resilience efforts that will 
have the greatest impact on reducing community risk?

    Question 5. What actions should federal agencies take to help the 
nation achieve greater disaster resilience? For example, what 
opportunities exist for federal agencies to ``mainstream'' risk 
reduction, by integrating disaster resilience goals and activities into 
all their missions and initiatives?
    Answer. Combined answer to questions 4 and 5:
    As referenced in my written testimony, Zurich has conducted 16 
PERCS globally. In the United States, we have conducted four (4) such 
reports covering flooding events in North Carolina, South Carolina and 
Houston; and wildfires in California. The PERC methodology was 
specifically designed to turn the lessons learned from the consequences 
of disasters into actions that help businesses and communities become 
more resilient and recover quickly from devastating events. We 
encourage FEMA and other federal agencies to consider adopting a 
similar approach. In fact, the PERC model could be adapted to also 
conduct a ``Pre-event'' assessment.
    Additional information on the completed PERC studies and a manual 
that serves as a guide for conducting PERCs are available at Post-Event 
Review Capability--Flood Resilience Portal [https://
floodresilience.net/perc/#::text=The%20award
%20winning%20Post%2DEvent,risk%20management%20and%20catastrophe
%20intervention.]

    Question 6. Fewer than 40 percent of FEMA-funded Public Assistance 
projects have included a mitigation component during the period 2010 to 
2018. What can FEMA do to incentivize state and local officials to 
incorporate mitigation measures when repairing disaster-damaged 
facilities?
    Answer. As noted in written testimony, the Intergovernmental Panel 
on Climate Change (IPCC) finds strong evidence that climate change is 
occurring, that it is influenced by human action, and that it is 
leading to changes in extreme weather and climate events. When awarding 
funds under its Public Assistance program, FEMA should ensure that 
state and local officials are considering the impact of climate change 
and future conditions on the damaged facility. And, if needed, provide 
assistance to ensure that the facility is repaired in accordance with 
the most up to date codes.

    Question 7. In the latest Government Accountability Office (GAO) 
High-Risk Report, issued early this year, GAO again finds that the 
federal government must reduce its fiscal exposure by managing climate 
change risks and that it has yet to make measurable progress to reduce 
its fiscal exposure to climate change. What do you think the federal 
government ought to do to build or rebuild infrastructure so that it is 
resilient to future conditions of climate change-related impacts such 
as inland and coastal flooding, wildfires, or extreme heat over the 
life-cycle of the project?
    Answer. Zurich has identified climate change as perhaps the most 
complex risk facing society today--it is intergenerational; it is 
international; and it is interdependent. Congress should require that 
federal agencies consider future conditions and the impact of climate 
change in the development, planning, and design stages of federally 
funded projects. Several prominent industry groups, including the 
American Society of Civil Engineers, have developed the technical 
guidance that provides the details with regards to integrating climate 
resiliency in infrastructure.
    Additionally, federal agencies should explore the use of risk-
transfer opportunities, particularly the use of insurance and 
reinsurance. For example, FEMA has transferred over $2 billion of its 
flood risk to the private sector by purchasing reinsurance. Through the 
use of insurance and reinsurance, federal agencies could transfer some 
of the costs associated with climate change from the government 
(taxpayer) to willing private sector participants.

    Question 8. State and local officials often mention the challenges 
they often face in implementing and enforcing codes, largely due to a 
lack of resources. What more could the Federal Government to help 
states and communities overcome this hurdle?
    Answer. Congress could provide tax incentives to individuals and 
business to take steps to harden their homes and businesses. For 
example, the Disaster Savings and Resilient Construction Act, would 
create a $3,000 tax credit for homes and a $25,000 for businesses to 
help with resilient construction.

    Question 9. In November 2020, a FEMA study found that over a 20-
year period, cities and counties with modern building codes would avoid 
at least $32 billion in losses from natural disasters, when compared to 
jurisdictions without modern building codes. What steps can FEMA take 
to further promote and help communities adopt modern building codes?
    Answer. Through its Building Resilient Infrastructure and 
Communities (BRIC) program, FEMA could prioritize projects that are 
already subject to modern codes and/or those projects that include the 
development of updated codes.

    Question 10. We know that the adoption of the latest edition of the 
building code gives the greatest return on investment--$11 for every $1 
invested. What can be done federally to incentivize states to adopt and 
enforce model statewide building codes?
    Answer. Congress took an excellent first step in enacting the 
Disaster Recovery Reform Act of 2018, which emphasized pre-disaster 
mitigation and allowed funds to be used for the development of 
enforcement of consensus-based codes. Considering the response to 
FEMA's Building Resilient Infrastructure and Communities (BRIC) 
program, Congress should consider making additional resources available 
for these activities.

    Question 11. As Congress considers comprehensive legislation to 
modernize and strengthen our nation's infrastructure--our road, rail, 
and aviation networks, hospitals, schools, public housing, and other 
public facilities--would you be supportive of a requirement that these 
structures and facilities be built to the latest consensus-based 
building codes whenever federal funding is used? Are there areas where 
the standards should be increased beyond code requirements to industry 
best practices (i.e., high wind areas)?
    Answer. Yes, it is imperative that modern, consensus-based codes 
are used in new construction. I also urge the Committee and Congress to 
consider the development and use of a sustainability standard, such as 
``ENVISION,'' which was developed by the Institute for Sustainable 
Infrastructure (ISI) and Zofnass Program for Sustainable Infrastructure 
at Harvard University's Graduate School of Design. Done correctly, such 
a standard can address sustainability, resiliency, and equity.

    Question 12. It seems that even across FEMA's programs, there is 
not the uniform application of consensus-based codes and standards 
(Public Assistance, Individual Assistance, Hazard Mitigation, and the 
National Flood Insurance Program). There is also inconsistent 
application across the numerous federal programs that drive investments 
in resilience and mitigation. One of President Biden's early executive 
orders effectively reinstated the Federal Flood Risk Management 
Standard. Should there be a legislative requirement that the 
investments of all federal funds in built infrastructure follow these 
foundational flood requirements?
    Answer. Flooding continues to be the most common natural disaster. 
Zurich, working with other stakeholders and the property and casualty 
industry, supports efforts to enact a federal flood standard. In fact, 
we are working with the American Property Casualty Insurance 
Association (APCIA) and the Smarter Safer Coalition to support the 
Flood Resiliency and Taxpayer Savings Act of 2021.

    Question 13. What are the biggest obstacles facing residential 
mitigation? How can those be overcome?
    Answer. Cost is often cited as a major obstacle facing property 
owners. As mentioned in my response to question #8, Congress could 
provide tax incentives for mitigation.

    Question 14. Prioritizing mitigation and resilience creates a 
significant opportunity for future infrastructure investment. As 
Congress is poised to consider a comprehensive infrastructure package, 
how can we ensure that those investments also foster disaster 
resiliency? How to we make sure all new infrastructure is resilient?
    Answer. As noted previously, Congress should incentivize the 
development and enforcement of modern, consensus-based codes; encourage 
sound land use planning and ensure transportation networks are 
interconnected and appropriately sized to reduce vulnerability. 
Further, Congress should require that future conditions and the impact 
of climate change be considered in the development, planning, and 
design stages of federally funded projects.

    Question 15. What actions can Congress take that would be most 
effective in supporting the resilience of low- and moderate-income 
families?
    Answer. As noted in my written testimony, our PERCS have found that 
the neediest in society are often neglected before and after disasters, 
and sometimes are still recovering from one event when the next one 
strikes. This was precisely the case in NC when Hurricane Florence came 
during the slow recovery from Matthew. In addition to investing in pre-
disaster mitigation funding, we need to improve risk communication, 
ensure have that individuals and business have insurance and, 
importantly, have the appropriate coverage. We need to ensure that 
mitigation funding is indeed reaching vulnerable populations living and 
working in areas vulnerable to catastrophes--that may include expanding 
buy out programs.

    Question 16. According to the First Street Foundation there are 
nearly 4.3 million homes across the U.S. with substantial flood risk 
that would result in financial loss. The analysis indicates that if 
these homes were to be insured against flood risk through the National 
Flood Insurance Program (NFIP), the rates would need to increase to 
cover the risk today, and that the cost of expected annual loss of 
properties in the next 30 years will grow by as much as 61% due to 
climate change. Do you think Congress should compel FEMA to develop an 
affordability program under the NFIP? If so, how urgent is the need, 
especially for low- and fixed income, historically disadvantaged 
communities and communities of color?
    Answer. Zurich North American does not participate in the National 
Flood Insurance Program. However, a fundamental principle of insurance 
is that the price of insurance accurately reflect risk. Not only does 
proper pricing ensure solvency, it sends important risk signals to the 
market and property owners. Rather than obscure the true risk, Congress 
should invest in flood mitigation and pre-disaster preparedness, 
particularly in communities where investment has historically lagged.

    Question 17. What would you say is the most important thing for 
policy makers in Congress to do to establish the federal framework to 
facilitate the ability of the private sector--through environmental, 
social, and governance investments and creative financing and 
opportunities--to bring funding and financial resources to communities 
and states to invest in cost-effective, risk reducing disaster 
mitigation and resilience projects?

    Question 18. How can the private and public sectors forge creative 
partnerships help educate and promote resilience and overcome potential 
obstacles to individuals, communities, and states investing in 
resilience?
    Answer. Combined answer for questions 17and 18--
    Building resilient communities will take the combined efforts of 
federal, state and local government; the private sector; and individual 
property owners. In addition to the use of traditional risk transfer 
mechanisms (insurance and reinsurance), as a way to leverage private 
investment, Congress could consider approaches such as the Reinsurance 
Association of America's Community Disaster Resilience Zones (CDRZ) 
proposal.

    Question 19. Is there a role for the insurance industry to help 
bridge the coverage gap, provide risk identification and data, and 
leverage resources to help communities successfully mitigate disaster 
risks?
    Answer. Yes, insurers play a critical role in assisting 
communities, individuals, and businesses recover when catastrophe 
strikes. Importantly, the industry also plays a vital role in improving 
community preparedness and risk management before the disaster hits. 
Risk communication is vital to ensure that individuals and businesses 
have insurance, and, importantly have the proper coverage. As a 
commercial insurer, Zurich provides extensive risk management, risk 
engineering, and loss prevention services to our customers.

  Questions from Hon. Michael Guest to Ben Harper, Head of Corporate 
                  Sustainability, Zurich North America

    Question 1. Mississippi and America struggle protecting our most 
vulnerable populations from recurring disasters. Low-income and 
minority communities often bear the brunt of disasters such as flooding 
yearly in places like Mississippi's South Delta and throughout the 
state. FEMA and MEMA, our state agency in Mississippi, work together to 
implement programs such as mitigation buyouts to remove these 
vulnerable populations from high hazard areas and build back to Federal 
mitigation standards. However, many of these families struggle to 
participate in these programs because of an inability to build back in 
a more resilient way by the time FEMA mitigation funds reach the 
property owners, often taking 6 to 7 months.
    a.  What are ways that the Federal government can better streamline 
assessments and fund disbursement to citizens so that they can rebuild 
in a more resilient way while also maintaining appropriate living 
standards?
    b.  Please expand on ways to improve FEMA and state agency 
mitigation buyout programs that take into account what happens 
following the buyout offer, such as ensuring the ability to purchase a 
new home or offering temporary housing until funds are disbursed, 
allowing for more individuals in need to participate in the programs.
    Answer. When it comes to mitigation programs related to floods, 
insurers see a loss of opportunity in these programs being used by 
property owners due to the timely and complex bureaucratic process. 
Property owners are most receptive to mitigation offers (including buy-
outs) immediately following the disaster. The impediments of the 
current lengthy improvement processes often prevent property owners 
from taking advantage of these programs. Rather, property owners are 
left with the untenable decision to wait months, if not years, without 
certainty in their living situation, or accept insurance claims 
payments and rebuild in the same high-risk area. A streamlined approval 
process for severe repetitive loss properties could allow for an 
increase acceptance of mitigation offers, reducing the future burden on 
taxpayers and the NFIP that these properties present.

  Questions from Hon. Peter A. DeFazio and Hon. Dina Titus to John C. 
         Fowke, Chairman, National Association of Home Builders

    Question 1. You indicated during the hearing that NAHB, similar to 
the Insurance Institute for Business and Home Safety, had done follow-
on studies about how Hurricane Michael affected the Florida Panhandle, 
including the importance of building codes. Could you please detail for 
us the findings with specific attention to homes built prior to 2000, 
prior to 2008, and over the past decade?
    Answer. In 2017, regions of Texas and Florida experienced damage 
due to Hurricanes Harvey and Irma, respectively. The following year, 
NAHB commissioned Texas A&M University to determine how building code 
editions impacted the amount of damage incurred by residential 
structures.
    The study found that, in Texas, homes built to the International 
Residential Code (IRC) after 2003 performed much better during the 
severe weather events than older homes. The study also found that 
Florida homes built after 1994 and to the Florida-specific building 
code based on the IRC were more resilient to wind damage.
    The study also found that building to the IRC (post 2003) was very 
effective in preventing the destruction of homes due to wind during 
Hurricanes Harvey and Irma and resulted in significantly less damage to 
wall and roof coverings and loss of those components while also 
minimizing window breakage.
    Prior to this study, anecdotal reports, including statements in the 
Federal Emergency Management Agency's damage assessments and media 
coverage, suggested that homes built to the IRC performed well in both 
states. However, there was little empirical evidence to support those 
claims.
    The table below highlights the results from the Texas (Harvey) 
analysis. There is a clear change in the results from pre and post 
2003. Although the overall sample size of homes exceeded 3,000, the 
study did not include forensic analysis of the actual failures (e.g. 
heavy wind, debris, installation errors, etc.). NAHB would encourage 
FEMA, NIST or NSF to perform a more in-depth analysis to better 
understand the failure modes of homes built to the modern (post 2000) 
codes to ensure any further changes to the building codes are targeted 
to documented problems and recurrence levels and properly cost 
justified. NAHB would be willing to participate in the study.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    For the complete study, go to: https://www.nahb.org/advocacy/top-
priorities/
building-codes/Construction-Codes-Standards-Research/Damage-Assessment-
from-
Hurricanes-Harvey-and-Irma

    Question 2. Wildfires in western states have been devastating to 
the lives of so many survivors and communities. In the wake of every 
fire, we worry about the next one. How can Congress provide new tools 
to mitigate against the risk of wildfires and prepare before wildfires 
strike?
    Answer. There are number of tools that Congress can provide to help 
mitigate the risk of wildfires. First, funding for state and local 
foresters, land managers and others to implement forest management 
practices, such as selective burning and cutting to improve forest 
health, can go a long way toward significantly reducing the intensity 
of many wildfires and improve the ability of the fire service to 
contain them. Also, Congress can provide funding to assist utilities in 
properly maintaining their transformers and transmission lines to 
reduce the chances of their equipment contributing to igniting fires.
    Second, Congress can provide financial incentives to homeowners to 
make existing homes more resistant to wildfires. Replacing existing 
roofing or siding with ignition-resistant materials provides a first 
line of defense against wildfires. But replacing roofing or siding can 
be prohibitively expensive. Helping homeowners cover the upfront costs 
of these retrofit through grants and tax credits can reduce damage and 
improve safety. Likewise, recognizing these retrofits through insurance 
premium reductions or rebates could also make them more cost-effective 
and convince homeowners to invest in mitigation.
    Third, Congress can help communities and homeowners better 
understand their risks and plan and implement effective mitigation 
options. Because wildfire is an interdependent risk, as the damage 
faced by homeowners is dependent on both their actions and the actions 
of their neighbors (and potentially communities), promoting cooperation 
and planning, as well as motivating property-level investments, is 
vital to reducing damage. Likewise, because many homeowners don't know 
where to start or what actions to take to reduce their risks, providing 
information on low-cost options and/or technical assistance to guide 
consumers to desirable endpoints could be an important key to success.

    Question 3. What do you believe are the most significant steps that 
can be taken to better protect individual homes and communities against 
wildfire, both for new and existing construction?
    Answer. States and communities can extend water supply lines to 
developments in wildland-urban interface areas to improve the fire 
service's ability to protect buildings and people from wildfires and 
better contain house fires within originating properties. In addition, 
education should be provided for homeowners located within high fire 
risk areas on the need to create and maintain ``defensible space'' 
around their homes. These spaces are designed to slow the rate and 
intensity of fires and provide opportunities to suppress them. Examples 
of maintenance might include removing dry vegetation, leaves, pine 
needles and other combustible materials from such spaces. Homeowners 
also need to be educated about the importance of keeping roofs and 
gutters clean of leaves, pine needles and other debris and making sure 
vents and openings are covered with \1/8\" or smaller mesh to prevent 
embers from getting into attics and crawlspaces.
    If determined appropriate by a community, the International 
Wildland Urban Interface Code (IWUIC) can be adopted, with amendments 
as necessary to serve local needs and understanding of risk, to 
mitigate the spread of wildfires, and protect people and property from 
wildfire exposure. One of the family of I-codes, the IWUIC has as its 
objective the establishment of minimum special regulations for the 
safeguarding of life and property from the intrusion of fire from 
wildland fire exposures and fire exposures from adjacent structures and 
to prevent structure fires from spreading to wildland fuels, even in 
the absence of fire department intervention.

    Question 4. As Congress considers comprehensive legislation to 
modernize and strengthen our nation's infrastructure--our road, rail, 
and aviation networks, hospitals, schools, public housing, and other 
public facilities--would you be supportive of a requirement that these 
structures and facilities be built to the latest consensus-based 
building codes whenever federal funding is used? Are there areas where 
the standards should be increased beyond code requirements to industry 
best practices (i.e., high wind areas)?
    Answer. NAHB continues to support the requirement for 
infrastructure and public facilities to be built to the latest 
published edition of the code as long as the definition of ``latest 
published edition'' means either of the two most recently published 
editions, but cautions against extending such a requirement beyond 
critical facilities.
    Further, NAHB urges Congress to ensure that any such requirement to 
build to the latest code is further clarified to ensure that 
``reference to a specification or standard that incorporate the latest 
hazard-resistant designs'' is limited to only the edition(s) of those 
specifications or standards that are referenced in the two most 
recently published editions of the applicable consensus-based code. 
This is critical to ensure clarity and avoid any unintended 
consequences for program implementation in the field.
    Finally, NAHB strongly believes that State and local governments 
must retain authority over land use and their code adoption processes 
so they can continue to direct community development and implement the 
codes that best fit their jurisdictions. NAHB urges Congress to ensure 
that any requirement that structures and facilities be built to the 
latest consensus-based building codes be limited to the specific 
projects in question and not be unintentionally used to force 
community-wide adoption of a specific code.

    Question 5. It seems that even across FEMA's programs, there is not 
the uniform application of consensus-based codes and standards (Public 
Assistance, Individual Assistance, Hazard Mitigation, and the National 
Flood Insurance Program). There is also inconsistent application across 
the numerous federal programs that drive investments in resilience and 
mitigation. One of President Biden's early executive orders effectively 
reinstated the Federal Flood Risk Management Standard. Should there be 
a legislative requirement that the investments of all federal funds in 
built infrastructure follow these foundational flood requirements? If 
not, what exceptions do you believe are necessary?
    Answer. NAHB remains concerned about implementation of the Federal 
Flood Risk Management Standard (FFRMS) due to the potential that many 
federal housing and permitting programs the home building industry 
relies on to provide affordable housing for all Americans will become 
unnecessarily burdened by new and unwarranted federal requirements. 
While it is not certain what this administration's implementation of 
FFRMS might look like, prior attempts to implement the FFRMS, which 
sought to apply new federal flood risk reduction standards to all 
federal actions was overly broad and unnecessary. The ripple effect of 
such an expanded scope of coverage could impose unnecessary regulatory 
requirements and additional red tape for home building, home financing, 
home sales, and land development along coasts, rivers, streams, lakes 
and ponds. Equally problematic, these additional requirements will 
severely hinder housing affordability at a time when there is already a 
significant affordable housing shortage.

    Question 6. What are the biggest obstacles facing residential 
mitigation? How can those be overcome?
    Answer. NAHB believes it is essential that Congress keep housing 
affordability and homeownership at the forefront of any discussions 
involving residential resilience. In doing so, Congress is urged to 
focus on cost effective mitigation strategies for the existing housing 
stock, financial assistance options, and reliance on incentives and 
voluntary above-code programs to compel market action and consumer 
response.
    In doing so, Congress must address the biggest challenges, which 
are the initial costs, the need to account for the value of the 
upgrades within property assessments and appraisals, and the need for 
technical assistance to help property owners understand the needs and 
options so they can make the best choices.
    Residential mitigation can take many forms, from reinforcing roofs 
to installing new siding, elevating electrical equipment to elevating 
entire structures. The specific upgrades that are ultimately selected 
and performed are dependent upon risk level, type of risk, structure 
specifics and cost, among others. Many families, however, have limited 
savings and cannot fund the thousands or tens of thousands of dollars 
needed to complete most mitigation projects. Although some funding may 
be available, the federal aid programs are typically oversubscribed and 
payments delayed, making them of limited widespread use. Developing 
programs, grants, incentives, insurance rebates or other mechanisms 
designed to help homeowners overcome the initial costs could go a long 
way toward convincing them to invest in mitigation.
    Similarly, revamping appraisal and assessment protocols to 
recognize the added value associated with these mitigation efforts is 
vital. Under current practice, in most instances, mortgage companies, 
appraisers and real estate professionals do not consider the costs or 
benefits associated with various disaster mitigation and resilience 
projects. This creates a disincentive to take proactive steps to reduce 
a home's exposure, as those expenditures are not necessarily considered 
to add value. If the improvements are not included in the appraisal or 
appraised value of the structure, not only is the buyer uninformed 
about the home's qualities, his or her willingness to pay more can be 
significantly diminished.
    In an effort to spur private investment in efficiency and 
resiliency, the value and benefit of above code practices and 
mitigation measures should be incorporated into standard real estate 
lending practices and real estate listings. By recognizing and 
valuating the upgrades, appraisers can consistently give weight to 
these improvements, lenders may reconsider qualifying loan ratios, 
realtors can promote their benefits, homeowners would get assurances 
that the investments they have made will retain value and be recognized 
in resale and homes would be more likely to get the upgrades needed to 
improve their performance.
    Similar to the valuation process and state insurance discounts, 
recognizing improved resiliency can also be done by tweaking the NFIP. 
Currently, all improvements to fortify a home against flood hazards do 
not result in flood insurance premium discounts. For example, in its 
``Reducing Flood Risk to Residential Buildings That Cannot Be 
Elevated'' document, FEMA outlines several alternative actions that can 
be taken in lieu of elevation. Of the measures discussed, however, only 
50 percent of them are eligible for flood insurance premium reductions. 
Congress should work with FEMA to ensure that all building practices 
that mitigate risk and improve resiliency provide homeowners with 
clearly understood rate discounts without regard for rating 
methodology.

    Question 7. What actions can Congress take that would be most 
effective in supporting the resilience of low- and moderate-income 
families?
    Answer. NAHB urges Congress to ensure that programs adopted to 
support the resilience of low- and moderate-income families are not 
myopically focused solely on the residential structure itself. Truly 
effective resilience outcomes will only be achieved when programs look 
holistically at the community in which these families live. Residential 
resilience relies not only on the home in which families live but on 
the community's ability to maintain and continue access to such 
lifelines as transportation, electricity, water, food and medical care.
    Additionally, Congress can help support these families and the 
communities they live in by providing help with funding and technical 
assistance needed to ensure mitigation programs are understood and 
accessed. These efforts should include a review of the disparate 
processes and timelines of various mitigation and support programs to 
determine if better alignment will improve understanding and access of 
the programs. Congress should also consider establishing an office 
similar to the Office of the Flood Insurance Advocate (OFIA), to serve 
as a central clearinghouse for homeowners, tenants and communities 
facing roadblocks to conducting effective mitigation via federal 
programs.

    Question 8. What would you say is the most important thing for 
policy makers in Congress to do to establish the federal framework to 
facilitate the ability of the private sector--through environmental, 
social, and governance investments and creative financing and 
opportunities--to bring funding and financial resources to communities 
and states to invest in cost-effective, risk reducing disaster 
mitigation and resilience projects?
    Answer. NAHB encourages Congress to focus on creating a framework 
to support and facilitate measurable, on the ground improvements, as 
well as investments that target first cost financing for mitigation and 
resilience projects. While planning is a vital component to improving 
resiliency, tangible results oftentimes can better compel additional 
action. Likewise, the focus on first cost financing is crucial as many 
people cannot afford to purchase a home, much less one that exceeds 
current building requirements. Likewise, due to the high initial costs 
associated with purchasing and/or installing many above-code resilience 
features, many homeowners are unable to finance desired or necessary 
mitigation projects. For those seeking to incorporate mitigation and 
resilience into construction practices, numerous challenges exist in 
obtaining the necessary financing to support their efforts including 
access to funding or financing that reflects the value of those 
projects.

    Question 9. How can the private and public sectors forge creative 
partnerships to help educate and promote resilience and overcome 
potential obstacles to individuals, communities, and states investing 
in resilience?
    Answer. Partnerships typically grow out of shared interests and 
similar goals. One step that the federal government could expand upon 
that could lead to new relationships is hosting forums, roundtables, or 
other broad gatherings through which participants are able to network 
and explore common interests. A key component of the success of such 
programs is to ensure all impacted and interested stakeholders are 
invited to participate. NAHB held a summit on green home valuation and 
invited key industry stakeholders, the Mortgage Bankers Association, 
the National Association of REALTORS and the Appraisal Institute to 
attend. This event uncovered the need for consistent education, term 
definition and messaging around green and energy efficient homes within 
the industry to lessen confusion in housing policy, legislation and 
valuation. A similar approach among this same group of stakeholders 
could help in overcoming obstacles to invest in resilience.
    In addition, NAHB has partnered with the National Association of 
REALTORS to develop an initiative called ``Home Performance Counts,'' 
which provides easy access to resources and information for home 
buyers, home builders, real estate professionals and consumers on the 
potential benefits and value that high-performance building features 
can provide. The outreach and education focus of this initiative can 
serve as a model for other partnerships to build awareness and promote 
investing in resilience.

Questions from Hon. Michael Guest to John C. Fowke, Chairman, National 
                      Association of Home Builders

    Question 1. Mississippi and America struggle protecting our most 
vulnerable populations from recurring disasters. Low-income and 
minority communities often bear the brunt of disasters such as flooding 
yearly in places like Mississippi's South Delta and throughout the 
state. FEMA and MEMA, our state agency in Mississippi, work together to 
implement programs such as mitigation buyouts to remove these 
vulnerable populations from high hazard areas and build back to Federal 
mitigation standards. However, many of these families struggle to 
participate in these programs because of an inability to build back in 
a more resilient way by the time FEMA mitigation funds reach the 
property owners, often taking 6 to 7 months.
    a.  What are ways that the Federal government can better streamline 
assessments and fund disbursement to citizens so that they can rebuild 
in a more resilient way while also maintaining appropriate living 
standards?
    Answer. Many have recognized that the current federal disaster 
programs, while playing a vital role in enabling recovery, are 
challenging for all, but even more so for lower-income households.\1\ 
In addition to providing additional funding, which can be done through 
any one of the existing assistance and mitigation programs, other 
proactive measures include making HUD's CDBG-DR program a permanently 
authorized program or at a minimum, shortening the turnaround time for 
fund disbursement; funding technology upgrades and training to equip 
FEMA and local communities to quickly complete damage assessments and 
improve the pace at which payments can be made; simplifying the 
programs and streamlining the associated paperwork burdens that must be 
completed to qualify for assistance; and providing technical expertise 
to help homeowners better understand what mitigation and/or funding 
assistance they may qualify for and what is required to apply.
---------------------------------------------------------------------------
    \1\ See, for example, Urban Institute Policy Debate: Improving the 
Disaster Recovery of Low-Income Families, at urban.org/debates/
improving-disaster-recovery-low-income-families

    b.  Please expand on ways to improve FEMA and state agency 
mitigation buyout programs that take into account what happens 
following the buyout offer, such as ensuring the ability to purchase a 
new home or offering temporary housing until funds are disbursed, 
allowing for more individuals in need to participate in the programs.
    Answer. When considering post-disaster efforts, NAHB urges Congress 
to focus on promoting comprehensive community recovery planning that 
includes a variety of options and actions to restore the vital 
infrastructure and functions of the community as well as the full 
spectrum of housing needs. In doing so, state and local governments 
must retain the authority to make land use decisions and determine how 
best to meet their community redevelopment goals. While mitigation 
buyout programs can be a useful tool within a comprehensive housing 
recovery plan, there are many other options available to address local 
needs. Plans that integrate a full range of housing solutions to assist 
local jurisdictions will not only help in speeding up the process of 
moving local citizens into permanent long-term housing following an 
event, but also serve to help mitigate future risk. NAHB encourages 
Congress to reinforce efforts by FEMA to enhance local disaster and 
recovery planning to ensure that issues such as housing recovery and 
resilience are thought through long before those plans are needed. 
Congress should also facilitate the work of State and local 
jurisdictions by aligning the planning requirements across all of the 
federal agencies to ensure they are working together to achieve risk 
mitigation, increased resilience and maintain the necessary balance 
between the environment and community development.

                               [all]

                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
